No.

IN THE

Supreme Court of the United States
_______________

BNSF RAILWAY COMPANY,

Petitioner,
v.
ROBERT DANNELS,
_______________

Respondent.

On Petition For A Writ Of Certiorari
To The Supreme Court Of
The State Of Montana
_______________
PETITION FOR A WRIT OF CERTIORARI
_______________
ANDREW S. TULUMELLO

Counsel of Record
ZACHARY D. TRIPP
CLAIRE L. CHAPLA
WEIL, GOTSHAL & MANGES LLP
2001 M St NW
Washington, D.C. 20036
(202) 682-7100
drew.tulumello@weil.com

Counsel for Petitioner

QUESTION PRESENTED
The Federal Employers’ Liability Act (“FELA”), 45
U.S.C. § 51, establishes a “uniform,” “comprehensive,”
and “exclusive” federal regime governing railroads’ liability for employee on-the-job injuries. N.Y. Cent.
R.R. Co. v. Winfield, 244 U.S. 147, 150-51 (1917).
More than a century of this Court’s cases hold that
FELA “liability can neither be extended nor abridged
by common or statutory laws of the state.” N.Y. Cent.
& Hudson R.R. Co. v. Tonsellito, 244 U.S. 360, 362
(1917).
In the decision below, the Montana Supreme
Court upheld state-law duties that interfere with and
deprive defendants of FELA defenses. Specifically,
Montana state law requires a defendant to enter into
a “prompt, fair, and equitable settlement” when federal liability under FELA becomes “reasonably clear,”
even if it has federal defenses that may ultimately
prove to be meritorious. If the FELA defendant fails
to settle and pay in that circumstance, it can be sued
for emotional distress and punitive damages. The
Montana Supreme Court held that FELA does not
preempt such claims because FELA does not provide
a remedy for “unfairly” refusing to settle, and therefore state law may “fill the space” left by Congress.
The question presented is:
Whether FELA preempts state-law duties that require a defendant to settle and pay FELA claims even
when the defendant has non-frivolous defenses to liability under FELA.

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
All parties to the proceeding below are named in
the caption.
Pursuant to this Court’s Rule 29.6, undersigned
counsel states that petitioner BNSF Railway Company’s parent company is Burlington Northern Santa
Fe, LLC. Burlington Northern Santa Fe, LLC’s sole
member is National Indemnity Company. The following publicly traded company owns 10% or more of National Indemnity Company: Berkshire Hathaway Inc.

iii
STATEMENT OF RELATED PROCEEDINGS
are:

The proceedings directly related to this petition

Dannels v. BNSF Ry. Co., No. DA 19-0343, 483
P.3d 495 (Mont. Mar. 23, 2021);
Dannels v. BNSF Ry. Co., No. BDV-14-001 (Mont.

8th Judicial Dist. Ct. May 14, 2019);

BNSF Ry. Co. v. Mont. Eighth Judicial Dist. Ct.,
139 S. Ct. 2634 (2019) (petition dismissed pursuant to
Supreme Court Rule 46);
BNSF Ry. Co. v. Mont. Eighth Judicial Dist. Ct.,
No. OP 18-0693, 2019 WL 1125342 (Mont. Mar. 12,
2019);
Ahern v. Eighth Judicial Dist. Ct., No. OP 180054, 2018 WL 4094463 (Mont. Feb. 20, 2018).

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED........................................ i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ........................................ ii
STATEMENT OF RELATED PROCEEDINGS..... iii
TABLE OF APPENDICES ..................................... vi
TABLE OF AUTHORITIES................................... vii
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ...................................... 1
STATEMENT ........................................................... 2
A. FELA’s Comprehensive Framework
For Railroad Liability ......................... 4
B. Montana’s Statutory And Common
Law Claims for Unfair Settlement
Practices .............................................. 7
C. Factual Background And Procedural
History .............................................. 10
REASONS FOR GRANTING THE PETITION .... 15
I.

THE DECISION BELOW CONFLICTS WITH
THIS COURT’S FELA PRECEDENT. ............. 16

II. FEDERAL AND STATE COURTS IN MONTANA
ARE SPLIT ON THE QUESTION
PRESENTED. ............................................... 24
III. THE QUESTION PRESENTED IS
EXCEPTIONALLY IMPORTANT TO FELA
DEFENDANTS AND TO THE PRESERVATION
OF FELA’S UNIFORM FEDERAL
FRAMEWORK. ............................................. 27

v
CONCLUSION ....................................................... 33

vi
TABLE OF APPENDICES
Page
APPENDIX A: Opinion of the Supreme Court of
the State of Montana (Mar. 23, 2021) ............... 1a
APPENDIX B: Order of the Supreme Court of
the State of Montana (Mar. 12, 2019) ............. 55a
APPENDIX C: Order of the Montana Eighth
Judicial District Court, Cascade County
(Nov. 16, 2018) ................................................. 67a
APPENDIX D: Order of the Supreme Court of
the State of Montana (Feb. 20, 2018) ............ 108a
APPENDIX E: Order of the Montana Eighth
Judicial District Court, Cascade County
(Jan. 9, 2018) ................................................... 113a
APPENDIX F: Complaint and Jury Demand
(Sept. 10, 2014) ............................................... 128a
APPENDIX G: Complaint and Jury Demand
(Dec. 6, 2010) ................................................... 146a
APPENDIX H: Constitutional and Statutory
Provisions Involved ......................................... 150a
U.S. Const. art. VI, cl. 2 ........................... 150a
45 U.S.C. § 51............................................ 151a
Mont. Code Ann. § 33-18-201 ................... 152a
Mont. Code Ann. § 33-18-242 ................... 154a

vii
TABLE OF AUTHORITIES
Page(s)
Cases

Am. Tradition P’ship, Inc. v. Bullock,

567 U.S. 516 (2012) (per curiam) ........................ 31

Anderson v. BNSF Ry. Co.,

354 P.3d 1248 (Mont. 2015) ................................. 31

Atl. Richfield Co. v. Mont. Second
Judicial Dist. Ct.,

408 P.3d 515 (Mont. 2017) ................................... 32

Bailey v. Cent. Vt. Ry.,

319 U.S. 350 (1943) ........................................ 18, 20

BNSF Ry. Co. v. Loos,

139 S. Ct. 893 (2019) ............................................ 24

BNSF Ry. Co. v. Tyrrell,

137 S. Ct. 1549 (2017) .......................................... 10

Brewington v. Emp’rs Fire Ins. Co.,

992 P.2d 237 (Mont. 1999) ..................................... 8

Brown v. W. Ry. of Ala.,

338 U.S. 294 (1949) .............................................. 21

Burnett v. N.Y. Cent. R.R. Co.,

380 U.S. 424 (1965) .............................................. 27

Chi., Milwaukee & St. Paul Ry. Co. v.
Coogan,

271 U.S. 472 (1926) ........................................ 16, 20

viii

Consol. Rail Corp. v. Gottshall,

512 U.S. 532 (1994) .................................... 2, 5, 6, 7

Counts v. Burlington N. R.R. Co.,

896 F.2d 424 (9th Cir. 1990) ............................ 4, 26

Dice v. Akron, Canton & Youngstown
R.R. Co.,

342 U.S. 359 (1952) .................... 2, 6, 17, 18, 21, 22

DuBray v. Farmers Ins. Exch.,

36 P.3d 897 (Mont. 2001) ....................................... 9

Dutra Grp. v. Batterton,

139 S. Ct. 2275 (2019) ............................................ 7

Erie R.R. Co. v. Winfield,

244 U.S. 170 (1917) .......................................... 6, 16

Farmer v. United Bhd. of Carpenters &
Joiners of Am.,

430 U.S. 290 (1977) .............................................. 14

Felder v. Casey,

487 U.S. 131 (1988) .............................................. 21

Florida v. White,

526 U.S. 559 (1999) .............................................. 24

Garrett v. Moore-McCormack Co.,

317 U.S. 239 (1942) ................................................ 6

Giard v. Burlington N. Santa Fe Ry.
Co.,

No. 12-CV-113, 2014 WL 37687
(D. Mont. Jan. 6, 2014) ........................................ 25

ix

Gibson v. W. Fire Ins. Co.,

682 P.2d 725 (Mont. 1984) ..................................... 9

Graf v. Cont’l W. Ins. Co.,

89 P.3d 22 (Mont. 2004) ......................................... 9

Johnson v. California,

545 U.S. 162 (2005) .............................................. 24

Klaudt v. Flink,

658 P.2d 1065 (Mont. 1983) ................................. 23

Kozar v. Chesapeake & Ohio Ry. Co.,

449 F.2d 1238 (6th Cir. 1971) ................................ 7

Lockard v. Mo. Pac. R.R. Co.,

894 F.2d 299 (8th Cir. 1990) ................................ 30

Martin v. Hunter’s Lessee,

14 U.S. 304 (1816) ................................................ 25

Mich. Cent. R.R. Co. v. Vreeland,

227 U.S. 59 (1913) .................................................. 6

N.Y. Cent. & Hudson R.R. Co. v.
Tonsellito,

244 U.S. 360 (1917) .. 2, 3, 16, 17, 19, 20, 22, 23, 30

N.Y. Cent. R.R. Co. v. Winfield,

244 U.S. 147 (1917) ........ 2, 5, 16, 17, 19, 20, 21, 24

Norfolk & W. Ry. Co. v. Liepelt,

444 U.S. 490 (1980) ............................................ 2, 6

O’Fallon v. Farmers Ins. Exch.,

859 P. 2d 1008 (Mont. 1993) ................................ 30

x

Ogden v. Mont. Power Co.,

747 P.2d 201 (Mont. 1987) ..................................... 8

PPL Mont., LLC v. Montana,

229 P.3d 421 (Mont. 2010) ................................... 32

PLIVA, Inc. v. Mensing,

564 U.S. 604 (2011) .............................................. 21

Reidelbach v. Burlington N. & Santa Fe
Ry. Co.,

60 P.3d 418 (Mont. 2002) ............... 8, 11, 13, 14, 25

Ridley v. Guar. Nat’l Ins. Co.,

951 P.2d 987 (Mont. 1997) ..................................... 9

Rogers v. Mo. Pac. R.R. Co.,

352 U.S. 500 (1957) ............................................ 5, 6

Rogers v. Mo. Pac. R.R. Co.,

352 U.S. 521 (1957) .............................................. 19

S. Buffalo Ry. Co. v. Ahern,

344 U.S. 367 (1953) .................. 2, 16, 18, 19, 20, 29

Seaboard Air Line Ry. v. Horton,

233 U.S. 492 (1914) ........................................ 19, 20

Shilhanek v. D-2 Trucking, Inc.,

70 P.3d 721 (Mont. 2003) ....................................... 9

Stephens v. Safeco Ins. Co. of Am.,

852 P.2d 565 (Mont. 1993) ..................................... 8

Stiffarm v. Burlington N. R.R. Co.,

81 F.3d 170 (Table), 1996 WL
146687 (9th Cir. 1996) (per curiam) ................ 4, 26

xi

Toscano v. Burlington N. R.R. Co.,

678 F. Supp. 1477 (D. Mont. 1987).................. 4, 25

Turner v. Rogers,

564 U.S. 431 (2011) .............................................. 24

Tyrrell v. BNSF Ry. Co.,

373 P.3d 1 (Mont. 2016) ....................................... 31

Urie v. Thompson,

337 U.S. 163 (1949) ................................................ 6

Watters v. Guar. Nat’l Ins. Co.,

3 P.3d 626 (Mont. 2000) ......................................... 9

Wildman v. Burlington N. R.R. Co.,

825 F.2d 1392 (9th Cir. 1987) ...................... 3, 7, 26

Wilson v. Garcia,

471 U.S. 261 (1985) .............................................. 21

Statutes
28 U.S.C. § 1257(a) ...................................................... 1
28 U.S.C. § 1445(a) .......................................... 4, 27, 28
45 U.S.C. § 51 ................................................ 1, 2, 6, 27
45 U.S.C. § 56 .............................................................. 4
45 U.S.C. § 60 ........................................................ 7, 27
Mont. Code Ann. § 33-18-201 .............................. 3, 8, 9
Mont. Code Ann. § 33–18–242 ........................ 8, 23, 28

xii
Constitutional Provisions
U.S. Const. art. VI, cl. 2 ............................................ 20
Rules
Sup. Ct. R. 10(b) ........................................................ 24
Other Authorities
John R. Berryman, Sutherland on
Damages (4th ed. 1916) ......................................... 5
The Federalist No. 82 (McLean’s ed.)
(Alexander Hamilton) .......................................... 25
Greg Munro, Continuing Development

of Insurance Bad Faith in Montana,
Tr. Trends 25–26 (2007),
https://scholarship.law.umt.edu/facul
ty_barjournals/13/ ................................................ 28

Restatement (Second) of Contracts
(1981) ...................................................................... 8
M.G. Roberts, Federal Liabilities of
Carriers (1918) ....................................................... 5
S. Rep. No. 76-661 (1939) ............................................ 7

PETITION FOR A WRIT OF CERTIORARI
Petitioner BNSF Railway Company (“BNSF”) respectfully petitions for a writ of certiorari to review
the judgment of the Montana Supreme Court.
OPINIONS BELOW
The opinion of the Montana Supreme Court (Pet.
App. 1a-54a) is reported at 483 P.3d 495. The opinion
of the district court denying petitioner’s motion for
summary judgment (Pet. App. 113a-127a) is unreported.
JURISDICTION
The judgment of the Montana Supreme Court was
entered on March 23, 2021. Pet. App. 1a. Pursuant
to this Court’s orders of March 19, 2020, and July 19,
2021, the time for filing a petition for a writ of certiorari has been extended to 150 days from the date of
the judgment, thus to and including August 20, 2021.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a). The decision below is a final judgment rendered by the highest court of a State, and addresses whether the Federal Employers’ Liability Act
(“FELA”), 45 U.S.C. § 51, preempts the bad-faith laws
of the State of Montana, as applied to FELA defendants.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
All pertinent constitutional and statutory provisions are reproduced in the Petition Appendix at 150a154a.

2
STATEMENT
Since FELA was enacted in 1908, this Court has
repeatedly held that it establishes a “comprehensive”
and “exclusive” framework for the “responsibility of
interstate carriers by railroad to their employees injured in such commerce.” N.Y. Cent. R.R. Co. v. Winfield, 244 U.S. 147, 151-52 (1917) (internal quotation
marks omitted). FELA is not a “workers’ compensation statute,” and it does not “make the employer the
insurer of the safety of his employees.” Consol. Rail
Corp. v. Gottshall, 512 U.S. 532, 543 (1994). Instead,
FELA adopts a tort-based system that makes railroads liable for injuries caused to their workers due to
negligence. See 45 U.S.C. § 51.
Notably, FELA does not “leave the states free to
require compensation where the act withholds it,”
Winfield, 244 U.S. at 150, and FELA’s remedial
scheme can be neither “extended nor abridged by common or statutory laws of the state,” N.Y. Cent. & Hudson R.R. Co. v. Tonsellito, 244 U.S. 360, 362 (1917).
Nor may States dictate “what defenses” can and can
“not be properly interposed to suits under [FELA].”
Dice v. Akron, Canton & Youngstown R.R. Co., 342
U.S. 359, 361 (1952).
Because FELA’s central purpose was “to create
uniformity throughout the Union with respect to railroads’ financial responsibility for injuries to their employees,” Norfolk & W. Ry. Co. v. Liepelt, 444 U.S.
490, 493 n.5 (1980) (internal quotation marks omitted), this Court has consistently deemed preempted
any “state law trenching on the province of the Act,”
S. Buffalo Ry. Co. v. Ahern, 344 U.S. 367, 371 (1953).
And it has held, time and again, that states are not

3
free to supplement purported gaps in FELA by imposing additional liability and state-law duties. See, e.g.,
Tonsellito, 244 U.S. at 361-62.
The Montana Supreme Court’s decision below repudiates all of these precedents. The Montana Supreme Court’s decision treats the railroad as the
worker’s insurer and imposes state-law duties to settle a FELA case once liability is “reasonably clear.”
Mont. Code Ann. § 33-18-201(6). The Montana Supreme Court characterized it as “bad faith” for a defendant to continue raising non-frivolous FELA defenses at that point, and found it “ironic” and “inconceivable” that an employee would have “no remedy for
a railroad’s intentional claims-handling conduct.”
Pet. App. 14a-15a, 19a. The Montana Supreme Court
held that in order to “protect[] Montana citizens,”
state law could “fill the space” left by Congress and
add new substantive duties requiring FELA defendants to waive their federal defenses or face liability for
emotional distress and punitive damages. Id. at 15a.
The Montana Supreme Court’s decision thus subverts
the negligence-based framework and national uniformity FELA was enacted to promote.
The Montana Supreme Court’s decision reinforces
a stark split between the state and federal courts in
the Ninth Circuit in Montana on the scope of FELA
preemption. The Montana Supreme Court allowed liability for emotional distress and punitive damages
for unfair settlement practices, but the Ninth Circuit
has held that FELA preempts any claim for punitive
damages, Wildman v. Burlington N. R.R. Co., 825
F.2d 1392, 1394 (9th Cir. 1987), as well as state-law
claims alleging misconduct including fraud during the
negotiation of a FELA settlement, see Counts v. Burlington N. R.R. Co., 896 F.2d 424, 426 (9th Cir. 1990).

4
The Ninth Circuit also has held that FELA preempts
state-law claims for intentional infliction of emotional
distress. Stiffarm v. Burlington N. R.R. Co., 81 F.3d
170 (Table), 1996 WL 146687 (9th Cir. 1996) (per curiam). And the federal district court in Montana has
squarely held that FELA preempts Montana’s statelaw claims for unfair settlement practices. See
Toscano v. Burlington N. R.R. Co., 678 F. Supp. 1477,
1479 (D. Mont. 1987).
Therefore, liability under FELA in Montana turns
on whether a railway worker chooses to file a complaint in state or federal court. Moreover, although
Toscano is a district court decision, there is no realistic prospect of further percolation on these issues in
federal court. Given FELA’s express authorization of
concurrent jurisdiction, 45 U.S.C. § 56, and the statutory prohibition on removing a FELA case from state
court to federal court, 28 U.S.C. § 1445(a), railway
workers in Montana can always file in state court to
secure the advantage of Montana’s novel scheme and
the opportunity to recover punitive and non-economic
emotional distress damages that are foreclosed in federal court.
This Court’s review is essential to restore nationwide uniformity in FELA’s application. Review is also
necessary to protect the integrity of this Court’s precedent establishing FELA as a comprehensive and exclusive remedy for railroad worker on-the-job injuries,
and to resolve the conflict in how FELA actions are
litigated in the federal and state courts of Montana.
A. FELA’s Comprehensive Framework For
Railroad Liability
Congress enacted FELA as a comprehensive federal remedy for railroad employees injured in on-the-

5
job accidents. Congress “was dissatisfied with the
common-law duty of the master to his servant” and
sought to reduce disputes between railroads and their
employees to “the single question whether negligence
of the employer played any part … in the injury or
death which is the subject of the suit.” Rogers v. Mo.
Pac. R.R. Co., 352 U.S. 500, 507-08 (1957). It accomplished that objective by enacting FELA, which “withdraw[s] all injuries to railroad employees in interstate
commerce from the operation of varying state laws,
and … appl[ies] to them a national law having a uniform operation throughout all the states.” Winfield,
244 U.S. at 150; see also 1 M.G. Roberts, Federal Liabilities of Carriers § 535 (1918) (differing state laws
“would defeat one of the main objects of [FELA]—one
uniform rule of liability in all the states where a carrier by railroad is engaged in interstate commerce”); 5
John R. Berryman, Sutherland on Damages § 1304
(4th ed. 1916) (“the purpose of [FELA] was to secure
uniformity with respect to the liability of interstate
carriers to their employees, so that their respective
rights and liabilities might be determined in accordance with a single rule instead of forty-eight”).
Crucially, FELA does not “make the employer the
insurer of the safety of his employees while they are
on duty.” Gottshall, 512 U.S. at 543. FELA is not a
“workers’ compensation statute.” Id. Instead, the basis of any FELA claim is negligence: Liability is imposed for “injury or death resulting in whole or in part
from the negligence of any of the officers, agents, or
employees” of a railroad, “or by reason of any defect or
insufficiency, due to its negligence, in its cars, engines, appliances, machinery, track, roadbed, works,
boats, wharves, or other equipment.” 45 U.S.C. § 51.

6
FELA’s application is “uniform … throughout the
country.” Dice, 342 U.S. at 361; see also Garrett v.
Moore-McCormack Co., 317 U.S. 239, 244 (1942) (emphasizing that FELA “requires uniform interpretation”). As this Court has consistently explained, “[o]ne
of the purposes of the [FELA] was to create uniformity
throughout the Union with respect to railroads’ financial responsibility for injuries to their employees.”
Liepelt, 444 U.S. at 493 n.5 (internal quotation marks
omitted); Erie R.R. Co. v. Winfield, 244 U.S. 170, 172
(1917) (FELA “is intended to operate uniformly in all
the states,” and “is both paramount and exclusive.”).
To that end, the standard for liability under FELA
is governed by federal law. See Urie v. Thompson, 337
U.S. 163, 174 (1949). A plaintiff bringing suit under
FELA must prove that “employer negligence played
any part, even the slightest, in producing the injury or
death for which damages are sought.” Rogers, 352
U.S. at 506. An employer is not liable in the absence
of its own negligence, and the “fact that injuries occur”
does not automatically create a viable cause of action
for injured employees. Gottshall, 512 U.S. at 543 (internal quotation marks omitted).
As with liability, damages under FELA are governed by uniform federal law. Liepelt, 444 U.S. at 493
(“[Q]uestions concerning the measure of damages in
an FELA action are federal in character.”). An injured
FELA employee who proves negligence on the part of
his employer is entitled to “such damages as would
have compensated him for his expense, loss of time,
suffering, and diminished earning power.” Mich.
Cent. R.R. Co. v. Vreeland, 227 U.S. 59, 65 (1913). Injured employees are entitled to damages for emotional
distress “caused by the negligent conduct of their employers that threatens them imminently with physical

7
impact.” Gottshall, 512 U.S. at 556. Courts generally
agree that punitive damages are not available under
FELA. See, e.g., Dutra Grp. v. Batterton, 139 S. Ct.
2275, 2284-85 (2019) (stating that FELA does not authorize punitive damages); Wildman, 825 F.2d at
1394; Kozar v. Chesapeake & Ohio Ry. Co., 449 F.2d
1238, 1241-42 (6th Cir. 1971).
FELA also regulates a railroad’s claims-handling
practices by imposing penalties on any attempt to prevent employees and other persons from “furnishing
voluntarily information” to the plaintiff. 45 U.S.C.
§ 60; see also S. Rep. No. 76-661, at 5 (1939) (noting
that “railroads maintain well-organized and highly efficient claim departments,” allowing them to “obtain[ ]
all available information considered necessary” to
their defense, but that some railroads had imposed
rules to prevent plaintiffs from obtaining “information
necessary to the determination of the question of liability”).
B. Montana’s Statutory And Common Law
Claims For Unfair Settlement Practices
Montana has adopted a regime that transforms
railroads into the insurers of railway workers, fundamentally altering the railroad-worker relationship
under FELA and imposing duties on the railroad to
waive its FELA defenses, thereby obstructing the operation of FELA’s uniform tort-based scheme.
Like many states, Montana imposes a duty of good
faith and fair dealing on an insurer in its dealings
with the insured pursuant to the insurance contract.
See, e.g., Stephens v. Safeco Ins. Co. of Am., 852 P.2d
565, 568 (Mont. 1993); Mont. Code Ann. §§ 33-18-201,
33-18-242(1) (the “Unfair Trade Practices Act”, or
“UTPA”); cf. Restatement (Second) of Contracts § 205

8
(1981). An insurer accordingly must act in good faith
in paying and defending claims for coverage by the insured.
But Montana also has an anomalous rule that an
injured party—that is, not the insured but a thirdparty plaintiff who is suing the insured—may sue the
tortfeasor’s insurer directly if the insurer does not
comport with a duty of good faith and fair dealing in
its dealings with the plaintiff, notwithstanding that
the insurer and the plaintiff lack any contractual relationship. See Mont. Code Ann. § 33-18-242(1). Montana has imposed those duties even on a defendant
that self-insures instead of purchasing traditional
third-party insurance. See id. § 33-18-242(8); Brewington v. Emp’rs Fire Ins. Co., 992 P.2d 237, 240-41
(Mont. 1999); Ogden v. Mont. Power Co., 747 P.2d 201,
205 (Mont. 1987) (noting recent legislation applying
statutory bad-faith claims “to actions brought by third
party claimants against self-insurers”).
Therefore, in Montana, a FELA defendant can be
sued for breaching a state-law duty to act in “good
faith” towards a worker when investigating and defending itself against the worker’s FELA claim. See
Pet. App. 9a, 13a. Montana thus imposes a state-law
duty on a FELA defendant effectively to act as the
worker’s insurer vis-à-vis a FELA claim. The Montana Supreme Court has adhered to this construction
of FELA for almost 20 years. See Reidelbach v. Burlington N. & Santa Fe Ry. Co., 60 P.3d 418, 430 (Mont.
2002).
The state-law duties Montana imposes on a FELA
defendant are wide-ranging. First, a defendant owes
an obligation to “settle in an appropriate case.” Gibson v. W. Fire Ins. Co., 682 P.2d 725, 730 (Mont. 1984).
Specifically, the defendant must “attempt in good

9
faith to effectuate prompt, fair, and equitable settlements of claims in which liability has become reasonably clear.” Mont. Code Ann. § 33-18-201(6). The defendant also has a duty to “conduct[ ] a reasonable investigation based upon all available information.” Id.
§ 33-18-201(4). And the defendant must pay the
claimant’s medical expenses and lost wages pending a
settlement or judgment on the underlying claim when
liability is “reasonably clear.” DuBray v. Farmers Ins.
Exch., 36 P.3d 897, 900 (Mont. 2001); see also Ridley
v. Guar. Nat’l Ins. Co., 951 P.2d 987, 992 (Mont. 1997).
Moreover, under Montana law, even if a defendant ultimately prevails at a jury trial, it can still be
subject to a follow-on claim that it breached the goodfaith settlement obligation by not acceding to a plaintiff’s demand and settling the case earlier. See Graf
v. Cont’l W. Ins. Co., 89 P.3d 22, 26 (Mont. 2004) (“A
defense verdict in the negligence suit is not tantamount to a jury finding that the insurer did not violate
the UTPA.”). Nor is there any opportunity for a FELA
defendant to settle both a FELA claim and a so-called
“bad-faith” claim together because even attempting to
do so could itself trigger liability under Montana law.
See Shilhanek v. D-2 Trucking, Inc., 70 P.3d 721, 726
(Mont. 2003) (finding violation based on offer of settlement conditioned on “a full and final release of all
claims against [an] insured”), modified, 79 P.3d 1094
(Mont. 2003); Watters v. Guar. Nat’l Ins. Co., 3 P.3d
626, 638 (Mont. 2000), overruled in part on other
grounds by Shilhanek, 70 P.3d 721 (Mont. 2003)
(same).
Montana thus imposes a state-law duty on a
FELA defendant to waive its bona fide federal defenses and to settle with and pay the plaintiff, as soon

10
as liability becomes merely “reasonably clear.” Otherwise, the defendant faces additional state-law liability, including for causing emotional distress and for
punitive damages.
C. Factual Background And Procedural
History
1. Petitioner BNSF operates a railroad in 28
states, including Montana. See BNSF Ry. Co. v. Tyrrell, 137 S. Ct. 1549, 1554 (2017). Respondent Robert
Dannels sued BNSF under FELA for negligently assigning him physical work during his 20-year employment with BNSF, leading to “cumulative trauma” that
made him susceptible to permanent disability. Pet.
App. 148a. BNSF denied liability and defended itself
on the merits. The case proceeded to a trial, and the
jury returned a verdict awarding Dannels $1.7 million
for his injuries. After the trial court denied BNSF’s
motion for a new trial, the parties reached a full and
final written settlement for the full amount of the verdict of $1.7 million in June 2013. Id. at 69a.
Six months later, after BNSF had paid the settlement amount, Dannels filed this suit in Montana state
court against BNSF and BNSF claims adjuster Nancy
Ahern, alleging that “BNSF improperly investigated,
adjusted, and defended against his underlying FELA
action, thereby violating the common law and statutory duties imposed under Montana’s bad faith laws.”
Pet. App. 10a. Specifically, Dannels alleged that
BNSF violated Montana law “by failing to advance his
lost wages, failing to reasonably investigate and adjust his claim, and failing to offer him alternative or
permanent employment.” Id. at 4a; see also id. at
136a-137a (failing to advance wages while the FELA
suit was pending); id. at 137a (failing to “effectuate a
prompt, fair and equitable settlement”). Dannels

11
sought compensatory damages for mental distress
and punitive damages. Id. at 144a-145a.
BNSF moved for summary judgment, arguing
that Dannels’s state-law claims were preempted by
FELA and that a “railroad’s substantive duties are defined by federal, not state law,” and that “federal law
preempts efforts to control the settlement of a FELA
claim through state law.” Defs.’ Combined Br. in
Supp. of Supplemental Mot. for Summ. J. 5. The trial
court denied that motion, citing the Montana Supreme Court’s decision in Reidelbach, 60 P.3d 418,
which held that FELA does not preempt state-law
claims for unfair settlement practices. Pet. App. 118a.
BNSF filed a petition seeking interlocutory review,
which the Montana Supreme Court denied, citing
Reidelbach and stating that if reevaluation of Reidelbach were warranted, “the normal appeal process is
certainly adequate for that purpose.” Id. at 111a.
2. As the case progressed, Dannels sought sweeping discovery from BNSF in support of his so-called
“bad faith” claims, including large amounts of confidential and privileged documents relating to BNSF’s
litigation and settlement of FELA claims in Montana
and across the United States. These included internal
analyses of Dannels’s FELA claim, monthly summaries of pending FELA litigation prepared by BNSF inhouse counsel, and confidential materials concerning
BNSF’s existing reserves and procedures for setting
reserve amounts for individual FELA cases. Pet. App.
78a. BNSF repeatedly objected to producing these
materials, but the trial court consistently overruled
those objections. Id. at 79a-80a. Dannels ultimately
moved for sanctions based on BNSF’s alleged failure
to produce the materials. The trial court granted that
application and imposed a default judgment against

12
BNSF on liability and causation and ordered the parties to proceed to trial on the issue of damages only.
BNSF filed a second petition for a writ of supervisory control in the Montana Supreme Court, reiterating that FELA preempts Dannels’s claims. The Montana Supreme Court denied that petition too, holding
there was “no reason why a normal appeal is an inadequate process for addressing BNSF’s request to revisit … Reidelbach.” Pet. App. 61a. Justice McKinnon
dissented, stating that “there is ample federal authority, not discussed in Reidelbach, which appears to provide FELA is the exclusive remedy for injured railroad
workers.” Id. at 65a. Justice McKinnon also added
that the case had “grown even more cumbersome because the District Court has entered a default when
there still lingers a question of preemption,” and emphasized that the court was “affirming an order for
sanctions requiring BNSF to produce documents that
are otherwise undiscoverable, but for the case’s status
as a UTPA action.” Id. at 66a. For those reasons, Justice McKinnon would have invited further briefing.
On the eve of a contempt hearing in which the
trial court had ordered BNSF to show cause why it
should not be further sanctioned for discovery issues,
the parties reached a high-low settlement in which
BNSF agreed to pay Dannels $2.25 million “‘regardless of the outcome of any appeal.’” Pet. App. 5a.
BNSF preserved its right to appeal the preemptive
scope of FELA, and, if the judgment is undisturbed after all appeals, will pay Dannels an additional $5.15

13
million. Id. If the district court’s judgment is overturned, however, BNSF will have no further liability
to Dannels beyond the $2.25 million] payment. Id. 1
3. A divided Montana Supreme Court held that
FELA does not preempt Montana’s state-law unfair
settlement practices regime.
The majority first determined that express
preemption does not apply because FELA does not
have an express preemption provision. Pet. App. 10a11a. The majority then concluded that field preemption did not apply because FELA has no “administrative regulations” and because Congress had not intended “to regulate through FELA the entire field of
injuries and claims a railroad employee may have.”
Id. at 11a-12a. According to the majority, field
preemption did not apply because the underlying
FELA claim focused on BNSF’s workplace negligence
while the compelled-settlement regime focuses on “the
process” BNSF used “before entering settlement.” Id.
at 12a. The majority opined that “[g]iven the humanitarian purpose of FELA, we find it inconceivable … that Congress intended the FELA to cover only
certain railroad worker injuries while absolutely precluding any remedy for others.” Id. at 13a (citing
Reidelbach, 60 P.3d at 430).
The Montana Supreme Court also held that there
was no conflict between FELA and Montana’s compelled-settlement regime because “Dannels’s FELA
action provided him with no opportunity to recover
1

BNSF filed a petition for certiorari from the Montana Supreme
Court’s denial of its second supervisory writ (see Case No. 181246), but it withdrew that petition in connection with the parties’ settlement, which preserved BNSF’s ability to seek immediate and direct review through the Montana Supreme Court.

14
damages for BNSF’s alleged intentional bad faith conduct in handling his FELA claim,” and that it would
be “inconceivable” and “ironic” if an employee “has no
remedy for a railroad’s claims handling conduct,” Pet.
App. 14a. The majority reasoned that Montana’s laws
“fill the space left by FELA” and advance Montana’s
“overriding interest” in protecting Montana citizens.” 2
Id. at 15a.
Justice Rice, joined by Justice Baker, dissented.
Pet. App. 54a. Adopting the arguments raised earlier
by dissenting Justice McKinnon (who recused before
oral argument), Justice Rice concluded that FELA
preempted Montana’s compelled-settlement regime.
He explained that Montana law puts FELA defendants in an untenable position of fighting “on dual
fronts under dual standards” which forces a railroad
“to choose between incompatible options: reserve negligence defenses for trial in the FELA action and invite UTPA claims for failure to settle or advance damage payments” or “settle the FELA action to avoid any
UTPA claims” thus “forfeiting any trial defenses.” Id.
at 53a.

2

In so holding, the majority reaffirmed Reidelbach’s test for
FELA preemption, which—instead of applying this Court’s
FELA precedent—applies a standard derived from a National
Labor Relations Act case, Farmer v. United Brotherhood of Carpenters & Joiners of America, 430 U.S. 290 (1977). See Pet. App.
15a (citing Reidelbach, 60 P.3d at 429). Under that test, state
laws are compatible with FELA as long as the railroad’s conduct
is not protected by FELA, the state has an “overriding state interest” in the enforcement of the state law, and the state law does
not interfere with the “administration” of FELA. Id. (internal
quotation marks omitted). In Reidelbach, the Montana Supreme
Court acknowledged that no other court had ever applied NLRA
preemption standards to FELA. See 60 P.3d at 429.

15
Justice Sandefur concurred in the judgment. Unlike the majority, he concluded, as a matter of state
law, that BNSF is beyond the scope of the UTPA’s provisions applicable to self-insured entities, but that
BNSF still owes similar duties to its employees under
state common law because of the “special relationship” between railroads and railroad workers. Pet.
App. 47a. Notably, however, Justice Sandefur joined
the dissenting opinion “to the extent that it points out
the manifest incompatibility of … insurance-specific
UTPA constructs and procedures with the FELA
claims handling process.” Id. at 46a n.16.
REASONS FOR GRANTING THE PETITION
The Montana Supreme Court’s decision warrants
this Court’s review because it conflicts with this
Court’s FELA decisions by enabling state law to impose liability on a railroad for asserting bona fide federal-law defenses under FELA; it radically transforms
the relationship between a railroad and its workers;
and it dismantles the nationwide uniformity that Congress enacted FELA to promote. Moreover, the Montana Supreme Court’s decision conflicts with decisions
of the federal courts in Montana, and FELA’s venueselection and removal rules will ensure that this disuniformity will continue by enabling all future FELA
claims to be brought in Montana state courts. Review
by this Court is necessary to restore uniformity to
FELA, to resolve the federal and state court conflict,
and to protect the integrity and force of this Court’s
precedents.
This Court has repeatedly held that FELA occupies the field of railroad employer liability to employees for on-the-job injuries by establishing a “comprehensive” and “exclusive” federal framework governing
the “responsibility of interstate carriers by railroad to

16
their employees injured in such commerce.” N.Y.
Cent. R.R. Co. v. Winfield, 244 U.S. 147, 151-52 (1917)
(internal quotation marks omitted). Because FELA is
comprehensive, state law cannot “fill the space left by”
FELA by providing a remedy that FELA withholds.
Pet. App. 15a. And because FELA is exclusive, a
State’s “‘overriding interest’ in protecting [its] citizens” (id.) cannot justify a state-law regime “trenching
on the province of the Act,” S. Buffalo Ry. Co. v. Ahern,
344 U.S. 367, 371 (1953). As this Court has repeatedly
held, FELA’s remedial scheme cannot be “extended
nor abridged by common or statutory laws of the
state.” N.Y. Cent. & Hudson R.R. Co. v. Tonsellito,
244 U.S. 360, 362 (1917).
The Montana Supreme Court stands alone in subjecting FELA defendants to state-tort liability for exercising their federal right to defend themselves in a
FELA suit. This Court should grant review to restore
the exclusive and uniform federal remedial regime
that Congress so plainly sought to establish and which
this Court has preserved for more than a century.
I.

THE DECISION BELOW CONFLICTS WITH THIS
COURT’S FELA PRECEDENT.

A. In FELA, “Congress took possession of the field
of employers’ liability to employees in interstate
transportation by rail, and all state laws upon that
subject were superseded.” Chi., Milwaukee & St. Paul
Ry. Co. v. Coogan, 271 U.S. 472, 474 (1926). FELA “is
intended to operate uniformly in all the states, as respects interstate commerce, and in that field it is both
paramount and exclusive.” Winfield, 244 U.S. at 172.
FELA therefore “displaces any state law trenching on
the province of the Act.” S. Buffalo, 344 U.S. at 371.

17
This Court has repeatedly applied FELA’s uniform framework to hold preempted state laws that imposed state-law duties above and beyond those FELA
authorizes. In Winfield, for example, the Court held
that FELA preempted a state-law strict liability claim
for an on-the-job injury that did not result from negligence by the railroad employer. 244 U.S. at 153-54.
The Court explained that although FELA does not
provide for liability where the railroad “is not chargeable with negligence,” FELA does not “leave the states
free to require compensation where the act withholds
it.” Id. at 150. Where Congress has regulated in an
area within its constitutional powers, the Court reasoned, “it cannot be that the state legislatures have a
right to interfere; and, as it were, by way of complement to the legislation of Congress, to prescribe additional regulations.” Id. at 153.
This Court reaffirmed FELA’s broad preemptive
scope in Tonsellito, where it rejected a father’s statelaw claim for “expenses incurred for medical attention
to his son and loss of the latter’s services.” 244 U.S.
at 361. The Court explained that because FELA did
not provide a remedy to the father for such a claim, it
also preempted the claim under state law: “Congress
having declared when, how far, and to whom carriers
shall be liable on account of accidents in the specified
class, such liability can neither be extended nor
abridged by common or statutory laws of the state.”
Id. at 362.
This Court has similarly held that federal law
alone determines the defenses that a defendant may
raise in FELA litigation. Dice held that federal law
preempts state-law challenges to the validity of FELA
releases. 342 U.S. at 361. The Court explained that
“the federal rights affording relief to injured railroad

18
employees under a federally declared standard could
be defeated if states were permitted to have the final
say as to what defenses could and could not be
properly interposed to suits under the Act.” Id. Indeed, “only if federal law controls can the federal Act
be given that uniform application throughout the
country essential to effectuate its purposes.” Id.
Those federally guaranteed defenses include the right
to trial by jury, which “is too substantial a part of the
rights accorded by the Act to permit it to be classified
as a mere ‘local rule of procedure.’” Dice, 342 U.S. at
363; see also Bailey v. Cent. Vt. Ry., 319 U.S. 350, 354
(1943) (FELA’s jury trial right “is part and parcel” of
the remedial framework established by FELA” (internal quotation marks omitted)).
Nor may a state law obstruct the operation of
FELA’s comprehensive scheme by coercing a FELA
defendant into dropping, waiving, or settling its federal-law defenses. In South Buffalo, this Court held
that a state regime permitting—but not requiring—
railroads to forgo a FELA suit and instead to voluntarily opt in to proceedings before a worker’s compensation board was not preempted. See 344 U.S. at
368-69, 371. But “[t]he difference between coercion
and permission,” the Court explained, was “decisive.”
Id. at 372. Had the State instead coerced the railroad
into submitting to a state review board rather than
litigating the FELA claims in court, its law would
have been preempted as “trenching on the province of
the Act.” Id. at 371-72.
Since FELA’s enactment, this Court has repeatedly held that state laws that interfere with FELA’s
uniform and exclusive scheme are preempted. While
in some of these cases States had sought to “gnaw at
rights rooted in federal legislation” (S. Buffalo, 344

19
U.S. at 372) by implementing state laws hostile to
FELA plaintiffs, this Court also has repeatedly invalidated as preempted state laws that would have provided recovery more generous to plaintiffs than FELA
authorizes. See, e.g., Winfield, 244 U.S. at 153-54;
Tonsellito, 244 U.S. at 361; Seaboard Air Line Ry. v.
Horton, 233 U.S. 492, 500-02 (1914). This Court has
reaffirmed time and again that Congress intended
there to be a national and uniform rule such that
“[FELA] liability can neither be extended nor
abridged by common or statutory laws of the state.”
Tonsellito, 244 U.S. at 362.
B. The decision below flouts the controlling precedent of this Court and resurrects arguments that this
Court has repeatedly and emphatically rejected. This
Court has invested considerable institutional resources to secure FELA’s uniform operation. See Winfield, 244 U.S. at 156 n.4 (Brandeis, J., dissenting)
(listing FELA preemption cases decided before 1917);
see also Rogers v. Mo. Pac. R.R. Co., 352 U.S. 521, 54858 (1957) (Frankfurter J., dissenting) (listing dozens
of FELA cases on the Court’s merits docket from
1911–1956 alone). Yet despite Justice McKinnon’s
caution that “there is ample federal authority, not discussed in Reidelbach, which appears to provide FELA
is the exclusive remedy for injured railroad workers,”
Pet. App. 65a, the Montana Supreme Court proceeded
as if its decision in Reidelbach alone were controlling.
Apart from a fleeting mention of Dice, Pet. App. 14a,
18a, the Montana Supreme Court did not mention or
discuss any of this Court’s FELA preemption decisions
from the last 100 years. Instead, as if writing on a
blank slate, the Montana Supreme Court opined that
because FELA does not permit Dannels to obtain
damages for the alleged emotional distress caused by

20
“BNSF’s claims handling practices,” Montana’s outlier state-law rule may “fill the space left by the
FELA” in order to “protect its citizens.” Id. at 15a.
That reasoning fundamentally conflicts with
FELA’s statutory scheme and this Court’s precedents.
Under FELA, the railroad is not the worker’s insurer
so is not “handling” insurance “claims” when defending itself in a FELA negligence suit. And FELA leaves
no “space” for state law to hold a railway liable for
raising bona fide and non-frivolous defenses under
FELA itself. Indeed, the most basic, bedrock tenet of
this Court’s FELA preemption holdings is that States
are not “free to require compensation where the act
withholds it.” Winfield, 244 U.S. at 150; see also, e.g.,
S. Buffalo, 344 U.S. at 371-72; Bailey, 319 U.S. at 352;
Coogan, 271 U.S. at 474; Tonsellito, 244 U.S. at 36162. Under Winfield, Tonsellito, and their progeny, the
fact that Dannels could not recover the damages he
seeks under FELA means that he cannot recover
those damages under state law. See, e.g., Tonsellito,
244 U.S. at 362 (“Congress having declared when, how
far, and to whom carriers shall be liable,” FELA “liability can neither be extended nor abridged by common or statutory laws of the state.”); Horton, 233 U.S.
at 501 (“[S]ince Congress, by [FELA], took possession
of the field of the employer’s liability to employees in
interstate transportation by rail, all state laws upon
the subject are superseded.”).
The Montana Supreme Court’s ruling also ignores
that a state cannot impose liability on a party for raising a bona fide defense under a federal statute: The
defendant’s right to assert that defense is the “supreme Law of the Land,” U.S. Const. art. VI, cl. 2, and
this Court has made clear that state tort duties that
obstruct the exercise of federal rights are preempted,

21

see PLIVA, Inc. v. Mensing, 564 U.S. 604, 619, 624

(2011). Nor may a state use local law or practice to
thwart a federal cause of action. Cf. Felder v. Casey,
487 U.S. 131, 138 (1988) (“[W]here state courts entertain a federally created cause of action, the ‘federal
right cannot be defeated by the forms of local practice.’” (quoting Brown v. W. Ry. of Ala., 338 U.S. 294,
296 (1949)); Wilson v. Garcia, 471 U.S. 261, 269 (1985)
(“Congress surely did not intend to assign to state
courts and legislatures a conclusive role in the formative function of defining and characterizing the essential elements of a federal cause of action.”), superseded by statute as stated in Jones v. R.R. Donnelley
& Sons Co., 541 U.S. 369 (2004).
The Montana Supreme Court’s disregard for this
Court’s precedents is all the more blatant given that
Winfield rejected the same reasoning more than a century ago. In Winfield, the plaintiff contended that, in
light of FELA’s silence as to liability for injuries not
attributable to the railroad’s negligence, state law
could fill the space. 244 U.S. at 149-50. That is, the
plaintiff argued that the defendant should be held liable notwithstanding the availability of a federal-law
negligence defense. The Court disagreed, emphasizing that “no State is at liberty thus to interfere with
the operation of a law of Congress.” Id. at 153.
The Montana Supreme Court’s decision below also
conflicts with this Court’s holding in Dice that the defenses available to a FELA defendant are a matter of
federal law, and that FELA’s preemptive force extends not only to state-law claims based on employment-related injuries covered by FELA but also to
state rules that interfere with railroads’ ability to defend themselves against FELA claims. See Dice, 342
U.S. at 361. As this Court explained, “the federal

22
rights affording relief to injured railroad employees
under a federally declared standard could be defeated
if states were permitted to have the final say as to
what defenses could and could not be properly interposed to suits under the Act.” Id. Yet, under the Montana Supreme Court’s view, a FELA defendant that
fails to settle promptly (and instead interposes a federal defense) will be subject to state-law liability and
possible punitive damages for electing to defend its
FELA case at trial. As Justice Rice recognized in dissent, state law therefore forces FELA defendants “to
choose between two incompatible options” of defending FELA claims and risking new state-law liability
for not settling, or settling their FELA claims to avoid
that follow-on litigation about supposedly “bad faith”
conduct of defending oneself. Pet. App. 53a-54a. Upholding state-law duties that coerce FELA defendants
to surrender their federal defenses is a repudiation of
Dice.
The Montana Supreme Court reasoned that it
may impose state-law burdens on FELA defendants
because FELA focuses on the underlying conduct giving rise to the workplace injury, while the state-law
duties focus on “the process used … before entering
settlement.” Pet. App. 12a. But that is beside the
point: Regardless of whether Montana treats BNSF’s
conduct in FELA litigation as distinct from conduct
that allegedly contributed to Dannels’s on-the-job injury, state law can never enlarge the scope of Dannels’s FELA rights or abridge a railroad’s FELA defenses. See Tonsellito, 244 U.S. at 361-62. Yet that is
exactly what the Montana Supreme Court has endorsed here, by imposing state-law liability on a railroad that asserts its federal defenses. Moreover, the
state-law duty to settle here is inextricably intertwined with the conduct addressed by FELA—the

23
state-law duty to settle would not exist but for the existence of an injury that is already the basis of a FELA
suit. The duty under Montana law here is thus no different from the state-law duties this Court held
preempted in Tonsellito, where the harm sought to be
remedied was analytically distinct from the underlying on-the-job injury, but the claim was still
preempted by FELA because the harm ultimately
arose out of that same underlying injury. See 244 U.S.
at 361-62.
The Montana Supreme Court thought it significant that Dannels did not seek a declaratory judgment
or demand “advance payment of either his wage loss
or medical bills until after the jury had rendered a verdict in his FELA claim.” Pet. App. 18a (emphasis in
original). But the key point is that no money judgment had been entered and BNSF still had bona fide
defenses to liability, which it raised in post-trial motions (without any claim that the arguments were
frivolous). The effect of Montana’s state-law scheme
is thus to coerce the defendant into dropping its federal-law defenses, because it faces added state-law liability if it does not. 3
Dannels’s complaint is abundantly clear that it
seeks to impose liability on BNSF for failing to advance his lost wages and medical expenses as soon as
the prospect of liability became “reasonably clear,”
without regard to whether BNSF still had defenses

3

Indeed, the very purpose of the Montana scheme is to cause insurers to “expeditiously settle claims” for coverage. Klaudt v.
Flink, 658 P.2d 1065, 1068 (Mont. 1983) (Morrison, J., concurring
in part and dissenting in part), superseded in part by Mont. Code
Ann. § 33–18–242. But FELA’s negligence-based framework
does not involve insurance coverage or claims in the first place.

24
available. Pet. App. 131a-136a. And more fundamentally, state law cannot punish a FELA defendant for
failing to advance lost wages or expenses regardless of
when the employee demands advancement, because
Congress adopted the “principle that compensation
should be exacted from the carrier where, and only
where, the injury results from negligence imputable
to it.” Winfield, 244 U.S. at 150 (emphasis added).
The Montana Supreme Court’s attempt to create an
exception for FELA preemption based on the timing of
a plaintiff’s demand for advancement of wages finds
no support in any FELA case ever decided by this
Court.
II. FEDERAL AND STATE COURTS IN MONTANA ARE
SPLIT ON THE QUESTION PRESENTED.
The Montana Supreme Court’s holding entrenches a two-decade split between the federal and
state courts of Montana on an important issue of federal statutory interpretation. This Court has repeatedly granted certiorari in situations where state and
federal courts have reached divergent interpretations
of federal laws that require uniform application. See,
e.g., BNSF Ry. Co. v. Loos, 139 S. Ct. 893, 897 (2019)
(resolving split between federal and state courts regarding whether FELA damages for lost wages qualify as taxable compensation under the Railroad Retirement Tax Act); Turner v. Rogers, 564 U.S. 431,
438-39 (2011); Johnson v. California, 545 U.S. 162,
164 (2005); Florida v. White, 526 U.S. 559, 563 (1999);
cf. Sup. Ct. R. 10(b) (petition for certiorari may be
granted where “a state court of last resort has decided
an important federal question in a way that conflicts
with the decision of … a United States court of appeals”). Indeed, uniformity is precisely why this Court
was given authority to review a state supreme court’s

25
interpretation of federal law. See Martin v. Hunter’s
Lessee, 14 U.S. 304, 347-48 (1816); The Federalist No.
80 (McLean’s ed.) (Alexander Hamilton) (citing as justification for federal judiciary the “necessity of uniformity in the interpretation of the national laws” and
a need to avoid the “hydra” of “[t]hirteen independent
courts of final jurisdiction over the same causes”).
Federal and state courts in Montana are squarely
divided on the question presented. The federal courts
in Montana have long held that Montana cannot impose additional liability upon a FELA defendant for
raising non-frivolous FELA defenses. In Toscano v.
Burlington Northern Railroad Co., 678 F. Supp. 1477
(D. Mont. 1987), the district court held that Montana’s
unfair settlement claims are preempted against FELA
defendants because “FELA presents the exclusive
remedy in all actions falling within the ambit of the
Act.” Id. at 1479. FELA therefore precludes plaintiffs
from using state unfair settlement claims law to “impos[e] liability upon the [defendant] for actions relating to an FELA claim, when the liability is predicated
upon a duty having its genesis in state law.” Id.; see
also Giard v. Burlington N. Santa Fe Ry. Co., No. 12CV-113, 2014 WL 37687, at *9-10 (D. Mont. Jan. 6,
2014) (holding preempted a state-law “negligent management” claim and expressly disagreeing with
Reidelbach because “the application of the FELA is a
matter of federal law”), adopted by 2014 WL 296862
(D. Mont. Jan. 27, 2014). The Montana Supreme
Court in Reidelbach expressly considered and rejected
Toscano in favor of its own novel construction of
FELA. 60 P.3d at 426-29.
The Ninth Circuit has similarly held that FELA
preempts the state-law claims Dannels asserts here.

26
Dannels seeks punitive damages, yet the Ninth Circuit has squarely held that punitive damages are not
available under FELA. See Wildman v. Burlington N.
R.R. Co., 825 F.2d 1392, 1394 (9th Cir. 1987). The
Ninth Circuit also has held that federal law preempts
state-law claims alleging that FELA defendants engaged in misconduct including fraud during the FELA
settlement process. In Counts v. Burlington Northern
Railroad Co., 896 F.2d 424 (9th Cir. 1990), the Court
held that FELA preempted a railroad employee’s
state-law action seeking to invalidate the release of
his FELA claim based on a fraud-in-the-inducement
theory. Id. at 425-26. It made clear that “[t]o permit
independent state-law actions for fraud in inducing
FELA releases would lead to results that would vary
from state to state,” and that FELA preempted the
plaintiff’s state-law claim “regardless of whether federal law provides the remedy he seeks.” Id. at 426.
Montana’s “unfair” settlement causes of action—
which impose state-law duties on “the process
used … before entering settlement,” Pet. App. 12a—
squarely conflict with Counts, which holds that federal law exclusively governs “the process” of entering
into FELA settlements. The Ninth Circuit has further
held (albeit in an unpublished decision) that FELA
preempts state-law claims for intentional infliction of
emotional distress, see Stiffarm v. Burlington N. R.R.
Co., 81 F.3d 170 (Table), 1996 WL 146687 (9th Cir.
1996) (per curiam)—which are the precise claims
Dannels asserts here. In reaching this conclusion, the
Ninth Circuit “reject[ed]” the plaintiff’s argument
“that it is a ‘Catch-22’ to deny him access to a statelaw remedy if the FELA affords no recovery,” noting
“[t]hat the FELA occupies the entire field of railroad
employee injuries does not mean that every railroader’s injury is compensable.” Id. at *2 n.3.

27
The division between state and federal authority
in Montana is untenable: It means that the success
or failure of a plaintiff’s claim against a FELA defendant under Montana law depends on whether the claim
is brought in state or federal court. And the prohibition on removal of FELA actions from state court to
federal court means that a FELA defendant sued in
Montana state court must litigate in state court. See
28 U.S.C. § 1445(a) (prohibiting removal of any civil
action based on 45 U.S.C. §§ 51-60); Burnett v. N.Y.
Cent. R.R. Co., 380 U.S. 424, 434 (1965) (“Congress,
in … prohibiting removal of FELA cases to federal
courts, has sought to protect the plaintiff’s right to
bring an FELA action in a state court.”).
Given the Montana Supreme Court’s entrenched
position in both Reidelbach and the decision below—
and the long-standing and opposite rules that apply in
the Ninth Circuit and the district of Montana—every
FELA plaintiff will file a so-called “bad faith” claim in
the state court venue, where it can obtain money damages—including for emotional distress and punitive
damages—that would be squarely foreclosed in the
federal forum. This Court’s review is essential to stop
the ongoing and predictable forum shopping created
by these divergent approaches to what should be a
uniform federal standard for FELA cases.
III. THE QUESTION PRESENTED IS EXCEPTIONALLY
IMPORTANT TO FELA DEFENDANTS AND TO THE
PRESERVATION OF FELA’S UNIFORM FEDERAL
FRAMEWORK.
The question presented is exceptionally important
and no mere exercise in error correction. The Montana Supreme Court’s ruling directly implicates the
right of railroads in Montana to defend themselves
against FELA claims, and it undermines the integrity

28
of the nationally uniform legal framework Congress
established when it enacted FELA.
Montana is an outlier in defying this Court’s
FELA precedent by treating railroads as the insurer
of their workers and imposing a duty on railroads to
settle and pay FELA claims as soon as liability becomes merely reasonably clear (even if the railroad’s
federal defenses ultimately may prevail). Montana is
the only State that currently permits such “thirdparty claimant” actions against self-insured defendants under its unfair trade practices code. See Greg
Munro, Continuing Development of Insurance Bad
Faith in Montana, Tr. Trends 25, 25-26 (2007),
https://scholarship.law.umt.edu/faculty_barjournals/13/; see also Mont. Code Ann. § 33-18-242(8).
And the Montana state courts are the only jurisdiction
in which plaintiffs can use statutory and common law
claims to extract damages from FELA defendants that
FELA does not authorize. Accordingly, the question
presented is unlikely to arise in a traditional circuit
split—not because there is no difference of opinion—
but because Montana has imposed singular and extraordinary burdens on FELA defendants that no
other state has even attempted to impose. Moreover,
plaintiffs can unilaterally avoid all of the preemption
rules in federal court (and prevent any possible further percolation) simply by filing in state court to obtain Montana’s plaintiff-friendly rule. FELA does not
permit removal to federal court. See 28 U.S.C.
§ 1445(a).
The Montana decision destroys the nationwide
uniformity Congress sought to obtain when it enacted
FELA. As Justice Rice recognized, only in Montana is
a railroad forced to fight on “dual fronts” and “to

29
choose between two incompatible options” of complying with the UTPA and common law regime, or defending the FELA case on the merits. Pet. App. 53a.
And only in Montana can plaintiffs like Dannels obtain recovery for both their workplace injuries and for
the “emotional distress” of having to litigate the FELA
claim to judgment in the first place.
The prejudice to railroads from Montana’s outlier
state-law duty also extends beyond monetary liability,
as this case illustrates. BNSF sustained a default
judgment on liability and causation because the trial
court found it did not produce privileged or otherwise
protected documents that would not be discoverable in
ordinary FELA litigation—including documents
about settlement strategy, reserves, and litigation assessments of FELA cases across the country. Pet.
App. 78a. Justice McKinnon pointed out this disturbing anomaly, noting that the documents to be produced “are otherwise undiscoverable, but for the
case’s status as a UTPA action.” Id. at 66a. Through
its “unfair” settlement causes of action, Montana authorizes discovery and a state-law inspection and
evaluation of how a railroad litigates and resolves
FELA claims across the country. Indeed, Dannels’s
claim for punitive damages is based on BNSF’s alleged “practices” of “unfairly” refusing to settle other
FELA claims. Id. at 136a-139a. These state-law
claims are thus extraordinarily intrusive and put in
dispute otherwise privileged documents as well as
conduct in other states. Montana’s regime attacks
and erodes the primacy and uniformity of federal law.
See S. Buffalo Ry. Co. v. Ahern, 344 U.S. 367, 372
(1953).

30
Montana law affects not only the damages a plaintiff may obtain, but from whom the plaintiff may obtain them—it is only through Montana’s state-law
claims that Dannels could assert a cause of action
against his co-employee, Nancy Ahern, the individual
claims investigator at BNSF. See O’Fallon v. Farmers
Ins. Exch., 859 P. 2d 1008, 1015 (Mont. 1993) (“[I]ndividuals, as well as insurers, are prohibited from engaging in … unfair trade practices…”). Montana’s regime thwarts this Court’s century-old holding that
“Congress having declared when, how far, and to
whom carriers shall be liable on account of accidents
in the specified class, such liability can neither be extended nor abridged by common or statutory laws of
the state.” N.Y. Cent. & Hudson R.R. Co. v. Tonsellito,
244 U.S. 360, 362 (1917) (emphasis added). It sweeps
in and subjects to liability individual employees who
would not be proper defendants in a FELA suit. See
Lockard v. Mo. Pac. R.R. Co., 894 F.2d 299, 302 n.8
(8th Cir. 1990) (“Although the FELA does make railroads liable for the negligence of their officers, agents,
and employees, the statute nevertheless imposes liability only on railroads—not on railroads and their
agents.” (emphasis in original) (citation omitted)).
The Montana Supreme Court’s decision also introduces destabilizing forces in the railroad industry.
Railroads are inherently interstate operations, and
the employees of railroads routinely travel and work
across state lines to repair track, perform maintenance, and keep the rails running. For example, Dannels sued for cumulative trauma over his 30-year career, which he spent working in Washington, North
Dakota, and Montana. Ex. C to BNSF’s Partial Mot.
for Summ. J. (Occupational History of R. Dannels).
The need for predictable and uniform standards of
federal liability is essential in these circumstances.

31
But that uniformity and predictability is dismantled
under Montana’s regime, with the legal rules governing worker claims completely dependent on geography
and forum. BNSF’s legal duties to “promptly settle”
and “advance lost wages” kick in if Dannels sues in
Montana but not in North Dakota or Washington.
These Montana-specific FELA standards are compounded by the other plaintiff-friendly rules that
Montana also affords to FELA plaintiffs. For example, the Montana Supreme Court has explicitly disagreed with the First, Second, Third, Fourth, Fifth,
Sixth, and Seventh Circuits and extended the statute
of limitations for FELA claims longer than any other
court. See Anderson v. BNSF Ry. Co., 354 P.3d 1248,
1259-61 (Mont. 2015), cert. denied, 577 U.S. 1235
(2016). And given the increasing frequency of cumulative trauma claims of the sort alleged by Dannels
here, where any aggravating conduct provides a basis
for personal jurisdiction and extends the statute of
limitations, Montana is the forum of choice for FELA
plaintiffs and for follow-on litigation seeking non-economic and punitive damages for “unfair” settlement
practices.
This Court has repeatedly granted review to safeguard the congressional objectives that animate
FELA in the face of encroachments by state courts and
legislatures. And this Court has repeatedly intervened where the Montana Supreme Court disregarded this Court’s precedents. See, e.g., Am. Tradition P’ship, Inc. v. Bullock, 567 U.S. 516, 516 (2012)
(per curiam) (summarily reversing in light of Citizens
United); Tyrrell v. BNSF Ry. Co., 373 P.3d 1, 9 (Mont.
2016) (McKinnon, J., dissenting) (faulting majority for
“[d]isregarding the United States Supreme Court’s express holdings in Goodyear and in Daimler” in holding

32
that FELA authorizes general personal jurisdiction),
rev’d, 137 S. Ct. 1549 (2017); PPL Mont., LLC v. Montana, 229 P.3d 421, 465 (Mont. 2010) (Rice, J., dissenting) (characterizing the majority’s approach as “an illogical rendering which ignores both the Supreme
Court’s approach and the actual result of” Supreme
Court precedent), rev’d, 565 U.S. 576 (2012). Nor is
this the first time the Montana Supreme Court has
impermissibly held that its “overriding interest in protecting its citizens” (Pet. App. 15a) justifies the imposition of state-law duties that go further than federal
law permits. See Atl. Richfield Co. v. Mont. Second
Judicial Dist. Ct., 408 P.3d 515, 526 (Mont. 2017)
(McKinnon, J., dissenting) (criticizing majority opinion as “inconsistent with CERCLA and federal precedent”), vacated in part sub nom. Atl. Richfield Co. v.
Christian, 140 S. Ct. 1335 (2020).
This Court for more than a century has protected
FELA from any incursions by states—both favorable
and unfavorable to railroad workers—that would disrupt the uniformity of the FELA scheme. In doing so,
this Court has repeatedly and emphatically held that
states may not impose liability or damages beyond
that provided by FELA. This Court should grant review to once again restore the supremacy of federal
law in this field in which Congress preserved no role
for the States.

33
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
ANDREW S. TULUMELLO

Counsel of Record

ZACHARY D. TRIPP
CLAIRE L. CHAPLA
WEIL, GOTSHAL & MANGES LLP
2001 M St NW
Washington, D.C. 20036
(202) 682-7100
drew.tulumello@weil.com

Counsel for Petitioner

August 20, 2021

APPENDIX

1a
APPENDIX A
2021 MT 71
SUPREME COURT OF MONTANA
DA 19-0343

Robert DANNELS, Plaintiff
and Appellee,
Argued and
Submitted:
June 10, 2020

v.
BNSF RAILWAY COMPANY
Defendant and Appellant.

Decided:
March 23, 2021

___________________
APPEAL FROM: District Court of the Eighth Judicial
District, In and For the County of Cascade, Cause No.
BDV-14-001, Honorable Katherine M. Bidegaray,
Presiding Judge
For Appellant: Andrew S. Tulumello (argued), Gibson,
Dunn & Crutcher LLP, Washington, District of
Columbia Jeff Hedger, Michelle T. Friend, Hedger
Friend, P.L.L.C., Billings, Montana

2a
For Appellee: Deepak Gupta (argued), Lark Turner,
Gupta Wessler PLLC, Washington, District of
Columbia Dennis P. Conner, Keith D. Marr, Conner &
Marr, PLLP, Great Falls, Montana
For Amicus Association of American Railroads:
Anthony M. Nicastro, Knight Nicastro MacKay, LLC,
Billings, Montana
For Amicus Washington Legal Foundation: Mark D.
Parker, Samantha A. Howard, Parker, Heitz &
Cosgrove, PLLC, Billings, Montana
___________________
Justice James Jeremiah Shea delivered the Opinion
of the Court.
¶1 Defendant and Appellant BNSF Railway Company (BNSF) appeals the orders of the Eighth Judicial
District Court, Cascade County, denying BNSF summary judgment and entering final judgment in favor
of Plaintiff and Appellee Robert Dannels. We address
the following issue:
Does the Federal Employers’ Liability Act
preempt an injured railroad employee’s State
law bad faith claims?
¶2 We affirm.
PROCEDURAL AND FACTUAL
BACKGROUND
¶3 Dannels was employed by BNSF as a Maintenance of Way laborer and equipment operator in
northern Montana from approximately 1990 to 2010.
On March 17, 2010, Dannels was assigned to operate
a Bobcat skidsteer to remove snow piles from a
parking lot in BNSF’s Havre railroad yard. The frontend of the skidsteer collided with a steel wellhead

3a
concealed under a snow pile. As a result of the collision, Dannels suffered a disabling back and spine
injury which required medical care.
¶4 On December 6, 2010, Dannels sued BNSF
under the Federal Employers’ Liability Act (FELA) to
recover damages for his work-related injury. Dannels
alleged that throughout his employment, BNSF negligently assigned him physical work activities that caused
“cumulative trauma” to his lower back and spine and
made him susceptible to permanent disability.
¶5 Before trial, BNSF moved in limine to preclude Dannels from referencing any “emotional distress not directly tied to [Dannels’] physical injury.” The
motion was granted and the District Court instructed
the jury that it could only award damages “caused by
the event in question,” specifically “injuries . . .
sustained as a consequence of physical impact.”
¶6 On February 13, 2013, a jury returned a
verdict in Dannels’ favor in the amount of $1.7 million.
The jury found BNSF to be 100% at fault and Dannels
to be 0% at fault.
¶7 During the pendency of Dannels’ FELA claim,
he never sought advance payment from BNSF of
either his medical expenses or his lost wages, nor did
he file a declaratory judgment action seeking a declaration of BNSF’s obligations in that regard. After the
verdict, but before the final judgment was entered,
Dannels submitted a written request to BNSF, seeking payment of the portion of the jury verdict that
represented his past lost wages. BNSF refused. After
BNSF’s motion for a new trial was denied, it paid the
$1.7 million judgment.
¶8 On January 2, 2014, Dannels filed claims for
bad faith and punitive damages against BNSF. He

4a
asserted BNSF violated Montana common law and
statutory duties of good faith and fair dealing in
handling his FELA claim by failing to advance his lost
wages, failing to reasonably investigate and adjust his
claim, and failing to offer him alternative or permanent employment. Dannels had originally named
the individual claims adjustor and BNSF Insurance
Company, Ltd. (BNSF IC) as defendants in his bad
faith complaint. Dannels’ subsequently voluntarily dismissed the claims adjustor. On May 13, 2015, BNSF
IC filed a motion to dismiss for lack of personal
jurisdiction. BNSF IC acknowledged that it is a wholly
owned subsidiary of the same parent company as BNSF,
and that it maintains a program of self-insurance in
conjunction with BNSF for coverage of FELA claims
made by BNSF employees. BNSF IC asserted it has
no contacts with the State of Montana because it is a
licensed insurance company organized under the laws
of Bermuda, a territory of the United Kingdom. The
District Court granted BNSF IC’s motion.
¶9 On May 1, 2017, BNSF moved for summary
judgment, asserting that Dannels’ State law bad faith
claims were preempted by the FELA. The District
Court denied BNSF’s motion.
¶10 On February 2, 2018, BNSF filed motions in
limine seeking to preclude Dannels from offering
evidence or testimony at trial regarding BNSF claimshandling practices or reporting, including evidence
or testimony that BNSF had a duty to advance pay
Dannels’ FELA claim or offer him alternative employment or permanent employment. BNSF argued in its
motion that the FELA was the law governing Dannels’
underlying claim and does not require railroads to
advance pay claimants or offer alternative employment or permanent employment as part of its settlement

5a
practices. BNSF further argued that “[e]vidence of
other claims or claims handling practices or reporting
in other cases is not relevant to the case at bar.
[Dannels’] underlying claim and BNSF’s claim handling practice is the only relevant issue.”
¶11 Before the District Court could rule on
BNSF’s motions in limine, the parties filed a
stipulation for entry of final judgment. BNSF
stipulated that judgment be entered against it on
Dannels’ bad faith claims in the amount of $7.4
million, inclusive of all fees, interest, and costs. BNSF
reserved its right to appeal the District Court’s denial
of its summary judgment motion but stipulated that
it would pay Dannels $2.25 million “regardless of the
outcome of any appeal.” BNSF stipulated that it
would pay the $5.15 million balance upon its
exhaustion of its appeal rights to this Court and the
United States Supreme Court, if its appeals were
unsuccessful. On May 14, 2019, the District Court
accepted the parties’ stipulation and entered final
judgment against BNSF.
STANDARDS OF REVIEW
[1–3] ¶12 We review a district court’s summary
judgment ruling de novo, applying the criteria set
forth in M. R. Civ. P. 56. Sinclair v. Burlington
Northern & Santa Fe Ry., 2008 MT 424, 4 26, 347
Mont. 395, 200 P.3d 46. Summary judgment is
appropriate if the moving party demonstrates from
“the pleadings, the discovery and disclosure materials
on file, and any affidavits” that there is no genuine
issue of material fact and that the movant is entitled
to judgment as a matter of law. Sinclair, 4 26; M. R.
Civ. P. 56(c)(3). Where a district court determines
there is no material factual dispute and the moving
party is entitled to judgment as a matter of law, we

6a
review whether the district court correctly applied the
law. Mont. Immigrant Justice Alliance v. Bullock,
2016 MT 104, 4 28, 383 Mont. 318, 371 P.3d 430;
Sinclair, 4 26. A district court’s determination regarding federal preemption is a question of law which
we review for correctness. Mont. Immigrant Justice
Alliance, 4 14.
DISCUSSION
¶13 Does the Federal Employers’ Liability Act
preempt an injured employee’s State law bad faith
claims?
[4, 5] ¶14 The Supremacy Clause of the United
States Constitution provides:
This Constitution, and the Laws of the United
States which shall be made in pursuance
thereof; and all treaties made, or which shall
be made, under the authority of the United
States, shall be the supreme Law of the Land;
and the Judges in every State shall be bound
thereby, anything in the Constitution or Laws
of any State to the Contrary notwithstanding.
U.S. Const. art. VI, cl. 2. The Supremacy Clause
“invalidates state laws that ‘interfere with, or are
contrary to,’ federal law.” Hillsborough Cty. v. Auto.
Med. Laboratories, Inc., 471 U.S. 707, 105 S. Ct. 2371,
85 L. Ed. 2d 714 (1985) (quoting Gibbons v. Ogden, 22
U.S. 1, 9 Wheat. 1, 211, 6 L.Ed. 23 (1824) (Marshall,
C.J.). Congress is empowered by the Supremacy Clause
to pass federal acts that supersede state law in three
ways: (1) express preemption, (2) field preemption, or
(3) conflict preemption, “the latter two being forms of
implied preemption.” Mont. Immigrant Justice
Alliance, 4 28 (citing Valle Del Sol Inc. v. Whiting, 732
F.3d 1006, 1022-23 (9th Cir. 2013)).

7a
¶15 BNSF argues that Dannels’ state law bad
faith claims are preempted by the FELA. The FELA
is a federal act that serves as the “comprehensive” and
“exclusive” scheme of recovery for physical injuries
suffered on-the-job by a railroad employee, any part of
whose duties further interstate commerce, as a result
of the negligence of an employer. See 45 U.S.C. § 51
(“Every common carrier by railroad while engaging
in commerce . . . shall be liable in damages to any
person suffering injury while he is employed by such
carrier. . . for such injury or death resulting in whole
or in part from the negligence of any of the officers,
agents, or employees of such carrier . . . .”); New York
C. R. Co. v. Winfield, 244 U.S. 147, 151-52, 37 S. Ct.
546, 548, 61 L. Ed. 1045, 1048-49 (1917). The FELA
was originally enacted to address “the rising toll of
serious injuries and death among workers in the
railroad industry.” Reidelbach v. Burlington N. &
Santa Fe Ry. Co., 2002 MT 289, 4 19, 312 Mont. 498,
60 P.3d 418 (quoting Harris-Scaggs v. Soo Line R. Co.,
2 F. Supp. 2d 1179 (E.D. Wis. 1998)). See also
Anderson v. BNSF Ry., 2015 MT 240, 4 35, 380 Mont.
319, 354 P.3d 1248 (quoting Kernan v. Am. Dredging
Co., 355 U.S. 426, 432, 78 S. Ct. 394, 398, 2 L. Ed. 2d
382 (1958)) (“‘[I]t is clear that the general
congressional intent was to provide liberal recovery
for injured workers.’”). When the FELA was enacted
in 1908, railroading was “a major industry in the
United States and as such employed great numbers of
people.” Reidelbach, 4 19. Railroad employees “were
exposed to many dangers and risks associated with
railroading but had little protection or recourse from
work-related injury or death and were frequently
denied redress for their injuries by antiquated
common-law rules favoring employers.’’ Reidelbach, 4
19 (citing Rogers v. Consolidated Rail Corp., 948 F.2d

8a
858 (2d Cir. 1991)). The FELA provided compensatory
relief for injured railroad employees by “modif[ying] or
eliminat[ing] the common-law defenses that had
previously precluded railroad employees from recovering from their employers for injuries sustained
during the course of employment.” Reidelbach, 4 19
(citing Rogers, 948 F.2d at 861).
[6] ¶16 The Montana Unfair Trade Practices Act
(UTPA) allows a person to seek damages from an
insurer engaging in unfair and deceptive practices.
Section 33-18-101, MCA. UTPA applies to “every person
engaged as indemnitor, surety, or contractor in the
business of entering into contracts of insurance,” § 331-201(6), MCA, including “a person, firm, or corporation
utilizing self-insurance to pay claims made against
them,”§ 33-18-242(8), MCA. But see Shattuck v.
Kalispell Reg’l Med. Ctr., 2011 MT 229, 4 15, 362
Mont. 100, 261 P.3d 1021 (citing Ogden v. Mont.
Power Co., 229 Mont. 387, 392, 747 P.2d 201, 204
(1987)) (Exempting some self-insured entities from
the UTPA because they are not “primarily in the
business of . . . enter[ing] into insurance contracts.’’).
As we have previously recognized in the context of
workers’ compensation insurance, an injured employee
is considered a third-party claimant even when the
employer is self-insured. Suzor v. Int’l Paper Co., 2016
MT 344, 4 22, 386 Mont. 54, 386 P.3d 584 (“[A]n
injured employee’s position as a third-party claimant
does not materially change in the context of selfinsurance.”). The UTPA authorizes a third-party
claimant to pursue bad faith claims against the
insurer. Section 33-18-242(6)(b), MCA.
¶17 Section 33-18-242(1), MCA, of the UTPA authorizes an insured or a third-party claimant to pursue “an
independent cause of action against an insurer for

9a
actual damages caused by the insurer’s violation of
subsection (1), (4), (5), (6), (9), or (13) of [§] 33-18-201[,
MCA].’’ These subsections prohibit an insurer from
engaging in the following unfair claim settlement
practices:
(1) misrepresent[ing] pertinent facts or
insurance policy provisions relating to
coverages at issue;
. . .
(4) refus[ing] to pay claims without conducting a reasonable investigation based
upon all available information;
(5) fail[ing] to affirm or deny coverage of
claims within a reasonable time after proof
of loss statements have been completed;
(6) neglect[ing] to attempt in good faith to
effectuate prompt, fair, and equitable
settlements of claims in which liability
has become reasonably clear;
. . .
(9) attempt[ing] to settle claims on the basis
of an application that was altered without notice to or knowledge or consent of
the insured;
. . .
(13) fail[ing] to promptly settle claims, if
liability has become reasonably clear,
under one portion of the insurance policy
coverage in order to influence settlements under other portions of the
insurance policy coverage . . . .
Section 33-18-201(1), (4)-(6), (9), (13), MCA.

10a
[7, 8] ¶18 An insurer may also be held liable at
common law for bad faith conduct once the underlying
claim is resolved. See Brewington v. Employers Fire
Ins. Co., 1999 MT 312, 4 19, 297 Mont. 243, 992 P.2d
237; O’Fallon v. Farmers Ins. Exch., 260 Mont. 233,
244-45, 859 P.2d 1008, 1015 (1993). An insurer may
be held liable for punitive damages if the insurer acted
with actual fraud or actual malice in its handling of a
claim. See §§ 27-1-220 and -221, MCA; Lorang v.
Fortis Ins. Co., 2008 MT 252, 44 90-93, 345 Mont. 12,
192 P.3d 186.
[9, 10] ¶19 Dannels has alleged BNSF improperly
investigated, adjusted, and defended against his underlying FELA action, thereby violating the common law
and statutory duties imposed under Montana’s bad
faith laws. In determining whether the FELA preempts
Dannels’ State bad faith claims, we begin with the
long-held presumption that “Congress does not cavalierly [preempt] state-law causes of action. In all
[preemption] cases, . . . we start with the assumption
that the historic police powers of the States were not
to be superseded by the Federal Act unless that was
the clear and manifest purpose of Congress.’’ Reidelbach,
4 21 (quoting Favel v. Am. Renovation & Constr. Co.,
2002 MT 266, 4 39, 312 Mont. 285, 59 P.3d 412).
[11, 12] ¶20 We begin our inquiry by examining
express preemption. “Express preemption occurs when
Congress enacts a statute that contains an express
preemption provision,” Mont. Immigrant Justice Alliance,
4 29, thereby “making it clear that state law will not
apply in the area governed by federal statute.” Favel,
4 40. See also Hillsborough Cty., 471 U.S. at 713, 105
S. Ct. at 2375, 85 L. Ed. 2d at 721. There is no express
provision in the FELA manifesting a congressional
intent to preempt state laws such as the UTPA. We

11a
therefore “will not categorically presume that Congress
intends the FELA statute to preempt state law.”
Reidelbach, 4 23. We are thus left with an inquiry into
implied preemption, beginning with field preemption.
[13, 14] ¶21 “Field preemption occurs when ‘the
States are precluded from regulating conduct in a field
that Congress, acting within its proper authority, has
determined must be regulated by its exclusive governance.’’’ Mont. Immigrant Justice Alliance, 4 29 (quoting
Arizona v. United States, 567 U.S. 387, 399, 132 S. Ct.
2492, 2501, 183 L. Ed. 2d 351, 369 (2012)). Congress’
intent to occupy the field of a particular area of law
becomes “evident where there is a ‘framework of
regulation so pervasive . . . that Congress left no room
for the States to supplement it or where there is a
federal interest . . . so dominant that the federal
system will be assumed to preclude enforcement of
state laws on the same subject.’’’ Mont. Immigrant
Justice Alliance, 4 29 (Arizona, 132 S. Ct. at 2501, 183
L. Ed. 2d at 369). See also Favel, 4 40 (“[C]ongressional
intent to preempt state law in a particular area may
be implied where the regulation of the area is so
comprehensive that it is reasonable to conclude that
Congress intended to ‘occupy the field’ and to leave no
room for supplementary state regulation.’’).
[15, 16] ¶22 As we recognized in Reidelbach,
“[u]nlike most other federal statutory schemes, the
FELA has no underlying administrative regulations.
Therefore, we cannot imply preemption through administrative regulation.’’ Reidelbach, 4 25 (emphasis in
original). We must then determine if “[c]ongressional
intent to preempt based on the ‘structure and purpose’’’ of the FELA exists. Reidelbach, 4 26. As we
observed in Reidelbach, “the plain language of the
FELA reveals that Congress’ purpose was to enact a

12a
compensatory scheme” under which railway employees who suffered occupational injuries caused by
the negligence of their employer “and in pursuit of
interstate commerce” could obtain redress. Reidelbach,
4 26. We determined in Reidelbach that “[t]his Congressional purpose simply does not contemplate, much
less imply, that Congress intended to regulate through
the FELA the entire field of injuries and claims a
railroad employee may have.” Reidelbach, 4 26 (citing
Pikop v. Burlington Northern Ry. Co., 390 N.W. 2d 743
(Minn. 1986), cert. denied, 480 U.S. 951, 107 S. Ct.
1616, 94 L. Ed. 2d 800 (1987)).
¶23 We reaffirm our conclusion in Reidelbach
that the FELA does not occupy the entirety of the field
of recovery for injured railroad employees so as to
preempt State bad faith law claims premised on a
self-insured railroad’s claims-handling conduct. As we
have previously determined, an insurer’s claims handling and settlement practices constitute intentional
conduct that is separate and distinct from the negligent cause of the occupational injuries at issue in the
underlying FELA claim. See Reidelbach, ¶ 44 (“The
railroad’s settlement practices do not arise from the
railroad’s negligence in the workplace, and will not
influence the amount of FELA recovery . . . .”). See also
Graf v. Cont’l W. Ins. Co., 2004 MT 105, 4 12, 321
Mont. 65, 89 P.3d 22 (“The issues in a UTPA claim are
separate from the issues in the underlying claim.’’).
The focus of a UTPA action is not the amount of the
settlement paid to the plaintiffs by the insurer.
Peterson v. Doctors’ Co., 2007 MT 264, 44 39, 43, 339
Mont. 354, 170 P.3d 459. Instead, we focus on “the
process used by [the insurer] before entering settlement.” Peterson, 4 39. As we stated in Peterson,

13a
The essence of a claim under § 33-18-201,
MCA, is that an insurer, given information
available to it, has acted unreasonably in
adjusting a claim, perhaps by failing to investigate, failing to communicate or failing to
negotiate in good faith. Section 33-18-201,
MCA, seeks to protect parties from such acts,
and the relevant issue is almost universally
how the insurer acted given the information
available to it.
Peterson, 44 39, 43.
[17] ¶24 The hallmark of the FELA is that it “does
not make the employer the insurer of the safety of his
employees while they are on duty. The basis of his
liability is his negligence, not the fact that injuries
occur.” Anderson, 4 67 (quoting Conrail v. Gottshall,
512 U.S. 532, 543, 114 S. Ct. 2396, 2404, 129 L. Ed. 2d
427, 440 (1994)). The FELA extends only to a railroad’s negligent conduct resulting in occupational
injuries. Nothing in the FELA’s century-plus history
evinces an intent that it would apply to a railroad’s
intentional bad faith conduct in handling the claim
stemming from the injury. As we observed in Reidelbach,
“[G]iven the humanitarian purpose of the FELA, we
find it inconceivable, as have several courts before us,
that Congress intended the FELA to cover only certain
railroad worker injuries while absolutely precluding
any remedy for others.’’ Reidelbach, 4 53 (citing Mack
v. Metro-North Commuter R.R., 878 F. Supp. 673, 677
(S.D.N.Y. 1995); Rogers v. Consolidated RailCorp.,
688 F. Supp. 835, 839 (N.D.N.Y. 1988); Wabash R.R.
v. Hayes, 234 U.S. 86, 34 S. Ct. 729, 58 L. Ed. 1226
(1914)).
¶25 We most recently distinguished a railroad’s
claims-handling conduct from the negligent conduct

14a
at issue in a FELA action in Sinclair. There, an
injured railroad employee brought an independent
State law fraud claim challenging the validity of the
release and settlement he entered with BNSF in the
underlying FELA suit. Sinclair, 4 5. The release
provided that the employee would “release and forever
discharge” BNSF “from all claims and liabilities of
every kind of nature, including claims for injuries,
illnesses or damages, if any, which are unknown to me
at the present time . . . .” Sinclair, 4 3. The District
Court dismissed the employee’s claims upon concluding that the FELA governed and did not permit him
to “simultaneously affirm the validity of his release
and independently pursue state law claims related to
fraud.” Sinclair, 4 28. We affirmed, holding that the
employee’s FELA release was “inextricably linked” to
his claims and, unlike the bad faith claims at issue in
Reidelbach, the FELA provided a direct remedy to
challenge the validity of a fraudulent release. Sinclair,
44 33, 35 (citing Reidelbach, 44 43- 44; Counts v.
Burlington N. R. Co., 896 F.2d 424, 425-26 (9th Cir.
1990)). See also Dice v. Akron, C. & Y. R. Co., 342 U.S.
359, 361, 72 S. Ct. 312, 314, 96 L.Ed. 398, 403 (1952)
(“[V]alidity of releases under [the FELA] raises a
federal question to be determined by federal rather
than state law.”).
¶26 Conversely, Dannels’ FELA action provided
him with no opportunity to recover damages for BNSF’s
alleged intentional bad faith conduct in handling his
FELA claim. The only other available avenue of recovery for this type of conduct was through a separate
State law bad faith action. BNSF’s argument that
the FELA preempts state bad faith claims would
make the “inconceivable” void we cautioned against in
Reidelbach a reality, in which a railroader has no

15a
remedy for a railroad’s intentional claims-handling
conduct, no matter how egregious. See Reidelbach, ¶ 53.
¶27 The infirmity of BNSF’s preemption argument is laid bare by its motion in limine in the FELA
action, in which it sought to preclude Dannels from
referencing any “emotional distress not directly tied to
[his] physical injury.” (Emphasis added.) The very
basis of BNSF’s motion was that the FELA was
limited in scope to physical injuries. This was granted
by the District Court and the jury was instructed that
it was limited to awarding damages for “injuries . . .
sustained as a consequence of physical impact.”
(Emphasis added.) Having foreclosed any scrutiny of
its claims handling in the FELA case, BNSF now
incongruously argues that its claims handling should
escape scrutiny in a bad faith action because it is
preempted by the FELA.
¶28 Without being able to present evidence of
BNSF’s claims handling conduct to the jury, Dannels
was likewise foreclosed from seeking damages for
BNSF’s alleged intentional bad faith conduct. Montana’s
bad faith laws fill the space left by the FELA and
advance our “overriding interest” in protecting Montana
citizens from an insurer’s bad faith claims practices
and, as we discuss more fully below, “there is virtually
no risk that the state cause of action would interfere
with the effective administration” of the FELA.
Reidelbach, 44 45-51 (citing Farmer v. Carpenters,
430 U.S. 290, 97 S. Ct. 1056, 51 L. Ed. 2d 338 (1977))
(We must consult in a FELA preemption analysis
the additional considerations of whether (1) “the
underlying act or conduct is protected or permitted
by the FELA; (2) the State has “an overriding interest
in protecting its citizens from fraudulent, malicious
and bad faith claims practices and the infliction of

16a
intentional emotional injury”; and (3) there is a “risk
that the state cause of action would interfere with
effective administration of FELA.”). The FELA does
not foreclose Dannels’ claims by field preemption.
[18, 19] ¶29 Finally, we examine conflict preemption. “Conflict preemption occurs when a state law
conflicts with a federal law . . . .’’ Mont. Immigrant
Justice Alliance, ¶ 29 (citing Arizona, 132 S. Ct. at
2501). “Such a conflict arises when ‘compliance
with both federal and state regulations is a physical
impossibility’ . . . or when state law ‘stands as an
obstacle to the accomplishment and execution of
the full purposes and objectives of Congress . . . .’’’
Hillsborough Cty., 471 U.S. at 713, 105 S. Ct. at 2375,
85 L. Ed. 2d at 721 (citations omitted).
[20] ¶30 BNSF argues conflict preemption is present between the UTPA and the FELA because the
UTPA imposes an obligation on a self-insured employer
to pay a plaintiff’s lost wages and medical expenses
in advance of a final settlement or judgment of the
underlying FELA claim when liability becomes reasonably clear. See Ridley v. Guaranty Nat’l Ins. Co., 286
Mont. 325, 951 P.2d 987 (1997); Dubray v. Farmers
Ins. Exch., 2001 MT 251, 307 Mont. 134, 36 P.3d 897.
In Ridley, we held that § 33-18-201(6) and (13), MCA,
of UTPA “by their terms[ ] impose” an advance payment obligation on the insurer for an injured party’s
medical expenses not reasonably in dispute. Ridley,
286 Mont. at 334, 951 P.2d at 992. See also Dubray,
¶ 14 (“The essence of our holding in Ridley is that
where liability is reasonably clear, injured victims are
entitled to payment of those damages which are not
reasonably in dispute without first executing a settlement agreement and final release.”). We reasoned

17a
that prompt payment of an injured party’s medical
expenses was necessary:
Medical expenses from even minor injuries
can be devastating to a family of average
income. The inability to pay them can damage credit and . . . sometimes preclude
adequate treatment and recovery from the
very injuries caused. Just as importantly, the
financial stress of being unable to pay
medical expenses can lead to the ill-advised
settlement of other legitimate claims in order
to secure a benefit to which an innocent
victim of an . . . accident is clearly entitled.
Ridley, 286 Mont. at 335, 951 P.2d at 993. We
explained the limits of our holding, however, stating:
This does not mean that an insurer is responsible for all medical expenses submitted by
an injured plaintiff. Liability must be reasonably clear for the expense to be submitted.
That is, even though liability for the accident
may be reasonably clear, an insurer may still
dispute a medical expense if it is not reasonably clear that the expense is causally related
to the accident in question.
Ridley, 286 Mont. at 334, 951 P.2d at 992. We later
expanded our holding in Ridley when we decided Dubray,
determining advance payments should include “[l]ost
wages which are reasonably certain and directly related
to an insured’s negligence or wrongful act . . . .”
Dubray, ¶ 15.
[21] ¶31 BNSF, pointing to 45 U.S.C. §§ 51 and
53, asserts that the UTPA’s advance payment obligation
interferes with an employer’s right under FELA to
only be held liable for those damages determined by a

18a
jury at trial. “The right to trial by jury is ‘a basic and
fundamental feature of our system of federal jurisprudence’ and . . . is ‘part and parcel of the remedy
afforded railroad workers under the [FELA].’’’ Dice,
342 U.S. at 363, 72 S. Ct. at 315, 96 L. Ed. 2d at 404
(quoting Bailey v. Central V. Ry., 319 U.S. 350, 354,
63 S. Ct. 1062, 1064, 87 L. Ed. 1444, 1448 (1943)).
BNSF’s argument is misplaced.
¶32 First, it bears noting at the outset that
Dannels made no demand for advance payment of
either his wage loss or medical bills until after the jury
had rendered a verdict in his FELA claim; nor did
Dannels seek a declaratory judgment establishing
BNSF’s obligations to advance pay his wage loss or
medical bills. Therefore, whether, and to what extent,
these rights and obligations under the UTPA may
conceivably conflict with a railroad’s payment obligations under the FELA is not an issue that is squarely
before us and we decline to speculate on Dannels’
right to take hypothetical actions. Independence Med.
Supply, Inc. v. Mont. Dep’t of Pub. HHS, 2018 MT 57,
¶ 37, 391 Mont. 1, 414 P.3d 781 (“This Court has
consistently held that we will not render advisory
opinions.”).
¶33 However, BNSF does not just argue that the
FELA preempted Dannels’ ability to file a declaratory
judgment action, which he did not file, or seek
advance payment of medical expenses and wage loss,
which he did not seek. BNSF also argues that the
FELA preempts a railroad workers’ right to seek
redress for all bad faith conduct in the adjustment of
a claim. We disagree.
¶34 Assuming, for the sake of argument, that the
UTPA’s advance pay obligations may conflict with any
provisions of the FELA, this still would not provide

19a
a basis for the total preemption for which BNSF
advocates. At most, it may provide a basis to foreclose
a declaratory judgment action regarding advance pay
obligations or for limiting the grounds upon which a
worker may later seek bad faith damages under either
the UTPA or the common law. But as we discussed
above, there is a wide array of conduct that is proscribed by Montana’s bad faith laws wholly exclusive
of the advance pay obligations. BNSF’s argument
would effectively immunize it from all bad faith
conduct. Like all states, Montana has an overriding
interest in protecting its citizens from fraudulent,
malicious, and bad faith claims practices and the
infliction of intentional emotional injury, regardless of
the source of that conduct. Sections 33-18-101, MCA,
et seq. In light of the well-established remedial and
humanitarian purpose of the FELA, it would be ironic,
to say the least, if the FELA were to be used as a
shield to immunize railroads from any accountability
for all bad faith claims handling.
¶35 BNSF’s obligations to adjust a claim in good
faith do not impinge upon its right to a jury trial under
the FELA any more than any other party’s obligation
to act in good faith when adjusting a personal injury
claim that is not brought under the FELA. They are
two separate actions, providing two distinct remedies
for two distinct courses of conduct, for damages that
are wholly independent of each other. Indeed, this
case illustrates this very point. In the FELA action,
BNSF successfully sought to exclude reference to any
damages Dannels may have sustained that were not
directly related to his “physical injury.” After the jury
found in Dannels’ favor, BNSF ultimately paid the
judgment for Dannels’ physical injury. The appeal
presently before us is from a final judgment, to which
BNSF stipulated, compensating Dannels for damages

20a
he sustained as a result of BNSF’s claims handling,
subsequent and in addition to the physical injuries
that formed the basis of his FELA claim.
CONCLUSION
¶36 Because Dannels made no demand for
advance payment of either his wage loss or medical
bills until after the jury had rendered a verdict in his
FELA claim, and he did not seek a declaratory judgment on these issues, we decline to address whether
these discrete claims may be preempted by the FELA.
Regarding BNSF’s argument that the FELA preempts
a railroad workers’ right to seek redress for all bad
faith conduct in the adjustment of a claim, we affirm
the District Court’s holding that it does not.
We Concur:
MIKE McGRATH, C. J.
INGRID GUSTAFSON, J.
AMY EDDY, J.
District Court Judge Amy Eddy sitting for Justice
Laurie McKinnon
Justice Dirk Sandefur, specially concurring.
¶37 I concur in the Court’s opinion to the extent
that it holds that FELA does not preempt a related
but independent Montana law duty requiring railroads to handle FELA claims in a fair and reasonable
manner under the particular facts and circumstances
of each case in accordance with governing FELA
standards of liability. However, contrary to the underlying presumption of the parties upon which the
Court’s analysis is predicated, I would hold that the
UTPA bad faith claim provided in § 33-18-242, MCA,
does not apply to BNSF because it is neither an

21a
“insurer,” nor an entity “utilizing self-insurance” as
referenced in § 33-18-242(8), MCA. I would further
hold, however, that BNSF is nonetheless subject to a
Montana common law claim for tortious FELA claims
handling based on violation of the implied contract
covenant of good faith and fair dealing and the special
relationship between BNSF and injured workers in
the FELA context.
A. BNSF Is Not an “Insurer” or Entity “Utilizing
Self-Insurance” as Narrowly Recognized Under
Montana Law.
¶38 The UTPA is an integral component of the
Montana Insurance Code. See §§ 33-1-101 and 33-18101, MCA. At all times pertinent, the purpose of
the Insurance Code has been to regulate the
“transact[ion]” of the “business of insurance,” as
narrowly-defined by the Code. See §§ 33-1-101, -102,
-201, 33-2-101, and -106, MCA. The narrower purpose
of the UTPA has been to “regulate trade practices in
the business of insurance” by “defining . . . and . . .
prohibiting” unfair and deceptive “trade practices.”
Section 33-18-01, MCA.
¶39 Prior to 1987, the UTPA expressly proscribed
various unfair insurance claims handling practices,
but provided no express private cause of action for damages in tort when violated by insurers. See § 33-18201, MCA (1977 Mont. Laws ch. 320, § 1).
Independent of the UTPA, and based on the common
law covenant of good faith and fair dealing implied as
a matter of law in all contracts, insurers had a
common law tort duty to their insureds, as parties to
the insurance contract and in special relation to the
insured thereunder, to settle first-party insurance
claims within policy limits when liability under the
policy was reasonably clear. See Gibson v. W. Fire Ins.

22a
Co., 210 Mont. 267, 274-75, 682 P.2d 725, 730 (1984);
Lipinski v. Title Ins. Co., 202 Mont. 1, 15-16, 655 P.2d
970, 977 (1982) (citing First Sec. Bank v. Goddard,
181 Mont. 407, 419-20, 593 P.2d 1040, 1047 (1979)).
Accord Stephens v. Safeco Ins. Co. of Am., 258 Mont.
142, 145, 852 P.2d 565, 567-68 (1993) (citing Lipinski
and Goddard). First-party claimants thus had a
common law tort remedy against insurers for breach
of that duty (i.e., an insurance bad faith claim). See
Gibson, 210 Mont. at 274-75, 682 P.2d at 730;
Lipinski, 202 Mont. at 15-16, 655 P.2d at 977 (citing
Goddard, 181 Mont. at 419-20, 593 P.2d at 1047).
Accord Stephens, 258 Mont. at 145, 852 P.2d at 56768 (citing Lipinski and Goddard). In contrast, as
third parties to the insurance contract, third-party
claimants had no similar common law remedy against
insurers for failure to reasonably settle third-party
liability claims against their insureds.
¶40 In 1983, in the absence of an express private
remedy for violation of UTPA-proscribed unfair insurance claims handling practices, we recognized an
implied third-party UTPA-based tortious bad faith
claim against insurers. Klaudt v. Flink, 202 Mont.
247, 252, 658 P.2d 1065, 1067 (1983) (recognizing
implied private right of action for damages based on
violations of § 33-18-201(6), MCA), overruled in part
on other grounds by Fode v. Farmers Ins. Exch., 221
Mont. 282, 286-87, 719 P.2d 414, 416-17 (1986).1
1

Though we later anomalously referred to the Klaudt claim as
a “common law” claim, it was more accurately an implied statutory private right of action implied from the then-remediless
unlawful insurance trade practices proscribed by § 33-18-201,
MCA. See O’Fallon v. Farmers Ins. Exch., 260 Mont. 233, 243-44,
859 P.2d 1008, 1014-15 (1993) (characterizing Klaudt claim as
“common law cause of action” predicated on violations of § 33-18201, MCA); compare Klaudt, 202 Mont. at 250-52, 658 P.2d at

23a
However, in 1987, motivated by the perceived need to
ameliorate the effect of the Klaudt claim on business
insurance rates, the Legislature considered a purported tort-reform bill primarily intended to “swing[ ]
the pendulum back” by superseding it with a more
limited independent statutory insurance bad faith
claim, narrowly predicated on alleged violations of a
specified subset of the unlawful trade practices proscribed in § 33-18-201, MCA. See Bill to Revise Law
Relating to Insurance Bad Faith Claims, H.R. 240,
50th Leg., Reg. Sess. (1987); House Judiciary Committee
Hearing Minutes on House Bill 240, 50th Leg., Reg.
Sess. (Jan. 27, 1987); Executive Session of House
Judiciary Committee Hearing Minutes on House Bill
240, 50th Leg., Reg. Sess. (Feb. 19, 1987); Senate
Business and Industry Committee Hearing Minutes on
House Bill 240, 50th Leg., Reg. Sess. (Mar. 9-11,
1987); and Executive Session of Senate Business and
Industry Committee Hearing Minutes on House Bill
240, 50th Leg., Reg. Sess. (Mar. 12, 1987). The bill
became law and § 33-18-242, MCA, has remained
unchanged since. See § 33-18-242, MCA (1987 Mont.
Laws ch. 278, § 3).
¶41 The new independent statutory insurance
bad faith claim was and remains expressly available
to both first- and third-party claimants. Section 33-181066-67 (stating issue as whether § 33-18-201, MCA, “confers a
private cause of action” and holding that § 33-18-201, MCA,
created duties to third-party claimants, a breach of which is “the
basis for a civil action”); Fode, 221 Mont. at 284-86, 719 P.2d at
415-16 (recognizing Klaudt claim as a UTPA-based claim rather
than a common law claim). See also Mark Ibsen, Inc. v. Caring
for Montanans, Inc., 2016 MT 111, ¶¶ 41-42, 383 Mont. 346, 371
P.3d 446 (distinguishing statutorily-implied tort claims based on
violations of statutory duty from common law claims based on
violations of independent common law duties).

24a
242(1), MCA. While the focus of the legislative
impetus for the new action was on limiting the
perceived adverse effect of the Klaudt claim, the new
statute also expressly abolished and precluded independently recognized first-party common law bad
faith claims. Section 33-18-242(3), MCA. Consistent
with the language of § 33-18-201, MCA, and the
common law standards from which it derived,2 § 3318-242, MCA, also expressly clarified that insurers
had no statutory bad faith liability if a reasonable
basis in fact or law existed for contesting liability or
the amount of the claim. Section 33-18-242(5), MCA.
The new statute further expressly provided that
claimants did not have to prove, as otherwise required
by the language of § 33-18-201, MCA, that an alleged
UTPA claims handling “violation[ ] [was] of such
frequency as to indicate a general business practice.”
Section § 33-18-242(2), MCA. Compare § 33-18-201,
MCA. However, in an apparently uncontemplated
quirk, the limited language of § 33-18-242, MCA, did
not supplant the “common law” Klaudt claim it was
intended to curb. See Brewington v. Emp’rs Fire Ins.
Co., 1999 MT 312, ¶¶ 14-19, 297 Mont. 243, 992 P.2d
237. Compare § 33-18-242(3), MCA.
¶42 Prior to enactment of § 33-18-242, MCA
(1987), and by operation of the narrow Insurance Code
definitions of “insurance” and “insurer,” individuals
and entities not primarily engaged in the business of
providing contracts of insurance were not regulated
“insurers,” and thus not subject to § 33-18-201, MCA,
2

See White v. State ex rel. Montana State Fund, 2013 MT 187,
44 17-30, 371 Mont. 1, 305 P.3d 795 (noting that UTPA-specified
unfair trade practices derived from application of common law
implied covenant of good faith and fair dealing in first-party
insurance claim context).

25a
and related tort liability under the UTPA-based
Klaudt claim. See Ogden v. Montana Power Co., 229
Mont. 387, 391-93, 747 P.2d 201, 204-05 (1987) (holding that a public power utility was not an “insurer” for
purposes of § 33-18-201, MCA, and Klaudt tort claim).
Accord Martel v. Montana Power Co., 231 Mont. 96,
108, 752 P.2d 140, 147 (1988). In Ogden, which like
Martel involved a pre-1987 Klaudt claim alleging that
the Montana Power Company unreasonably failed to
settle a third-party negligence claim arising from a
power line accident, we noted in passing that the
Legislature had recently enacted § 33-18-242, MCA,
which, inter alia, expressly applied the new statutory
bad faith claim not only to insurers but also to “selfinsurers.’’ Ogden, 229 Mont. at 393, 747 P.2d at 205.
However, almost 35 years later, we have never
had occasion to consider the meaning and intent of
§ 33-18-242(8), MCA (extending statutory insurance
bad faith liability beyond insurers to those “utilizing
self-insurance to pay claims made against them”
(emphasis added)).
¶43 As a preliminary matter, § 33-18-242(8),
MCA, was not present in the original bill introduced
before the House Judiciary Committee in 1987. See
Bill to Revise Law Relating to Insurance Bad Faith
Claims, H.R. 240, 50th Leg., Reg. Sess. (1987). It was
mysteriously inserted without explanation or
controversy in Executive Session before the bill
passed out to the House floor. See Executive Session of
House Judiciary Committee Hearing Minutes on
House Bill 240, 50th Leg., Reg. Sess. (Feb. 19, 1987);
H.R. Journal, 50th Leg., Reg. Sess., 762-63, 885, 90910, 1379 (1987).3 Nor was the subsection (8) self3

Subsection (8) was included in the bill with other amendments in regard to which the legislative intent and purpose was

26a
insurance provision explained, discussed, or even
referenced in any of the subsequent Senate proceedings on the bill. See Senate Business and Industry
Committee Hearing Minutes \on House Bill 240, 50th
Leg., Reg. Sess. (Mar. 9-11, 1987); Executive Session
of Senate Business and Industry Committee Hearing
Minutes on House Bill 240, 50th Leg., Reg. Sess. (Mar.
12, 1987); S. Journal, 50th Leg., Reg. Sess., 815, 884,
904, 938 (1987). The legislative history of § 33-18-242,
MCA, thus includes no indication of the perceived
necessity or intended purpose for extending the new
statutory insurance bad faith liability beyond
“insurers” to those “utilizing self-insurance to pay
claims made against them.” In contrast to the precise
Insurance Code definitions of “insurance” and
“insurer,” the bill and ultimate statute did not define
the term “self-insurance” and, to this day, the term
remains undefined in the UTPA and larger Insurance
Code. Section 33-18-242(8), MCA, is thus facially
vague or ambiguous as to whether the reference to
those “utilizing self-insurance” broadly refers to all
who simply have no insurance coverage for a particular type of liability claim and must thus necessarily
“pay claims made against them” by other means or,
alternatively, more narrowly refers only to those
who have affirmatively elected and qualified to be a
government-approved “self-insured” in accordance with

manifest without need for explanation or definition on the face of
the amended bill. See § 33-18-242(5)-(7), MCA, regarding the
“reasonable basis in law or in fact” defense, specified periods of
limitations for the new statutory claim, and a procedural bifurcation requirement based on former § 33-18-241, MCA, and Fode,
221 Mont. at 287, 719 P.2d at 417. See also Executive Session of
House Judiciary Committee Hearing Minutes on House Bill 240,
50th Leg., Reg. Sess. (Feb. 19, 1987).

27a
a preexisting statutory scheme apart from the
Insurance Code.
¶44 In that regard, nothing in the legislative
history of § 33-18-242, MCA, manifests or suggests
any legislative intent or purpose to broadly subject
every individual or entity who technically has no
third-party insurance coverage for particular types of
claims to insurance bad faith liability under §§ 33-18201 and -242(1), MCA, absent a reasonable basis in
fact or law for disputing liability or the amount of
a claim. To the contrary, the legislative history of
§ 33-18-242, MCA, indicates that the sole legislative
impetus was to ameliorate the perceived adverse
effect of the Klaudt claim by displacing it with an
express statutory tort remedy more limited in scope
and effect. Further indicating the complete absence of
any legislative intent to significantly expand the scope
of tort liability under the new statutory insurance bad
faith claim are the historical facts that § 33-18-242,
MCA, was a tort reform measure in which the subject
“self-insurance” provision was inconspicuously included
in a package of other more prominent amendments
without explanation or controversy. As a matter of
law, the Legislature is presumed to be fully aware of
the substance and effect of its prior enactments.
Under the totality of these circumstances, the only
reasonably conceivable explanation for the complete
absence of explanation, definition, reference, or controversy regarding the “self-insurance” provision in
the otherwise controversial bill was that the technical
meaning of the term “self-insurance” was already
established and well-known to the Legislature through
other prior enactments.

28a
¶45 In pertinent part, the Insurance Code has at
all times pertinent narrowly defined the terms “insurance” and “insurer,” to wit:
“Insurance” is a contract through which one
undertakes to indemnify another or pay or
provide a specified or determinable amount
or benefit upon determinable contingencies.
“Insurer’’ includes every person engaged as
indemnitor, surety, or contractor in the business of entering into contracts of insurance.
Section 33-1-201(5)(a) and (6), MCA (emphasis added).4
The Code has at all times further defined the derivative terms “authorized insurer,” “domestic insurer,”
“foreign insurer,”and “alien insurer,” and specified
for all that no “person acting as an insurer” may
“transact[ ] insurance in this state” without a prior
“certificate of authority issued by the [insurance]
commissioner” in accordance with the requirements
of §§ 33-2-106 and -115 through -117, MCA. Sections
33-1-201(1)-(4), (9), and 33-2-101, MCA. See also
§ 33-1-201(10), MCA (defining the term “unauthorized
insurer”).
¶46 Against that precisely-defined statutory backdrop, the concept of “self-insurance”was already
established and well-known to the Legislature prior to
1987 in the Montana Workers’ Compensation Act
(Work-Comp Act) and the Montana Motor Vehicle
4

It is of further note that, at all times pertinent, the limited
purpose of the Insurance Code has been to regulate the “transact[ion] [of the] business of insurance” or “insurer transacti[on]
[of] insurance,” and that the limited purposes of the UTPA
thereunder has been to “regulate [unfair or deceptive] trade
practices in the business of insurance.” Sections 33-1-102(1),
33-2-101(1), and 33-18-101, and -102, MCA.

29a
Insurance Responsibility and Verification Act (MVIRVA).
Under the Work-Comp Act, Montana employers have
at all times pertinent had three options by which to
provide mandatory workers’ compensation insurance
benefits to employees. First, there were and remain
two options for acquiring the requisite insurance coverage from third-party providers—under an insurance
policy provided by a Montana-regulated “insurer” or
by coverage acquired from the statutory “state fund.’’
Section 39-71-2201, et seq., MCA (Plan 2 private
insurance option);5 Title 39, chapter 71, part 23,
MCA (Plan 3 state fund option). As the third option,
employers could and can elect, upon “permission” of
the responsible state agency, to “provide self-insured
workers’ compensation benefits for their employees.’’
Sections 39-71-2101 and -2103, MCA (Plan 1 selfinsurance option). In order to obtain “permission” to
provide self-insured workers’ compensation benefits,
the Work-Comp Act has at all times required applicants to ‘‘furnish[ ] satisfactory proof . . . of solvency
and financial ability to pay the compensation and
benefits provided [under the Act] . . . and to discharge
all liabilities . . . reasonably likely to be incurred”
during the subject time period. Section 39-71-2101(1),
MCA (1915 Mont. Laws ch. 96, § 30) (emphasis
added). See also § 39-71-116(17), MCA (defining
“insurer” as referenced in the Work-Comp Act to inter
5

As of 2007, employers can also obtain the requisite Plan 2
workers’ compensation insurance coverage from a “captive
reciprocal insurer established by or on behalf of any employer or
a group of employers.” Section 39-71-2201(3), MCA (2007 Mont.
Laws ch. 117, § 10). However, “captive” insurance companies
were not authorized to transact insurance in Montana until after
2001, and then only as regulated under the Insurance Code. See
§§ 33-28-101, -102, et seq., MCA (2001 Mont. Laws ch. 298, § 1,
as amended by 2003 Mont. Laws ch. 383, §§ 8-9).

30a
alia include employers who elect to be “bound by
compensation plan No. 1”).
¶47 Similarly, for purposes of the MVIRVA
mandatory motor vehicle liability insurance requirement, “[a]ny person in whose name more than 25
motor vehicles are registered may qualify as a selfinsurer by obtaining a certificate of self-insurance
issued by the [Montana Department of Justice].”
Section 61-6-143(1), MCA (1951 Mont. Laws ch. 204,
§ 34) (emphasis added). MVIRVA self-insurance certificates are available only on verification of the
requisite fleet requirement and satisfactory proof that
the applicant “is possessed and will continue to be
possessed of ability to pay judgments obtained against
such person.’’ Section 61-6-143(2), MCA (1951 Mont.
Laws ch. 204, § 34). For purposes of a certificate of
self-insurance, “[p]roof of financial responsibility”
means “proof of ability to respond in damages for liability on account of accidents occurring subsequent . . .
[thereto and] arising out of the ownership, maintenance, or use of a motor vehicle.” Section 61-6-102(9),
MCA.
¶48 Thus, as manifest in the Work-Comp Act and
MVIRVA, there has been at all times pertinent a
significant and well-known technical legal distinction
under Montana law between affirmatively governmentapproved “self-insurers” and others who, for whatever
reason, technically have no insurance coverage for a
type of liability claim and must pay through other
means when necessary. We must construe statutory
terms or phrases that have technical meaning in
accordance with any “peculiar and appropriate meaning [acquired] in law.” Section 1-2-106, MCA. Here, as
referenced in § 33-18-242(8), MCA, and in the absence
of a contrary statutory provision, the phrase individ-

31a
ual or entity “utilizing self-insurance” has technical
legal meaning referring only to those who affirmatively obtain statutorily-specified government approval
or verification to self-insure or utilize self-insurance
for liabilities within the scope of a statutorily-mandated form or level of insurance, such as compulsory
workers’ compensation or automobile liability insurance,
for example.
¶49 In the context of construing a standard
insurance policy “other insurance” provision, the New
Jersey Superior Court, Appellate Division, long ago
aptly explained the significant distinction between
the broad colloquial meaning of “self-insurance” and
the more narrow technical legal meaning of the term
under a state insurance regulatory scheme similar to
ours, to wit:
We start from the premise that so-called selfinsurance is not insurance at all. It is the
antithesis of insurance. The essence of an
insurance contract is the shifting of the risk
of loss from the insured to the insurer. The
essence of self-insurance, a term of colloquial
currency rather than of precise legal meaning,
is the retention of the risk of loss by the one
upon whom it is directly imposed by law or
contract. . . . Clearly then, [in the broadest
colloquial sense,] [any]one may be regarded
as a self-insurer as to any risk of loss to which
he is subject and which is susceptible to
insurance coverage but as to which he has not
obtained such coverage. . . . But as a matter
both of common sense and the fundamentals
of insurance law, a failure to purchase
obtainable insurance is not itself insurance.
That failure simply and inevitably means

32a
that there is no insurance for that risk. Thus,
the undertaking to self-insure cannot, by
definition, be regarded as insurance.
Am. Nurses Ass’n v. Passaic Gen. Hosp., 192 N.J.Super.
486, 471 A.2d 66, 69 (1984) (internal citations omitted), reversed in part on other grounds, 98 N.J. 83,484
A.2d 670 (1984).6 However, in contrast to “the general,
imprecise and amorphous concept of self-insurance,”
the New Jersey Court further recognized that:
there is one type of self-insurance . . . [with]
a legally-recognized identity and a clearly
6

See also Aerojet-General Corp. v. Transport Indem. Co., 17
Cal.4th 38, 70 Cal.Rptr.2d 118, 948 P.2d 909, 930 n.20 (1997)
(‘‘[i]n a strict sense, ‘self-insurance’ is a ‘misnomer[ ]’ . . . ‘[s]elfinsurance is equivalent to no insurance’” (internal citations
omitted)); Aetna Cas. & Sur. Co. v. World Wide Rent-A-Car, Inc.,
28 A.D.2d 286, 284 N.Y.S.2d 807, 809 (1967) (auto liability selfinsurance is not insurance); State Farm Mut. Auto. Ins. Co. v. Du
Page Cty, 352 Ill.Dec. 891, 955 N.E.2d 67, 74-75 (App. 2011)
(county that is colloquially self-insured ‘‘is not an insurer or an
insurance company”—‘‘[a]n insurance policy is a contract requiring two parties, an insurer and an insured”); State v. Continental
Cas. Co., 126 Idaho 178, 879 P.2d 1111, 1116 (1994) (selfinsurance is not insurance ‘‘[b]ecause [it] does not involve a
transfer of the risk of loss”—merely ‘‘a retention of that risk”);
Cordova v. Wolfel, 120 N.M. 557, 903 P.2d 1390, 1392 (1995)
(‘‘[m]ost authorities agree that self-insurance is not insurance”—
‘‘[i]nsurance is a contract whereby for consideration one party
agrees to indemnify or guarantee another party against specified
risks’’); Am. Family Mut. Ins. Co. v. Missouri Power & Light Co.,
517 S.W.2d 110 (Mo. 1974) (auto liability self-insurance is not
insurance); Eakin v. Indiana Intergovt’l Risk Mgmt. Auth., 557
N.E.2d 1095, 1101 (Ind. Ct. App. 1990) (colloquial self-insurance
through risk-pooling is not insurance because ‘‘the risks and
costs of civil liability are completely internalized among [the]
participants” without ‘‘shift[ing] the risk to for-profit risk
takers”—quoting Antiporek v. Vill. of Hillside, 114 Ill.2d 246, 102
Ill.Dec. 294, 499 N.E.2d 1307 (1986)).

33a
defined consequence. We refer to the situation
in which [a] compulsory liability insurance . . .
[scheme] provides that a person subject to the
mandate may, in accordance with specified
standards and upon a satisfactory showing of
financial ability to bear the risk, be exempted
from the obligation to purchase insurance
upon issuance by a designated administrative officer or agency of a certificate of selfinsurance. . . . This qualified self-insurance,
as it may be termed for convenience in
reference, has been held to require the selfinsurer to provide the public sought to be
protected by the compulsory insurance with
the same “coverage” and incidents of “coverage” as he would have had to have purchased
but for the certificate of self-insurance.
Am. Nurses Ass’n, 471 A.2d at 69 (emphasis added).7
¶50 Here, it is beyond genuine material dispute
that, as an interstate common carrier, BNSF is not an
‘‘insurer” engaged in the transaction of the ‘‘business
of insurance” as referenced and defined in §§ 33-1102(1), -201(1)-(6), (9), and 33-18-101, MCA. As a state
7

See also Martin v. Powers, 505 S.W.3d 512, 519-20 (Tenn.
2016) (noting ‘‘many formal procedures . . . whereby an entity can
become recognized as a self-insurer” under state law, ‘‘most
commonly . . . by filing a bond or furnishing another form of proof
of the ability to pay amounts for which the self-insurer may
become liable” (internal punctuation and citation omitted));
United Nat. Ins. Co. v. Philadelphia Gas Works, 221 Pa.Super.
161, 289 A.2d 179, 181 (1972) (a certificate of self-insurance
under a mandatory motor vehicle liability scheme ‘‘is not an
insurance policy . . . [its] purpose . . . is the protection of the public
against an owner of vehicles”—not to ensure indemnification of
individual tortfeasors (citing Farm Bureau Mut. Auto. Ins. Co. v.
Violano, 123 F.2d 692, 696 (2d Cir. 1941)).

34a
law matter, BNSF is thus not subject to the Montana
Insurance Code or UTPA, unless as an entity ‘‘utilizing self-insurance to pay claims made against [it],” as
referenced in § 33-18-242(8), MCA. In that regard, the
Montana Work-Comp Act does not apply to BNSF as
a matter of law, and the underlying FELA claim at
issue does not arise as a matter of fact or law within
the scope of the MVIRVA. Nor does it arise under any
similar compulsory insurance scheme under Montana
law.
¶51 Dannels nonetheless implicitly asserts that
BNSF ‘‘utilizes self-insurance” as referenced in § 3318-242(8), MCA, because it ‘‘is reimbursed” for
FELA claim payouts by a ‘‘captive” company, ‘‘BNSF
Insurance,” a Bermuda-incorporated entity through
which BNSF ‘‘participates in reinsurance pooling
agreements with other railroads.” (Emphasis added.)
However, taking his description of ‘‘BNSF Insurance”
as true, Dannels as a matter of law cannot demonstrate that BNSF’s alleged reinsurance pooling agreements with other railroads through an unregulated
‘‘captive” subsidiary either constitute ‘‘insurance” or
‘‘self-insurance” as narrowly recognized under Montana
law and referenced in § 33-18-242(8), MCA.8 Dannels
8

Even under an alternative ‘‘insurer” or ‘‘captive insurer”
theory of liability under § 33-18-242, MCA, Dannels has made no
assertion, much less showing, that either BNSF or ‘‘BNSF
Insurance” is a ‘‘foreign insurer,” ‘‘alien insurer,” or ‘‘authorized
insurer,” as defined and regulated under §§ 33-1-201(1)-(6), (9),
33-2-101, -106, and -115 through -117, MCA, and engaged in the
transaction of the business of insurance in Montana as
referenced in §§ 33-1-102(1) or 33-18-101, MCA. Moreover, while
‘‘captive insurers,”including reciprocal captive insurers, inter
alia, may now transact insurance under Montana law, they may
do so only subject to regulation under the Montana Insurance
Code upon advance issuance of a ‘‘certificate of authority” issued

35a
cannot distinguish BNSF’s ‘‘reinsurance” pooling agreements through an unregulated ‘‘captive” subsidiary as
anything more than an example of the ‘‘myriad” of
‘‘customary [non-insurance] private indemnity agreement[s]” distinguished by the New Jersey Court from
true insurance or statutorily qualified self-insurance,
to wit:
The . . . question [arises as to] whether there
should be any different result when the
nature of the self-insured risk of loss is an
obligation to indemnify. We do not perceive
any viable conceptual basis for ascribing
different consequences to that risk of loss. . .
. It is clear that all contracts of insurance are,
basically, indemnity agreements. But all
indemnity agreements are not insurance
contracts. . . . As a matter of common
understanding, usage, and legal definition,
an insurance contract denotes a policy issued
by an authorized and licensed insurance
company whose primary business it is to
assume specific risks of loss of members of
the public at large in consideration of the
payment of a premium. There are, however,
other risk-shifting agreements which are not
insurance contracts. These include the customary private indemnity agreement where
affording the indemnity is not the primary
upon qualification by the Montana insurance commissioner. See
§ 33-28-102(2), MCA. Dannels has neither stated, nor shown, any
reason to believe that ‘‘BNSF Insurance” is a regulated ‘‘captive
insurer” authorized to transact business in Montana. He has
further failed in any event to allege or show that ‘‘BNSF
Insurance” was in any manner directly involved in the actual
handling of the FELA claim at issue or FELA claims in general.

36a
business of the indemnitor and is not subject
to governmental regulation but is merely
ancillary to and in furtherance of some other
independent transactional relationship between
the indemnitor and the indemnitee. The
indemnity is, thus, not the essence of the
agreement creating the transactional relationship but is only one of its negotiated terms
. . . . There are myriad other examples.
Am. Nurses Ass’n, 471 A.2d at 70-71 (emphasis
added).9 Thus, contrary to Dannels’ implied assertion,
BNSF is in any event not a “self-insurer” or entity
“utilizing self-insurance” for FELA claims as recognized under Montana law and referenced in § 33-18242(8), MCA.
¶52 At bottom as to FELA claims, whatever the
structure of its unregulated subsidiary ‘‘BNSF Insurance,” BNSF is neither an “insurer,” nor an entity that
“utilizes self-insurance” as narrowly recognized under
Montana law. On this record, it is no more than a
technically-uninsured private entity, primarily engaged
in business as a common carrier of freight, and which
participates in non-insurance liability indemnification
agreements with other non-insurer railroads through a
wholly owned subsidiary not regulated for that purpose under Montana law. As a matter of law, BNSF is
neither an “insurer,” nor an entity utilizing “selfinsurance,” as referenced in § 33-18-242(1) and (8), MCA,
and is thus not subject to liability for unfair FELA
claims handling practices under § 33-18-242, MCA.

9

See also Crone v. Crone, 2003 MT 238, ¶ 30, 317 Mont. 256,
77 P.3d 167 (insurance is only one form of contract indemnity
with another).

37a
B. BNSF Has a First-Party Common Law Duty
of Good Faith and Fair Dealing Under
Montana Law to Reasonably Investigate and
Settle FELA Claims When FELA Liability Is
Reasonably Clear.
¶53 The employment relationship between railroads and railroad workers is first and foremost a
contractual relationship arising under and governed
by Montana law, except to the extent preempted by
applicable federal law. Sections 39-2-101 and -903(2),
MCA; U.S. Const. art. VI. As a matter of fact, the
contractual employment relationship between BNSF
and its railway workers, including Dannels, is
presumably governed by the terms of a collective
bargaining agreement (CBA), as is typical, which are
in turn governed by federal labor law, such as the
Labor Management Relations Act (LMRA), 29 U.S.C.
§ 185(a), and/or the Railway Labor Act (RLA), 45
U.S.C. § 151, et seq., as applicable.10 As a matter of
law, the LMRA and RLA separately preempt state
law claims for relief that depend on application or
interpretation of the express terms of CBAs in interstate commerce. Conversely, however, the LMRA and
RLA do not preempt employee claims against employers predicated on alleged breach of independent legal
duties that do not depend on interpretation or application of the express terms of an otherwise governing
CBA. Hawaiian Airlines, Inc. v. Norris, 512 U.S. 246,
260-66, 114 S. Ct. 2239, 2247-51, 129 L.Ed.2d 203
(1994) (noting that RLA preemption standard is “virtually identical to” the LMRA preemption standard
recognized in Allis-Chalmers Corp. v. Lueck, 471 U.S.
10

It is unclear and beyond the scope of the matters at issue to
discern whether and to what extent Dannels is subject to a CBA
governed by the RLA, LMRA, or both.

38a
202, 220, 105 S. Ct. 1904, 1916, 85 L.Ed.2d 206
(1985)); Pike v. Burlington N. R.R. Co., 273 Mont.
390, 398-401, 903 P.2d 1352, 1357-59 (1995) (citing
Hawaiian Airlines).11
¶54 As a matter of state law, implied by law in
every contract is a covenant of good faith and fair
dealing that requires “honesty in fact and the
observance of reasonable commercial standards of fair
dealing in the trade.” Section 28-1-211, MCA,12 Story
v. City of Bozeman, 242 Mont. 436, 449-50, 791 P.2d
767, 774-75 (1990). The covenant derives from the
“justified expectation” of each party “that the other
will act in a reasonable manner” within the framework of the express terms of the contract. Story, 242
Mont. at 450, 791 P.2d at 775. The extent of the
implied covenant thus depends upon the justified
expectations of the parties under the totality of the
11

Accord Winslow v. Montana Rail Link, Inc., 2000 MT 292,
¶¶ 14-27, 302 Mont. 289, 16 P.3d 992 (state statutory wrongful
discharge and noninjury-based negligent railroad management
claims not preempted by LMRA or RLA where not based on an
alleged breach, or interpretation or application of, an express
term of the CBA); Foster v. Albertsons, Inc., 254 Mont. 117, 12328, 835 P.2d 720, 724-27 (1992) (state common law wrongful
discharge claim based on tortious breach of implied covenant of
good faith and fair dealing preempted by LMRA because proof
dependent on interpretation or application of express terms of
LMRA-governed CBA, but not independent state law claim for
retaliatory discharge regarding sexual harassment claim not
predicated or dependent on express terms of the CBA); Smith v.
Montana Power Co., 225 Mont. 166, 169-71, 731 P.2d 924, 92627 (1987) (common law wrongful discharge claim based on alleged
tortious breach of implied covenant of good faith and fair dealing
preempted by LMRA where proof of the claim was “substantially
dependent” on express terms of the LMRA-governed CBA).
12

See also §§ 30-1-201(2)(u) and -203, MCA (UCC recognition
of implied covenant of good faith).

39a
circumstances under the particular contractual setting at issue. See Hardy v. Vision Serv. Plan, 2005
MT 232, ¶¶ 13-17, 328 Mont. 385, 120 P.3d 402. By
nature, proof of breach of the implied covenant of good
faith and fair dealing does not require or depend on
proof of breach of an express contract term. Story, 242
Mont. at 450, 791 P.2d at 775. Proof of an alleged
breach of the implied covenant merely requires proof
that the offending party acted within the framework
of the express contract in a manner that was an
unreasonable deviation from prevailing commercial
standards of reasonableness in the trade at issue. See
Story, 242 Mont. at 448-50, 791 P.2d at 774-75. Accord
Phelps v. Frampton, 2007 MT 263, ¶ 29, 339 Mont.
330, 170 P.3d 474; Hardy, ¶ 13; Weldon v. Montana
Bank, 268 Mont. 88, 94-95, 885 P.2d 511, 515 (1994).
¶55 In the context of FELA and the underlying
relationship between a railroad and union railway
workers, the CBA is the base employment contract
which, in pertinent essence, expressly provides that
covered railroad workers will perform assigned work
as directed in return for specified wages and benefits
in accordance with the CBA, subject to specified
discipline and discharge provisions and rules. Upon
formation of the employment contract, FELA independently imposes on railroads a federal statutory
duty to compensate workers for work-related injuries
in accordance with its remedial standard of liability.13
13

Congress enacted FELA for the humanitarian purpose of
ameliorating the harsh common law obstacles that previously
impeded railroad workers from obtaining compensation for workrelated injury. See 45 U.S.C. § 51; Consolidated Rail Corp. v.
Gottshall, 512 U.S. 532, 542-43, 114 S. Ct. 2396, 2403-04, 129
L.Ed.2d 427 (1994) (“[c]ognizant of the physical dangers of railroading that resulted in the death or maiming of thousands of
workers every year, Congress crafted a federal remedy that

40a
As a matter of law, the net effect of the railroad
employment contract, FELA, and covenant of good
faith and fair dealing implied in the contract as a
matter of law is the mutual expectation of the parties
that the employing railroad will fairly and reasonably
compensate its workers for work-related injury in
accordance with FELA liability standards. Accordingly,
by operation of the implied covenant of good faith and
fair dealing overlaying the employment contract in
the FELA context, employing railroads have an
implied Montana common law contract duty to handle
Montana-accrued FELA claims in a manner that is
reasonable under the facts and circumstances of each
case in accordance with the governing FELA standard
of liability.
¶56 As previously held in Reidelbach v.
Burlington N. & Santa Fe Ry. Co., 2002 MT 289, 312
Mont. 498, 60 P.3d 418, and again today, under the
erroneous presumption procedurally foisted on the
Court by the parties’ stipulation below that the UTPA
applies to railroads operating in Montana,14 FELA
shifted part of the ‘human overhead’ of doing business from
employees to their employers” (internal citations omitted)).
14

Unlike Dannels’ asserted claim of UTPA liability here,
Reidelbach did not involve an express UTPA insurance bad faith
claim under § 33-18-242, MCA. See Reidelbach, ¶¶ 10 and 51.
Rather, Reidelbach involved a UTPA-implied third-party Klaudt
claim theory (citing Brewington v. Emp’rs Fire Ins. Co., 1999 MT
312, 297 Mont. 243, 992 P.2d 237 and § 33-18-101, MCA) and,
alternatively, an inconsistent first-party common law tortious
bad faith claim based on alleged breach of the implied covenant
of good faith and fair dealing (citing Story v. City of Bozeman,
242 Mont. 436, 791 P.2d 767 (1990)) with reference to an alleged
qualifying special relationship between Reidelbach and BNSF.
See Reidelbach, 44 10 and 51. As here, the focus in Reidelbach
was on the narrow FELA preemption issue without analysis of
whether the asserted state law claim even stated a cognizable

41a
does not preempt an independent state common law
fair claims handling duty implied from the
employment contract because FELA neither imposes,
nor precludes, such a related but distinct legal duty.
Nor does such state law duty in any way impede or
interfere with any purpose, provision, or operation of
FELA for purposes of the federal field preemption
doctrine. Despite that it would not arise as a matter
of law in the absence of the underlying employment
contract, the FLMA and the RLA, as applicable,
similarly do not preempt such a duty because it arises
as a matter of state law independent of the express
terms of any otherwise governing CBA and is not
dependent on interpretation or application thereof.
See Atchison, Topeka & Santa Fe Ry. Co. v. Buell, 480
U.S. 557, 561-67, 107 S. Ct. 1410, 1413-16, 94 L.Ed.2d
563 (1987) (holding that recovery of emotional distress
damages under FELA would not be inconsistent or in
conflict with RLA collective bargaining scheme).
Thus, neither FELA, nor the RLA/FLMA, preempt an
implied Montana contract duty requiring railroads to
handle FELA claims in a fair and reasonable manner
in accordance with FELA liability standards.
¶57 However, as in the foregoing analysis of the
inapplicability of § 33-18-242, MCA, to BNSF, a
similar threshold state law question remains as to
whether an independent common law tortious bad
faith claims handling claim would lie against BNSF
on its constituent elements. We have long recognized
that Montana employers have an implied common law
contract duty “to deal fairly and in good faith with
[their] employees.’’ Morse v. Espeland, 215 Mont. 148,
152, 696 P.2d 428, 430 (1985). Accord Nicholson v.
claim for relief as applied to BNSF as a threshold matter of
Montana law.

42a
United Pac. Ins. Co., 219 Mont. 32, 40, 710 P.2d 1342,
1347 (1985) (internal citations omitted), overruled in
part on other grounds by Story, 242 Mont. at 450, 791
P.2d at 775 (in re standard for tortious violation);
Weber v. Blue Cross of Montana, 196 Mont. 454, 46364, 643 P.2d 198, 203 (1982). While generally compensable only in contract by contract damages, Hardy,
¶ 13; Story, 242 Mont. at 450-51, 791 P.2d at 775-76,
breach of the implied covenant is compensable in
tort if the breach occurred in the context of a “special
relationship” between the parties “not otherwise controlled by specific statutory provisions.’’ Story, 242
Mont. at 451-52, 791 P.2d at 776. A special relationship giving rise to tort liability for breach of the
implied covenant exists when:
(1) “the contract [is] such that the parties
are in inherently unequal bargaining
positions”;
(2) the weaker party had a non-profit motivation for entering into the contract, such
as “to secure peace of mind, security, [or]
future protection”;
(3) “ordinary contract damages are not
adequate” to remedy the breach because
they “do not require the party in the
superior position to account for its
[wrongful] actions” and are not adequate
to “make the inferior party ‘whole’”;
(4) the weaker party “is especially vulnerable because of the type of harm [the
party] may suffer” and the related
necessity of placing trust in the stronger
party to perform; and

43a
(5) the stronger party is aware of the special
vulnerability of the weaker party.
Story, 242 Mont. at 451-52, 791 P.2d at 776 (quoting
Wallis v. Superior Court, 160 Cal. App.3d 1109, 207
Cal. Rptr. 123, 129 (1984)).
¶58 Here, Dannels’ railroad employment is
presumably governed by the express terms of the
federally regulated CBA under which BNSF employed
him. His ultimate entitlement to compensation for
work-related injury is then independently governed by
FELA. Neither govern, however, the question of
whether BNSF handled his FELA claim in a fair and
reasonable manner under the circumstances in
accordance with governing FELA liability standards.
Nor is that question governed by any other specific
statutory scheme. Thus, a common law tortious FELA
claims handling claim is “not otherwise controlled by
specific statutory provisions” for purposes of the
threshold Story criterion here.
¶59 Turning to the Story special relationship
criteria, substantial parity presumably exists between
BNSF and union railroad workers in the collective
bargaining process, at least in regard to the general
terms and conditions of employment. However, Dannels’
entitlement to compensation for work-related injury
under FELA is not dependent on the collective bargaining process or any resulting CBA. See Buell, 480
U.S. at 561-67, 107 S. Ct. at 1410-16. Moreover, like
third-party claimants in the liability insurance context,
injured railroad workers have no leverage, alternative, or remedy in the FELA claims handling and
negotiation process other than the threat of FELA
litigation, with nothing waiting in the end zone other
than the compensation to which they would in any
event be entitled under FELA liability standards from

44a
the get-go, albeit as significantly reduced by the cost
of attorney fees necessary to acquire it. As a result, it
is distinctly possible for the railroad to either delay or
deny settlement of an injured worker’s FELA claim,
without a reasonable basis in fact or law for doing so,
for no reason other than to leverage a more advantageous settlement against an economically desperate
worker. Such scenarios are particularly damaging to
injured workers who are temporarily or permanently
unable to continue working in their former railroad
capacity as a result of a work-related disability.
Regardless of the relative parity between them as to
other conditions of employment, employing railroads
and injured workers are in inherently unequal, widelydisparate bargaining positions regarding the railroad’s
handling of their FELA personal injury claims.
¶60 Under the second and third Story criteria,
railroad workers unquestionably have a motive for
economic gain in accepting and continuing railroad
employment for wages and related benefits. As a
matter of law, however, they have no legitimate
motive or interest in economic gain in obtaining
fair and reasonably prompt compensation for workrelated personal injury due them under FELA. To that
end, ordinary FELA damages compensate workers
only for statutorily compensable injury and detriment
caused by the subject work-related injury. FELA
damages do not compensate injured workers for any
additional provable harm caused by a railroad’s failure to promptly settle a FELA claim in the absence of
a reasonable basis in fact or law for contesting it. In
that scenario, ordinary FELA damages are not only
inadequate to make the injured claimant whole for the
additional harm or detriment caused by unreasonable
railroad intransigence in the claims handling process,
but further provide no disincentive or deterrent

45a
sufficient to hold the offending railroad to account for
additional harm or detriment caused thereby.
¶61 As to the fourth and fifth Story criteria,
railroad workers who suffer more than minor injuries
that do not result in wage loss are particularly vulnerable to unreasonable railroad claims handling because,
in addition to the temporary or permanent disabling
nature of the injury on a worker’s physical integrity
and function, the worker also inevitably faces the
related economic hardships of immediate wage loss,
concomitant costs of medical treatment and necessities of life, and the impairment of ability to work in
any other railroad or non-railroad capacity for some
indefinite time into the future, if not permanently.
Employing railroads are unquestionably aware of
this special vulnerability. Therefore, all of the Story
criteria for recognition of a special relationship giving
rise to an independent tort duty and liability between
contracting parties are therefore present here as a
matter of law. Consequently, unlike the UTPA
insurance bad faith claim asserted by Dannels, an
independent Montana common law claim for tortious
FELA claims handling is cognizable against BNSF.
¶62 Finally, by partial analogy to the UTPA
standard of duty and liability, I would hold that the
standard of duty for determining whether a railroad
handled a FELA claim in a fair and reasonable
manner is whether the railroad disputed the FELA
claim without a reasonable basis in fact or law to
dispute a material aspect of any of the essential elements of the claim under applicable FELA standards.
Cf. §§ 33-18-201(6) and -242(5), MCA. In this context,
whether a railroad had a reasonable basis in fact or
law to dispute an essential element of a FELA claim
is an objective standard based on consideration of

46a
governing FELA liability standards as applied to the
railroad’s knowledge of the pertinent facts and circumstances then available. Cf. Peterson v. St. Paul Fire &
Marine Ins. Co., 2010 MT 187, ¶ 39, 357 Mont. 293,
239 P.3d 904.15 As in the UTPA context, an ultimate
finding by the trier of fact on the elements of a FELA
claim has no bearing on whether the railroad earlier
reasonably disputed the claim based on the thenavailable material facts known and applicable law. Cf.
Peterson, ¶ 39.
¶63 However, because they are predicated in our
UTPA bad faith jurisprudence on more specific statutory duties specified in § 33-18-201, MCA, I would
hold that insurance-specific concepts and constructs,
such as advance-pay requirements and related preliminary declaratory judgment procedures, inter alia,
have no analogous application in the railroad claims
settlement context.16 To further ensure accomplishment of FELA’s intended federal purpose free of abuse
or other undue interference with a railroad’s administration of FELA claims, I would further hold that a
tortious FELA claims handling claim is not cognizable
or ripe for filing against a railroad until after all
aspects of the underlying liability claim are fully
resolved by written settlement agreement or final
judgment in favor of the claimant, whether pursuant
15

I would further hold by partial analogy to the UTPA that the
railroad’s duty to handle an asserted FELA claim inter alia
includes the duty to conduct a reasonable investigation of the
claim based on all pertinent information then available. Cf. § 3318-201(4), MCA.
16

I thus concur in Justice Rice’s dissent to the extent that it
points out the manifest incompatibility of such insurance-specific
UTPA constructs and procedures with the FELA claims handling
process.

47a
to M. R. Civ. P. 12, 56, or on verdict or finding of the
trier of fact. Cf. § 33-18-242(6)(b), MCA.
¶64 In summary, I would hold that the UTPA bad
faith claim provided in § 33-18-242, MCA, and incorporated unfair insurance trade practices specified in
§ 33-18-201, MCA, do not apply to BNSF because it
is neither an “insurer,” nor an entity “utilizing selfinsurance,” as referenced in § 33-18-242(1) and (8),
MCA. I would further hold, however, that BNSF is
nonetheless subject to state common law liability for
tortious FELA claims handling based on breach of
the implied contract covenant of good faith and fair
dealing in the context of the special relationship
between BNSF and injured workers in the remedial
FELA context. On that basis, I specially concur in
Court’s opinion to the extent that it holds that FELA
does not preempt a related but independent state law
duty requiring railroads to handle FELA claims in a
fair and reasonable manner under the particular facts
and circumstances of each case in accordance with the
governing FELA liability standards.
¶65 I recognize unabashedly that the parties did
not raise the state law issues analyzed in this special
concurrence on appeal. However, I simply cannot
and will not be a party to further perpetuation of the
patently erroneous presumption, that BNSF is subject
to UTPA tort liability for unfair insurance claims
handling practices, foisted on the Court by the parties’
stipulated narrow focus on whether FELA preempts
that only presumed state law liability. As a mischievous result of the limiting effect of that stipulation on
the scope of the Court’s analysis, the majority opinion
will, if otherwise left standing on such a shaky state
law predicate on subsequent FELA field preemption
review in federal court, be hereafter cited as a canon

48a
holding that BNSF, an entity “utilizing self-insurance” in only the broadest colloquial sense under an
undefined and unanalyzed statutory term, is subject
to tort liability for violating UTPA-proscribed unfair
insurance claims handling practices. Surely to follow
will be the further expansive use of this holding to
similarly impose new tort liability unintended by the
Legislature on other persons and entities who are
simply uninsured in the technical sense. I specially
concur.

49a
Justice Jim Rice, dissenting.
¶66 I would conclude that Dannels’ Unfair Trade
Practices Act (UTPA), §§ 33-18, MCA and Montana
common law claims are preempted because the UTPA
creates unique obligations and damages conflicting
with the comprehensive and exclusive framework for
railroad carrier liability under the Federal Employers
Liability Act (FELA), 45 U.S.C. §§ 51-60 (2021).
¶67 FELA is long recognized as the comprehensive and exclusive framework governing railroad employer’s negligence. South Buffalo Ry. Co. v. Ahern,
344 U.S. 367, 371, 73 S. Ct. 340, 342, 97 L.Ed. 395
(1953). See also 45 U.S.C. § 54a; 49 U.S.C.
§ 20106(a)(1). In enacting FELA, Congress undertook
“to cover the subject of the liability of railroad
companies to their employees injured while engaged
in interstate commerce.” New York Cent. R. Co. v.
Winfield, 244 U.S. 147, 152, 37 S. Ct. 546, 548, 61
L.Ed. 1045 (1917) (emphasis added). FELA is a “broad
remedial statute” and “defined in broad language,
which has been construed even more broadly.”
Atchison, Topeka & Santa Fe R.R. Co. v. Buell, 480
U.S. 557, 561-62, 107 S. Ct. 1410, 1413, 94 L.Ed.2d
563 (1987) (footnotes omitted). FELA “establishes a
rule or regulation which is intended to operate
uniformly in all the States, as respects interstate
commerce, and in that field it is both paramount and
exclusive.” New York Cent. & Hudson River R. Co. v.
Tonsellito, 244 U.S. 360, 361-62, 37 S. Ct. 620, 621, 61
L.Ed. 1194 (1917) (emphasis added). See also Dice v.
Akron Canton & Youngstown R. R. Co., 342 U.S. 359,
361, 72 S. Ct. 312, 314, 96 L.Ed. 398 (1952) (stating
that “only if federal law controls can the federal Act
be given that uniform application throughout the

50a
country essential to effectuate its purposes”) (citation
omitted).1
¶68 Consequently, “Congress having declared
when, how far, and to whom carriers shall be liable on
account of accidents in the specified class, such liability can neither be extended nor abridged by common
or statutory laws of the State.’’ Tonsellito, 244 U.S.
at 362, 37 S. Ct. at 621. “We do not doubt that
[FELA] . . . displaces any state law trenching on the
province of the Act.” Ahern, 344 U.S. at 371, 73 S. Ct.
at 342 (1953). State laws are preempted when they
stand as an “obstacle to the accomplishment and
execution of the full purposes and objectives of Congress” in implementing a uniform system of regulation. Hines v. Davidowitz, 312 U.S. 52, 67, 61 S. Ct.
399, 404, 85 L.Ed. 581 (1941) (footnote omitted). In
Toscano v. Burlington N. R. R. Co., a Montana federal
district court found that a claim based on Montana’s
common-law duty of good faith and fair dealing was
preempted by FELA. Toscano v. Burlington N. R. R.
Co., 678 F. Supp. 1477 (D. Mont. 1987). See also
Monessen Sw. Ry. Co. v. Morgan, 486 U.S. 330, 335,
108 S. Ct. 1837, 1842, 100 L.Ed.2d 349 (1988)
(providing that even though FELA does not address
interest payments, it was error to assess prejudgment
interest under state law); Sinclair v. Burlington N. &
Santa Fe Ry. Co., 2008 MT 424, ¶ 35, 347 Mont. 395,
200 P.3d. 46 (affirming dismissal of state law fraud
claim as preempted by FELA).

1

Regarding uniformity, as Appellant BSNF’s brief indicates,
“[i]n every State except Montana, a FELA employer is entitled
to contest liability and damages on the merits unencumbered
by additional substantive state-law duties.”

51a
¶69 In conjunction with Montana’s common law,
the UTPA, particularly, as interpreted and applied in
Ridley v. Guaranty Nat’l Ins. Co., 286 Mont. 325, 951
P.2d 987 (1997), and its expanding progeny, provide
both substantive and procedural state law remedies
that virtually parallel, but also interfere with, FELA.
The UTPA requires self-insured railroad carriers “to
attempt in good faith to effectuate prompt, fair, and
equitable settlements of claims in which liability has
become reasonably clear.” Section 33-18-201(6), MCA
(emphasis added). Likewise, prior to claim settlement,
and during the pendency of FELA claim litigation, the
UTPA requires self-insured carriers to advance payments for an injured worker’s medical expenses “for
which liability has become reasonably clear,” Ridley,
286 Mont. at 338, 951 P.2d at 994, and for other
damages that “are not reasonably in dispute,” such as
“[l]ost wages which are reasonably certain,” DuBray
v. Farmers Ins. Exchange, 2001 MT 251, ¶¶ 14-15, 307
Mont. 134, 36 P.3d 897. Dannels’ UTPA claims here
are premised upon BNSF’s alleged failure to settle his
FELA claim promptly despite liability being reasonably clear and by declining to pay his lost wages prior
to completion of the FELA litigation.
¶70 We have held that “reasonably clear” liability
is not the same as “negligence.” Liability is “reasonably clear when a reasonable person, with knowledge
of the relevant facts and law, would conclude, for good
reason, that the defendant is liable to the plaintiff.”
Peterson v. St. Paul Fire & Marine Ins. Co., 2010 MT
187, ¶ 39, 357 Mont. 293, 239 P.3d 904 (quotations
omitted). This standard is expressly different than
negligence:
A finding of liability by a trier of fact under
the preponderance of evidence standard in

52a
the negligence action does not necessarily
imply that liability was reasonably clear when
the [defendant] was adjusting the claim.
Instead, reasonably clear liability is established when it is clear enough that reasonable people assessing the claim would agree
on the issue of liability.
Peterson, ¶ 39 (quotations omitted).
¶71 Additionally, procedural remedies have been
expanded under the UTPA. While the UTPA prohibits
injured claimants from “fil[ing] an action under this
section until after the underlying claim has been
settled or a judgment entered in favor of the claimant
on the underlying claim,” § 33-18-242(6)(b), MCA,
declaratory actions to obtain advance payments by
showing reasonable clear liability are nonetheless
authorized, even during the pendency of the underlying action, requiring a carrier to litigate in two
forums. See High Country Paving, Inc. v. United Fire
& Cas. Co., 2019 MT 297, ¶ 22, 398 Mont. 191, 454
P.3d 1210 (citing Dubray, ¶ 16); Teeter v. Mid-Century
Ins. Co., 2017 MT 292, ¶ 18, 389 Mont. 407, 406 P.3d
464; Safeco Ins. Co. v. Montana 8th Judicial Dist. Ct.,
2000 MT 153, ¶ 20, 300 Mont. 123, 2 P.3d 834.
¶72 In contrast, FELA liability is a federal
question resolved through principles of negligence
and federal common law. Consol. Rail Co. v. Gottshall,
512 U.S. 532, 543, 114 S. Ct. 2396, 2404, 129 L.Ed.2d
427 (1994) (citing Urie v. Thompson, 337 U.S. 163,
182, 69 S. Ct. 1018, 1030-31, 93 L.Ed. 1282 (1949);
Ellis v. Union Pacific R. R. Co., 329 U.S. 649, 653, 67
S. Ct. 598, 600, 91 L.Ed. 572 (1947) (establishing that
the basis of liability is the carrier’s negligence, “not
the fact that injuries occur”). Specifically, FELA rests
on the “principle that compensation should be exacted

53a
from the carrier where, and only where, the injury
results from negligence imputable to it.” Winfield, 244
U.S. at 150, 37 S. Ct. at 547-48 (emphasis added).
“What constitutes negligence for the statute’s purposes is a federal question, not varying in accordance
with the differing conceptions of negligence applicable
under state and local laws for other purposes.’’ Urie,
337 U.S. at 174, 69 S. Ct. at 1027 (1949). “[N]o part [of
FELA] points to any purpose to leave the States free
to require compensation where the act withholds it.”
Winfield, 244 U.S. at 150, 37 S. Ct. at 548. Procedurally,
any damages to be paid by a carrier for its negligence
under FELA must be determined by a jury in federal
litigation. Bailey v. Central Vt. Ry., 319 U.S. 350, 354,
63 S. Ct. 1062, 1064, 87 L.Ed. 1444 (1943).
¶73 Montana’s UTPA imposes various additional
duties upon a self-insured carrier, including to advance
damage payments and to attempt to settle, upon
“reasonably clear” liability, regardless of whether a
carrier is ultimately determined to be negligent by a
jury in FELA litigation. Conceivably, a carrier could
be required to advance damage payments to a claimant in a declaratory action when liability is “reasonably
clear,” while ultimately obtaining a jury verdict in the
FELA action that it was not negligent, a result
incompatible with federal precedent. See Winfield,
244 U.S. at 150, 37 S. Ct. at 547-48. The UTPA
requires carriers to fight liability in Montana on dual
fronts and under dual standards, with one decision
necessarily impacting its liability or standing in the
other. A carrier is forced to choose between incompatible options: reserve negligence defenses for trial in
the FELA action and invite UTPA claims for failure
to settle or advance damage payments; or, advance
damage payments and settle the FELA action to avoid

54a
any UTPA claims without a jury determining negligence at trial, thus forfeiting any trial defenses.
¶74 The development of UTPA jurisprudence
since Reidelbach v. Burlington N. & Santa Fe Ry. Co.,
2002 MT 289, 312 Mont. 498, 60 P.3d 418, the
different claim posture, and the different question and
arguments raised here, require a different outcome.
While the loss of state law remedies is an unfortunate
outcome, I believe the contradictory nature of these
schemes requires the conclusion that the UTPA claims
Dannels has made are preempted by FELA as an
“obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.’’ Hines, 312
U.S. at 67, 61 S. Ct. at 404 (footnote omitted).
Concluding Dannels’ particular UTPA claims are
preempted, I would reserve judgment regarding the
preemption of other potential UTPA claims until
properly raised in future litigation.
Justice Beth Baker joins in the dissenting Opinion
of Justice Rice.

55a
APPENDIX B
IN THE SUPREME COURT OF THE STATE OF
MONTANA
OP 18-0693
BNSF RAILWAY
COMPANY, NANCY
AHERN, JOHN DOES 1-10,
Petitioner,
ORDER

v.
MONTANA EIGHTH
JUDICIAL DISTRICT
COURT, CASCADE
COUNTY, HONORABLE
KATHERINE M.
BIDEGARAY, Presiding

[Filed:
March
12, 2019]

Respondent.
___________________
On December 11, 2018, Nancy Ahern and BNSF
Railway Company (collectively “BNSF”) petitioned
this Court for a Writ of Supervisory Control and Stay
of Proceedings in the Eighth Judicial District Court,
Cause No. BDV-14-001. BNSF asks this Court to
vacate the District Court’s Sanctions Order, which
entered a default against BNSF for discovery abuses
and ordered BNSF to produce certain documents
which BNSF describes as privileged. We ordered a
response and Robert Dannels, Plaintiff in the underlying action, responded and opposed the Petition.
The cause underlying this Petition is a 2014 bad
faith claim filed by Dannels against BNSF. Dannels

56a
is a former BNSF employee. After obtaining a judgment against BNSF in a Federal Employers’ Liability
Act (FELA) action, Dannels sued BNSF under common law and § 33-18-201, MCA, which prohibits certain claim settlement practices. The parties became
embroiled in a number of discovery disputes. On
January 26, 2017, the District Court ordered BNSF to
provide Dannels with some of the discovery sought,
determining that despite BNSF’s assertions, much of
the discovery was not protected attorney-client communications or protected opinion work product.
Pertinent to the present matter are BNSF’s
responses to two discovery requests. In Interrogatory
No. 5, Dannels asked if BNSF generates reports containing information about claims made by injured
BNSF workers and the outcome of their claims. In
Request for Production No. 7, Dannels asked BNSF
to identify and produce each such report utilized in
the last fifteen years. After the District Court first
attempted to compel BNSF to answer, BNSF offered
supplemental responses as follows:
BNSF’s Supplemental Answer to Interrogatory No. 5:
BNSF Claims Department currently runs
thousands of reports each year. While some
of these reports are run on a set schedule
and retained in a central location, with set
distribution lists, numerous Claims Department employees are able to run reports on
their own and thousands of potentially
responsive ad hoc reports are run each year.
Providing the information requested would
require an inquiry to all Claims Department

57a
employees with the ability to run reports in
order to gather the requested information
and take hundreds of hours of additional time.
BNSF is working to identify whether it routinely runs any reports containing information about claims made by injured employees and the outcome of these claims. Discovery will be supplemented in accordance with
the Rules of Civil Procedure.
BNSF never supplemented this response further.
BNSF’s Supplemental Response to Request for
Production No. 7:
BNSF incorporates its response to Interrogatory No. 5 as though fully set forth. It is not
possible to disclose any reports identified in
Interrogatory No. 5 without extensive redactions because the reports contain confidential
settlement information, personal or confidential information of individuals not a party to
this suit and other confidential and proprietary information. BNSF’s review of this
information is ongoing and it will supplement
this response with a privilege log if any
documents are identified.
Following receipt of these responses, Dannels
scheduled depositions of three experts identified by
BNSF: Charles Shewmake (BNSF’s former general
counsel and Vice President of Claims), Rick Lifto
(former Assistant Vice President of Claims), and Eric
Hegi (current Assistant Vice President of Claims).
Hegi was also identified by BNSF as its Rule 30(b)(6)

58a
designee. During the depositions, Dannels learned
that Shewmake had prepared monthly case
summaries on closed FELA claim files and that Hegi
prepared the monthly summaries after Shewmake
retired. Dannels sought production of these summaries and BNSF refused to provide them. Because
BNSF had disclosed that these three expert witnesses were expected to testify at trial that Dannels’
FELA claim was evaluated reasonably, BNSF made
reasonable offers, liability was never reasonably
clear, and the claims department used good-faith
practices, Dannels moved to compel BNSF to produce:
(1) Dannels’ entire claims file; (2) the monthly case
summaries referenced in the witnesses’ depositions;
(3) non-disparagement clauses of all former employees listed as witnesses; and (4) documents setting
forth the procedures and methodologies BNSF used
in setting loss reserves for FELA cases.
1

Dannels then deposed Dione Williams, BNSF’s
Director of Claims Services. Contrary to BNSF’s Supplemental Answer to Interrogatory No. 5, Williams
testified that BNSF runs monthly reports on pending
claims and lawsuits and that Williams prepares an
annual executive presentation on FELA claims.
Williams admitted that BNSF can run various reports
about FELA litigation, such as the number of litigated
claims, the verdicts, and BNSF’s win/loss record.
Williams admitted his department regularly runs
such reports and could generate the reports in about
a week.

1

BNSF identified all three of these witnesses as “expert
witnesses” in its Lay and Expert Witness Disclosure, filed on
November 20, 2017.

59a
On February 22, 2018, the District Court issued
an Order on Dannels’ Motion to Compel. The District
Court found BNSF had waived work-product privilege
because its expert witnesses had unfettered access
to the information, including information BNSF
unjustifiably withheld from production, and that
BNSF’s actions precluded Dannels from meaningfully
cross-examining these witnesses. The District Court
ordered BNSF to produce: “all documents” directly
related to the handling, evaluation, and settlement
of Dannels’ underlying claim, except those documents
that “legitimately meet” the definition of attorneyclient privilege; to specify documents or redactions
on a privilege log; to highlight portions of documents
for which BNSF asserted attorney-client privilege; the
monthly summary reports over the last twenty years;
and documents showing methods and criteria used for
reserving or accruing losses related to FELA claims
since Berkshire Hathaway purchased BNSF.
The District Court noted it was “seriously considering” sanctions against BNSF, and it asked the
parties to submit proposed orders regarding sanctions. On April 18, 2018, the District Court held a
hearing on the sanctions motion. On November 16,
2018, it issued a Corrected Order on Sanctions. As
part of the sanctions, the District Court entered a
default judgment on liability and causation against
BNSF. The District Court also ordered BNSF to
produce the following:
(A) All actuarial reports of Willis Towers
Watson (including its predecessors and successors) from 2010 to date relating to FELA
claims, including risk financing, results
expected and obtained, and insurance;

60a
(B) All annual executive slide presentations
on FELA claims, as identified in the deposition of Dione Williams, from 2010 to date; and
(C) All monthly status reports on FELA
claims, as identified in the deposition of Dione
Williams, from 2010 to date.
Supervisory control is an extraordinary remedy
that is sometimes justified when (1) urgency or emergency factors make the normal appeal process inadequate; (2) the case involves purely legal questions; and
(3) in a civil case, the district court is proceeding
under a mistake of law causing a gross injustice or
constitutional issues of state-wide importance are
involved. M. R. App. P. 14(3).
Pretrial discovery disputes are typically not
appropriate for an exercise of supervisory control. As
we have previously noted, “[i]t is not our place to
micromanage discovery . . . .” Mont. State. Univ.Bozeman v. Mont. First Jud. Dist. Ct., 2018 MT 220,
¶ 17 n. 12, 392 Mont. 458, 426 P.3d 541 (internal quotation omitted).
Nonetheless, this Court will
sparingly exercise supervisory control over interlocutory discovery matters under truly extraordinary
circumstances where the lower court is proceeding
under a demonstrable mistake of law and failure to
do so will place a party at a significant disadvantage
in litigating the merits of the case. Mont. State. Univ.Bozeman, ¶ 17 n. 12; Hegwood v. Mont. Fourth Jud.
Dist. Ct., 2003 MT 200, ¶ 6, 317 Mont. 30, 75 P.3d 308.
In its Petition, BNSF first argues the Sanctions
Order is void because FELA preempts Dannels’
underlying bad faith claim. BNSF urges this Court to
overrule Reidelbach v. Burlington N & Santa Fe Ry.

61a
Co., 2002 MT 289, 312 Mont. 498, 60 P.3d 418, in
which we rejected this very argument. This is BNSF’s
second attempt at raising FELA preemption as a basis
for supervisory control in this case. As we concluded
in our February 20, 2018 Order denying BNSF’s
previous Petition for Writ of Supervisory Control,
applying existing precedent is not a “mistake of law,”
and we see no reason why a normal appeal is an
inadequate process for addressing BNSF’s request to
revisit our holding in Reidelbach. See M. R. App. P.
14(3).
Second, BNSF argues the District Court erred in
entering a default against it as a discovery sanction.
A district court has broad discretion when ordering
discovery sanctions. M. R. Civ. P. 37; Spotted Horse v.
BNSF Ry. Co., 2015 MT 148, ¶ 15, 379 Mont. 314, 350
P.3d 52. We have consistently recognized that district courts are in the best position to assess “which
parties callously disregard the rights of their opponents and other litigants seeking their day in court
and [are] also in the best position to determine which
sanction is the most appropriate.” Smith v. ButteSilver Bow Cty., 276 Mont. 329, 332, 916 P.2d 91, 93
(1996) (internal citations and alterations omitted). A
district court may enter a default as a sanction for a
failure to produce discoverable information. M. R. Civ.
P. 37(c)(1)(C), (b)(2)(A)(vi). Entering a default is an
appropriate sanction only when there is a blatant and
systemic abuse of the discovery process or a pattern
of willful and bad faith conduct. Spotted Horse, ¶ 20.
BNSF maintains the sanction of default is arbitrary because the documents compelled by the Sanction Order were not sought by Dannels in his motion
to compel. A district court has broad discretion when

62a
assessing what is encompassed in a discovery request.
See Richardson v. State, 2006 MT 43, ¶¶ 51-52, 331
Mont. 231, 130 P.3d 634. This issue may properly be
reviewed on direct appeal under an abuse of discretion
standard. See Smith, 276 Mont. at 332-33, 916 P.2d
at 92-93. BNSF fails to convince us that the District
Court made a purely legal error, and we are satisfied
an appeal would afford BNSF an adequate remedy.
See M. R. App. P. 14(3); see also Bullman v. Curtis,
2011 Mont. LEXIS 449, at *4-5, 362 Mont. 543 (Aug.
9, 2011).
Third, BNSF argues that discovery sanctions
against Ahern are inappropriate given that there is
no mention of any alleged discovery abuse perpetrated
by Ahern or any basis in the record for any sanction
against her. In Dannels’ response to this Petition, he
asserts that his motion for sanctions was against
BNSF and that he will move to dismiss with prejudice
all claims against Ahern. Thus, this argument is
moot. BNSF also argues the District Court cannot
fault BNSF for failing to produce documents and
information from non-party corporate entities. The
District Court considered the interrelationship of the
non-party corporate entities and determined that
“[g]iven their relationships, BNSF must have within
its possession, custody or control of the documents
discussed . . . .” After examination of the record and
BNSF’s Petition, BNSF has not demonstrated that
the District Court is proceeding under a demonstrable
mistake of law or that a direct appeal is an inadequate
remedy for determining potential District Court error
in imposition of this sanction. See Mont. State. Univ.Bozeman, ¶ 17 n. 12; Hegwood, ¶ 6; M. R. App. P.
14(3).

63a
Finally, BNSF argues that a writ of supervisory
control is warranted in the present case because
BNSF will suffer irreparable harm if it is forced to
disclose certain privileged documents as ordered by
the District Court. BNSF alleges that the documents
the District Court compelled it to produce contain
privileged work-product information.
BNSF also alleges that the monthly reports
contain privileged attorney-client information, including cases which are currently being litigated. Dannels
responds that the monthly reports pertain only to
closed cases and Dannels does not seek documents
pertaining to active litigation. BNSF has not demonstrated that the District Court is proceeding under a
demonstrable mistake of law and that failure to grant
supervisory control will place BNSF at a significant
disadvantage in litigating the merits of the case. See
Mont. State. Univ.-Bozeman, ¶ 17 n. 12. We reiterate
that the District Court, that has been intimately
involved in this matter, was in the best position to
enforce discovery rights and limits and to assess and
sanction discovery abuses. See Ascencio v. Halligan,
2019 Mont. LEXIS 77, at *2-3 (Feb. 19, 2019);
Richardson, ¶ 21; Smith, 276 Mont. at 332, 916 P.2d
at 93.
With respect to BNSF’s preemption argument, as
we noted in our previous order denying BNSF’s
petition for a writ of supervisory control, this is an
issue for which the normal appeal process is adequate. Regarding the substance of the District Court’s
Sanction Order because of BNSF’s alleged discovery
abuses, BNSF has not demonstrated the truly extraordinary circumstances that warrant our sparing exercise of supervisory control over interlocutory discovery

64a
matters. See Mont. State. Univ.-Bozeman, ¶ 17 n. 12.
Accordingly,
IT IS ORDERED that BNSF’s Petition for a Writ
of Supervisory control is DENIED and DISMISSED.
The Clerk is directed to provide copies of this
Order to all counsel of record, including counsel for the
Amici Curiae, and to the Honorable Katherine
Bidegaray.
Dated this _12th_ day of March 2019.
s/ Mike McGrath
Chief Justice
s/ James Jeremiah Shea
s/ Ingrid Gustafson
s/ Beth Baker
s/ James Rice
Justices
Justice Laurie McKinnon dissents from the
Court’s Order.
————

65a
I did not sign the Court’s previous order dated
February 20, 2018, denying BNSF’s Petition for Writ
of Supervisory Control and concluding that Reidelbach
was controlling on the question of FELA preemption.
I will say no more than that.
First, the facts and circumstances of Reidelbach
are distinguishable from those here. In Reidelbach,
the parties had neither settled nor tried the FELA
claims. Based on BNSF’s negotiations and representations, Reidelbach believed BNSF would compensate
him adequately without the need to pursue a FELA
action. Later, when the expected damages did not
materialize, Reidelbach brought his state law badfaith claims in conjunction with his FELA claims.
Here, in contrast, Dannels sued BNSF under FELA in
2013, and a jury awarded Dannels $1.7 million. BNSF
fully satisfied that amount, and the FELA case
concluded. A year later, Dannels filed this second lawsuit arising from the same injuries and now alleges
BNSF violated the UTPA when it defended the
FELA action. More particularly, Dannels alleges
BNSF’s misconduct caused him emotional distress
and requests punitive damages—relief which FELA
does not allow. In both petitions requesting this Court
exercise supervisory control, BNSF urged the Court
to overrule or reconsider Reidelbach and find preemption of Dannels’ state-law claims under FELA.
Second, there is ample federal authority, not discussed in Reidelbach, which appears to provide FELA
is the exclusive remedy for injured railroad workers;
that Congress intended FELA to “occupy the field”;
and that FELA preempts state-law claims based on
injuries arising from a railroad’s conduct. I would

66a
order further briefing to address the preemption issue
and this Court’s decision in Reidelbach.
This case has now grown even more cumbersome
because the District Court has entered a default
when there still lingers a question of preemption; the
Court is affirming an order for sanctions requiring
BNSF to produce documents that are otherwise undiscoverable, but for the case’s status as a UTPA action;
and the documents ordered to be disclosed are potentially protected pursuant to the attorney work-product
and attorney-client privileges. I would order further
briefing and address the question of whether FELA
preempts the Dannels’ state-law claims.

67a
APPENDIX C
Katherine M. Bidegaray
District Judge, Department 2
Seventh Judicial District
300 12th Ave. NW, Suite #2
Sidney, Montana 59270
Telephone: (406) 433-5939
MONTANA EIGHTH JUDICIAL DISTRICT
COURT, CASCADE COUNTY
ROBERT DANNELS,
Plaintiff,

Cause No. BDV14-001
Honorable
Katherine
Bidegaray

vs.
BNSF RAILWAY COMPANY,
NANCY AHERN, and
JOHN DOES 1 THROUGH
10,
Defendants.

CORRECTED
ORDER ON
SANCTIONS
[Filed: November
16, 2018]

INTRODUCTION1
On January 18, 2018, Plaintiff Robert Dannels
(“Dannels”) filed a Motion to Compel, Motion for
Sanctions, and Brief in Support. (Dkt. 184) In his
Motion to Compel, Dannels requested the imposition
1

14.

The original version of this Order inadvertently omitted page

68a
of sanctions (Id.). On February 5, 2018, Defendants
(“BNSF” and “Ahern”) filed their answer brief. (Dkt.
200) On February 9, 2018, Dannels filed his reply
brief (Dkt. 202) and a Notice of Supplemental Authority, providing the February 5, 2018, Order and Memorandum in the FELA case of Scott Kowalewski v.
BNSF, Cause No. 27-CV-17-145, in the District Court
of the Fourth Judicial District, State of Minnesota,
County of Hennepin, granting sanctions against
BNSF for discovery abuses. (Dkt. 203) The Court
heard oral argument on the motion on February 12,
2018; and ruled on the discovery issues implicated by
Dannels’ Motion to Compel on February 22, 2018.
(Dkt. 216)2
On March 27, 2018, Dannels filed the Affidavit of
Dennis Conner Detailing Deficiencies with Defendants’ Compelled Discovery (Dkt. 245) and the
Affidavit of James’ R. Conner with Attached Orders
(Dkt. 246). On April 6, 2018, Defendants filed their
Response to Plaintiffs Request for Sanctions (Dkt.
250), the Declaration of Robert J. Phillips (Dkt. 251),
and Defendants’ Proposed Order on Plaintiff’s Motion
for Sanctions (Dkt. 249 and 253). On April 9, 2018,
Dannels filed Plaintiffs Reply Brief in Support of
Request for Sanctions. (Dkt. 255)
On April 18, 2018, at Defendants’ request, the
Court held an evidentiary hearing on Dannels’ Motion
for Sanctions. Defendants called three witnesses, and
the parties offered exhibits as reflected in the record.
After the hearing, the Court ordered the parties to
submit proposed orders regarding sanctions. The
parties did so. On May 7, 2018, Defendants filed their
2
Though issued February 22, 2018, the order was filed
February 23, 2018.

69a
proposed Findings of Fact, Conclusions of Law, and
Order. (Dkt. 259) On June 28, 2018, Dannels filed
Plaintiff’s Notice of Supplemental Authority, providing the Court the Memorandum Decision and Order
on a Motion to Compel in Sherwood v. BNSF Railway
Co., Case No. 1:16-cv-00008-EJL-REB, decided on
May 18, 2018, U.S. District Court of Idaho. (Dkt. 260)
The Court is now prepared to rule.
FACTUAL BACKGROUND
This case arises out of the handling of an FELA
claim brought by Dannels against Defendant
Burlington Northern Santa Fe Railway Company
(“BNSF”). Dannels was employed by BNSF when he
suffered an on-the-job disabling injury on March 17,
2010. On December 6, 2010, Dannels sued BNSF
under the FELA. Dannels’ FELA case was tried
before a jury and, on February 13, 2013, the jury
returned a $1,700,000 verdict for Dannels. On June
26, 2013, Dannels settled his claim with BNSF for
$1,700,000. Dannels filed the present bad faith case
on January 2, 2014.
In this case, Dannels alleges Defendants’
breached duties of good faith owed him under § 33-18201, MCA, and Montana’s common law to handle his
claim fairly and in good faith. He alleges that, by
intentional acts or omissions, Defendants caused him
emotional distress. Dannels also claims BNSF acted
with malice and fraud and that punitive damages
should be assessed because of its systematic scheme
to:
(a) Cause delays and make litigation
expensive to emotionally and financially
affect injured employees to a point

70a
where they settle for less than a fair
amount;
(b) Avoid fair and equitable settlement of
FELA claims;
(c) Drive out competent legal representation for injured employees by making
claims too stressful and time-consuming
for attorneys to represent injured railroad employees; and
(d) Maximize profits by investing FELA
injury claim reserves and premiums as
long as possible to achieve the greatest
return on those investments.
Dannels seeks compensatory damages on his statutory and common law bad faith and intentional
infliction of emotional distress claims, and punitive
damages because of BNSF’s alleged fraud and malice.
Under this Court’s March 6, 2015, Scheduling
Order pretrial deadlines were set with the trial to
begin on June 20, 2016. Dannels served written
discovery on the Defendants in August 2014. In part,
Dannels sought training and educational information
regarding BNSF’s claims handling practices, information about the FELA claim investigation and
handling, the relationship between BNSF and its
insurance companies, and the entire claim file from
the underlying FELA claim. In Interrogatory No. 5,
Dannels asked whether “BNSF generate[s] any types
of reports containing information about claims made
by injured BNSF workers and the outcome of their
claims.” Dannels asked BNSF to identify and produce
each such report utilized over the past 15 years. See
Interrogatory No. 5 and Request for Production No. 7.

71a
Defendants did not respond to Plaintiffs written
August 2014 discovery until May 2015.
In response to Dannels’ first set of written discovery requests, Defendant Ahern produced what
purported to be the underlying claim file. However,
BNSF objected to nearly every discovery request and
failed to provide any meaningful information. BNSF
did not identify or produce a single report in response
to Interrogatory No. 5 and Request for Production No.
7. Instead, BNSF objected to the discovery requests
under two prevailing theories—privilege and general
boilerplate objections. Dannels filed a motion to
compel discovery.
On November 12, 2015, Dannels moved to vacate
the pretrial deadlines until after the Court had the
opportunity to rule on outstanding discovery disputes.
On November 30, 2015, pretrial deadlines were set
with the trial scheduled for October 3, 2016. The
parties were warned that they must effectively participate in and complete all specified pretrial activities
in good faith under threat of sanctions. On April 18,
2016, via a joint motion, the Court vacated the scheduling deadlines to permit the Court an opportunity to
rule on the outstanding motions. The trial date was
delayed a third time and reset for October 16, 2017.
By an order, dated January 26, 2017, the Court
ruled on Dannels’ motion to compel, specifically examining a number of discovery requests and BNSF’s
responses to them. (Dkt. 64) The Court found most
of BNSF’s objections baseless. With respect to the
privilege objections, the Court ordered BNSF to
produce all its work product, including opinion work
product by its personnel. The Court overruled the
boilerplate objections and ordered that BNSF meaningfully respond to Dannels’ discovery requests. The

72a
Court specifically ordered BNSF to answer Interrogatory No. 5. (Dkt. 64, p.p. 13-14)
The Court noted the delay this case experienced
in discovery. The Court found “that a substantial
factor for the delay has been the defendants’ conduct.”
(Dkt. 64, p. 21) The Court held that many of the
Defendants’ objections were not justified and that
“the defendants have not responded in good faith at
least contributing to the long delay.” Id. The Court
warned that if “the defendants choose to disobey
these discovery orders or evade further discovery,
harsh sanctions authorized by Rule 37(b)(2) shall be
imposed.”
(Dkt. 64, p. 22)
On February 8, 2017, Dannels moved the Court
for another scheduling conference, representing:
As the Court knows, this case has been
delayed by discovery disputes from its
inception in January 2014. On January 26,
2017, however, this Court issued an Order
which, hopefully, will resolve the discovery
disputes and allow the case to proceed. In the
interim, however, some of the scheduling
deadlines have passed and some will not be
feasible until after BNSF responds to the
initial discovery. For instance, February 22,
2017, two weeks from now, is the schedule for
naming experts and lay witnesses, which will
not be possible until further discovery is
completed.
(Dkt. 65) On March 17, 2017, the Court reset the trial
for March 5, 2018.
Defendants served supplemental discovery
responses to Dannels’ first written discovery on

73a
February 27, 2017. The discovery responses purported to produce discoverable information in response
to the Court’s January 26, 2017, order. However, in
response to Interrogatory No. 5, BNSF responded:
BNSF Claims Department currently runs
thousands of reports each year. While some
of these reports are run on a set schedule and
retained in a central location, with set distribution lists, numerous Claims Department
employees are able to run reports on their own
and thousands of potentially responsive ad
hoc reports are run each year. Providing the
information requested would require an
inquiry to all Claims Department employees
with the ability to run reports in order to
gather the requested information and take
hundreds of hours of additional time.
BNSF is working to identify whether it
routinely runs any reports containing information about claims made by injured employees and the outcome of these claims. Discovery will be supplemented in accordance with
the Rules of Civil Procedure.
Consistent with its response to Interrogatory No. 5,
BNSF did not produce a single document in response
to Request for Production No. 7. Instead, BNSF
responded:
BNSF incorporates its response to Interrogatory No. 5 as though fully set forth herein.
It is not possible to disclose any reports
identified in Interrogatory No. 5 without
extensive redactions because the reports
contain confidential settlement information,
personal or confidential information of

74a
individuals not a party to this suit and other
confidential and proprietary information. Id.
BNSF’s review of this information is ongoing
and it will supplement this response with a
privilege log if any documents are identified.
Since February 27, 2017, BNSF has never supplemented its responses to Interrogatory No. 5 or
Request for Production No. 7.
On September 19, 2017, Dannels served BNSF
with a Notice of Corporate Depositions, Request for
Production, and Subpoena. (Dkt. 110) Dannels sought
to depose a representative from BNSF on topics such
as document retention/destruction, the organizational
chart, claims handling, consultation with consulting
firms, incentive plans, loss reserves, bad faith complaints against BNSF, claims settlement practices,
and the handling of Dannels’ underlying FELA
claim. Dannels served a subpoena with the Notice of
Corporate Deposition requesting that BNSF produce
documents on enumerated topics. Dannels sought all
documents relating to his underlying claim, including
electronic data; copies of file jackets, telephone slips,
and hand-written notes; all claims files, committee
notes, memos, or documents relating to Dannels’
underlying FELA claims; all case write-ups or summaries; payment records; methods of reserving or
accruing losses; and SOX audit records. Dannels
stipulated that BNSF could have until November 18,
2017, to produce the documents requested and
subpoenaed under the Notice of Corporate Deposition.
Defendants responded to Dannels’ notice of corporate deposition and additional discovery requests
on November 17, 2017. (Dkt. 125) Defendants objected
to the discovery requests, claiming duplication, attorney client privilege, work-product privilege, and trade

75a
secret confidentiality. Notwithstanding its objections, Defendants referred Dannels to the documents
previously produced and limited its production to
three new documents—a record of authority, incident
notes, and an audit checklist. Defendants produced
no further documents from the claim file and failed
to seek or obtain a protective order regarding the Rule
30(b)(6) topics or requests for production. BNSF
objected to the discovery regarding loss reserves and
failed to produce any responsive documents.
On November 29, 2017, BNSF moved to continue
the trial date a fifth time. Dannels objected, arguing
for his right to speedy trial and noting delays caused
by BNSF’s decisions which obstructed and delayed
discovery for years.
Before going to Fort Worth, Texas, to take BNSF’s
Rule 30(b)(6) deposition, Dennis Conner wrote Jeff
Hedger and Robert Phillips asking to meet and confer
about discovery disputes, including production of
the claims file and reporting of FELA results. BNSF
brought its paper claims file to the deposition with a
privilege log and stood on its privilege objections. At
the end of the Rule 30(b)(6) deposition, Conner placed
on the record that no motion for protective order was
made concerning the deposition or production noticed
and subpoenaed, and that BNSF’s designee, Eric
Hegi, on advice of counsel, refused to answer questions on all matters objected to in Defendants’
Responses to the notice.
During November and December 2017 trips to
Fort Worth, Dannels’ counsel deposed Charles
Shewmake (BNSF’s former general counsel and Vice
President of Claims), Rick Lifto (BNSF’s former
Assistant Vice President of Claims), and Eric Hegi
(BNSF’s current Assistant Vice President of Claims

76a
and Rule 30(b)(6) designee). BNSF identified all
three of these witnesses as expert witnesses in its
Lay and Expert Witness Disclosure filed on November
20, 2017. (Dkt. 126) Defendants’ expert witness disclosure advised that these witnesses will testify at
trial that: Dannels’ FELA claim was evaluated reasonably; BNSF made reasonable offers, given the
facts of the claim; liability throughout the FELA claim
was never reasonably clear; there was no malicious
motive by the BNSF claims department; and the
BNSF claims department used effective, good faith
claims practices. To reach these conclusions, the
witnesses relied on everything in the claims file,
including information BNSF withheld from Dannels
in discovery under the auspices of privilege.
In its January 26, 2017, Order, the Court
reviewed Defendants’ objections and held (1) the
attorney-client privilege does not apply to information
generated by an attorney acting as a claims adjuster,
claims process supervisor, or claims investigation
monitor; (2) ordinary and opinion work product
protections are generally overcome in bad faith cases
because (a) the claims file reflects a unique record of
the claim’s handling which cannot be obtained elsewhere and (b) the strategy, mental impressions, and
opinions of the insurer’s agents are directly at issue;
(3) a defendant’s claims practices are discoverable in
a bad faith lawsuit; and (4) the attorney-client and
work product privileges do not apply to documents
generated with regard to claims practices. The Court
noted that only opinion work product of BNSF’s
attorneys remains protected, absent the recognized
exceptions. The Court forecast that depositions of
Defendants’ personnel will be “ineffective without
documents to cross-examine the witnesses and test
both their innocent lack of recollection and natural

77a
biases.” (Dkt. 64, p. 8) Despite the January 26, 2017,
Order, Defendants refused to produce the ordinary
work product of its outside counsel. However, Defendants’ experts relied on this information in concluding
Defendants acted in good faith. By most accounts,
it appears BNSF withheld about 400 pages of the
claims file from production.
Further, in support of his opinion that BNSF
acted reasonably in the underlying FELA case, Hegi
testified that BNSF wins 70% of cumulative trauma
trials and only about 5% of FELA cases have reasonably clear liability sufficient to advance wage losses.
When pressed about the figures, Hegi testified that
BNSF tracks the results of FELA claims and reports
the results monthly to superiors.
Shewmake likewise confirmed that he prepared
monthly case summaries for his supervisors at BNSF.
The summaries addressed issues and developments
that Shewmake believed his supervisors needed to
be aware of, including results obtained in FELA cases.
BNSF never mentioned these reports in response to
Interrogatory No. 5 or Request for Production No. 7.
Despite the discovery requests seeking such reports,
Dannels learned of these monthly case summaries for
the first time at the Fort Worth depositions in
November 2017.
After deposing Shewmake, Dannels served his
Fifth Discovery Requests on Defendants on December
8, 2017. Dannels specifically asked Defendants to
produce all FELA claims summaries produced by
Shewmake to his superiors reporting the results
obtained in FELA cases, as described in his deposition. BNSF refused to produce any documents responsive to this request. Instead, BNSF asserted a host
of objections like those lodged in May 2015.

78a
On January 18, 2018, Dannels filed another
motion to compel. (Dkt 184) Dannels sought an order
from the Court compelling BNSF to produce (a) the
entire claim file and all documents directly related to
the handling, evaluation, and settlement of Dannels’
underlying claim; (b) the monthly summaries referenced in the Shewmake and Hegi depositions; (c) the
non-disparagement clauses of all former employees
listed as witnesses and the contractual consequences
of making a disparaging statement; and (d) all documents setting forth the procedures and methodologies
BNSF uses in setting loss reserves in FELA cases.
Dannels also moved for sanctions for Defendants’
discovery abuses, including a default judgment on
liability. While the motion to compel was limited to
four subject matters, the motion for sanctions was
premised on the aggregate discovery abuses perpetrated by BNSF throughout this case.
After filing the second motion to compel, Dannels
deposed Dione Williams (BNSF’s Director of Claims
Services) on January 25, 2018. Williams testified that
he produces an executive slide presentation once a
year for the BNSF leadership. The information is
also shared with the claims department. All the data
pertains to the claims department and sets forth
information on claim pay-outs, settled cases, and
pending cases. The reports reflect data on FELA
lawsuits, pay-out volume, average pay-outs, and
cumulative trauma pay-out statistics. The reports
trace where the FELA money goes. The deponents
from Fort Worth—Shewmake, Lifto, and Hegi—
attend the conference where the information is
presented. Williams depo., pp. 17-20. Yet, BNSF did
not identify this information in response to written
discovery requests. Dannels learned about the annual

79a
presentation for the first time at the Williams
deposition.
Williams also testified that BNSF runs monthly
reports on pending claims and lawsuits on a systemwide basis, across the country. BNSF, through the
claims services department, can run reports on: cases
in which BNSF has set high loss reserves, high dollar
pay-out claims, litigated cases, cases with trial dates,
the number of FELA claims filed against BNSF at any
given time, pay-outs in FELA claims, the number of
litigated FELA claims, the number of FELA cases
BNSF has settled, the number and substance of FELA
verdicts in recent years, and BNSF’s win/loss record
on FELA cases in recent years. BNSF can narrow
these searches by geographical zone, state, or city. It
can also narrow the injury searches to particular body
parts and employment positions. BNSF can generate
a report showing pay-outs to unrepresented claimants
versus payouts to represented claimants. Williams
depo., pp. 61-78.
BNSF did not identify any of these reports in
response to Dannels’ written discovery. Rather,
BNSF provided a vague response to Interrogatory No.
5, identifying no specific data or report, and insisted
that it would take hundreds of hours of additional
time to identify and produce the information. Williams
testified that his department regularly generates
report information and could generate other specific
detailed reports requested in about a week. Williams
depo., pp. 69-70.
The Court heard oral argument on Dannels’
second motion to compel on February 12, 2018, and
entered an order on February 22, 2018. (Dkt. 216)
The Court ordered BNSF to produce all claim file
documents except those characterized as attorney-

80a
client communications and to submit to the Court for
an in-camera inspection the purported attorney-client
communications. As for the summaries referenced by
Shewmake and Hegi, BNSF conceded it did not disclose the summaries even after the Court ordered
them to meaningfully respond to Dannels’ discovery.
Dannels first learned of the summaries at Shewmake’s
deposition on November 30, 2017, and BNSF refused
to produce them until after the Court granted
Dannels’ second motion to compel and directly ordered
BNSF to do so. Regarding reserves, Dannels asked
BNSF to identify someone to testify on its behalf.
BNSF identified Hegi on the topic. Yet, Hegi had only
limited information about loss reserves. Offering
Hegi as its Rule 30(b)(6) designee on the topic of
loss reserves did not meet BNSF’s obligation. After
again ordering BNSF to comply with its discovery
obligations, the Court noted in the February 22, 2018,
Order that, “[g]iven past difficulties with BNSF, this
Court is seriously considering sanctions and the types
of sanctions that may be appropriate in this case.”
(Dkt. 216 p. 27)
On March 15, 2018, BNSF filed and served its
response in purported compliance with Paragraphs 5
and 6 of the Court’s Order compelling discovery. Paragraph 5 required production of documents (subject
to protective order) responsive to Dannels’ requests
for production regarding reserves and provided:
This Order is not limited to documents
already identified and claimed privileged. At
a minimum, it includes documents disclosing
how money set aside for the reserves is
invested and earns investment income for
BNSF from when an FELA claim has an
expected loss that is both probable and

81a
reasonably estimable and a reserve is set
until the claim is paid, who makes these
investments, and the profits generated since
Berkshire Hathaway purchased BNSF.
Id.
In response, BNSF produced Exhibit 698, part of
its publicly available 2009 Form 10-K; Exhibit 699,
the publicly available 2017 Form 10-K of the
Travelers Company, Inc. (which is not involved with
Berkshire Hathaway or any issue in this case); and
Exhibit 700, the publicly available 2015 Form 10-K of
the Allstate Corporation (which is not involved with
Berkshire Hathaway or any issue in this case). The
Defendants produced no documents disclosing how
money set aside for the reserves is invested and earns
investment income for BNSF from when an FELA
claim has an expected loss that is both probable and
reasonably estimable and a reserve is set until the
claim is paid, who makes these investments, and the
profits generated since Berkshire Hathaway purchased BNSF. BNSF individualizes what it does,
but not what the Company or BNSF IC does in handling an earning profit from reserves on FELA claims.
BNSF claims, for example, that it “does not maintain
any reserve in an investment account, like an insurance company would.” BNSF’s individualized response
fails to address its involvement in the handling and
reserving of claims as documented in the Burlington
Northern Santa Fe, LLC, Form-10 K for 2013 and the
2002 BNSF IC Business Plan. Paragraph 6 of the
Order required the Defendants to work with Dannels
to identify a date and time for the deposition of Kristi
Radford. BNSF responded that Felicia Williams,
General Director Accounting, is the witness most
knowledgeable at BNSF on these issues and that in

82a
lieu of Kristi Radford, Ms. Williams is the person that
will testify at the hearing in Sidney, Montana, on
April 18, 2018. While identifying Ms. Williams, the
Defendants did not identify or produce any documents as responsive to the Court-ordered discovery
or which Ms. Williams may use at the hearing, except
Exhibits 698-700.
On March 19, 2018, BNSF filed its Supplemental
Responses to Plaintiff’s Rule 30(b)(6) Notice of
Corporate Depositions, Requests for Production and
Subpoena Pursuant to Court Order. (Dkt. 241) In
response to the Order requiring production of documents relating to its reserves, it produced Exhibit 698,
its 2009 Form 10-K. In further response to Request
for Production No. 16, BNSF states it “has retained no
outside company or consultant to study or review
BNSF FELA claims handling practices or procedures
and /or amounts paid out on FELA claims” (which is
directly contrary to the Burlington Northern Santa
Fe, LLC, Form-10 K for 2013, and the 2002 BNSF IC
Business Plan). In further response to Request for
Production No. 17, BNSF states it “has retained no
outside company or consultant to study or review
BNSF FELA claims handling practices or procedures
and/or amounts paid out on FELA claims” (which is
directly contrary to the Burlington Northern Santa
Fe, LLC, Form-10 K for 2013, and the 2002 BNSF IC
Business Plan). In further response to the Court’s
Order, BNSF identified publicly available Financial
Accounting Standard 5 (“ FAS 5”). Dannels had
marked this standard as Exhibit T to the Rule 30(b)(6)
deposition of Hegi, who was completely unfamiliar
with the standard.
Here, the Court has considered the interrelationship of Burlington Northern Santa Fe, LLC, and its

83a
subsidiaries, BNSF Railway Company (BNSF) and
Burlington Northern Santa Fe Insurance Company,
Ltd. (BNSF IC) as described in the Affidavit of Dennis
Conner Detailing Deficiencies with Defendants’
Compelled Discovery. (Dkt. 245) Given their relationships, BNSF must have within its possession, custody
or control the documents discussed and further
ordered to be produced within this Order.
On February 12, 2010, Berkshire Hathaway Inc.,
a Delaware corporation (Berkshire), acquired 100%
of the outstanding shares of Burlington Northern
Santa Fe Corporation common stock that it did not
already own. Burlington Northern Santa Fe, LLC, is
a holding company that conducts no operating activities and owns no significant assets other than through
its interests in its subsidiaries, including BNSF
Railway Company (BNSF) and Burlington Northern
Santa Fe Insurance Company, Ltd. (BNSF IC).
The financial statements of Burlington Northern
Santa Fe, LLC, and its subsidiaries, including BNSF
and BNSF IC, are consolidated. Burlington Northern
Santa Fe Corporation’s principal, wholly-owned subsidiary is BNSF, which operates one of the largest
railroad networks in North America with approximately 32,500 route miles (excluding multiple main
tracks, yard tracks and sidings) in 28 states and two
Canadian provinces.
The Company has a consolidated wholly-owned
subsidiary, BNSF IC, which provides insurance coverage for certain risks, including Federal Employers’
Liability Act (FELA) claims.
The Company records an undiscounted liability
for personal injury and FELA claims when the
expected loss is both probable and reasonably

84a
estimable. The liability and ultimate expense projections are estimated using standard actuarial methodologies. Liabilities recorded for unasserted personal
injury claims are based on information currently
available. Expense accruals and any required adjustments are classified as materials and other in the
Consolidated Statements of Income. Liabilities for
personal injury and FELA claims are initially recorded when the expected loss is both probable and
reasonably estimable. Estimates of liabilities for
these claims are undiscounted.
The Company estimates its liability claims and
expenses quarterly based on the covered population,
activity levels and trends in frequency and the costs
of covered injuries. Estimates include unasserted
claims except for certain repetitive stress and other
occupational trauma claims that allegedly result from
prolonged repeated events or exposure. Key elements
of the actuarial assessment include:


Size and demographics (employee age
and craft) of the workforce.



Activity levels (manhours by employee
craft and carloadings).



Expected claim frequency rates by type
of claim (employee FELA or third-party
liability) based on historical claim frequency trends.



Expected dismissal rates by type of claim
based on historical dismissal rates.



Expected average paid amounts by type
of claim for open and incurred but not
reported claims that eventually close
with payment.

85a
From these assumptions, BNSF estimates the
number of open claims by accident year that will likely
require payment by the Company. The projected
number of open claims by accident year that will
require payment is multiplied by the expected average
cost per claim by accident year and type to determine
BNSF’s estimated liability for all asserted claims.
Additionally, the Company estimates the number of
its incurred but not reported claims that will likely
result in payment based upon historical emergence
patterns by type of claim. The estimated number of
projected claims by accident year requiring payment
is multiplied by the expected average cost per claim
by accident year and type to determine BNSF’s
estimated liability for incurred but not reported
claims. BNSF monitors quarterly actual experience
against the number of forecasted claims to be
received, the forecasted number. of claims closing with
payment and expected claim payments. Adjustments
to the Company’s estimates are recorded quarterly as
necessary or more frequently as new events or revised
estimates develop. At December 31, 2013, and 2012,
$85 million and $105 million were included in current
liabilities, respectively. In addition, defense and
processing costs, which are recorded on an as-reported
basis, were not included in the recorded liability. The
Company is primarily self-insured for personal injury
claims. Because of the uncertainty surrounding the
ultimate outcome of personal injury claims, it is
reasonably possible that future costs to settle personal injury claims may range from approximately
$340 million to $455 million. However, the Company
believed that the $387 million recorded at December
31, 2013, was the best estimate of its future obligation
for the settlement of personal injury claims. The
amounts recorded by BNSF for personal injury

86a
liabilities were based upon currently known facts.
Future events, such as the number of new claims to be
filed each year, the average cost of disposing of claims,
as well as the numerous uncertainties surrounding
personal injury litigation in the United States, could
cause the actual costs to be higher or lower than
projected.
BNSF IC provides insurance coverage for FELA
and other claims which are subject to reinsurance.
BNSF IC has entered into annual reinsurance treaty
agreements with several other companies. The treaty
agreements include insuring against general liability
and FELA risks. In accordance with the agreements,
BNSF IC cedes a portion of its FELA exposure
through the treaty and assumes a proportionate share
of the entire risk. At December 31, 2013, there was
approximately $480 million related to these thirdparty investments, which were classified as cash and
cash equivalents on the Company’s Consolidated
Balance Sheet, as compared with approximately $485
million at December 31, 2012.
At BNSF’s request, the Court held an evidentiary
hearing on Dannels’ Motion for Sanctions on April
18, 2018. BNSF solicited testimony from three witnesses in opposition to Dannels’ motion. BNSF called
Felicia Williams (BNSF General Director of Accounting), Christopher Decker (attorney with Boone Karlberg
and former defense counsel in this case for BNSF),
and James Roberts (BNSF Senior General Attorney).
BNSF called Williams to address the issue of loss
reserves. Apparently, the point of Williams’ testimony was to explain BNSF’s treatment of reserves—
purportedly to correct the Court’s prior findings on the
matter.

87a
Lost on BNSF, however, is the critical notion it
underscored in offering Williams’ testimony. Williams
essentially testified that she is the person best suited
to testify about accounting principles, financial standards, and machinations associated with reserves on
behalf of BNSF. She offered the kind of information
which is calculated to lead to the discovery of admissible evidence. Dannels sought this kind of information in discovery and did not receive it. Rather
than designating Williams as its corporate representative on the topic of reserves, BNSF designated
Hegi to testify. Hegi admittedly had little information
on the subject matter which thwarted the discovery
Dannels sought.
At this juncture, the purpose of the hearing was
not to confirm judicially whether BNSF complies
with accounting standards or the like. The purpose of
the hearing was to determine whether the Court
should impose sanctions on BNSF for its discovery
abuses. On this front, Williams’ testimony was inapposite. In terms of production of documents in discovery, Williams’ only involvement was with BNSF’s
financial statement. As the Court noted at the
hearing, Williams was not the right person to defend
BNSF’s discovery positions.
Williams is primarily a financial, and not a management, accountant. She had no idea about results
obtained in FELA cases or what management does to
monitor FELA results or profits earned on accounts
where funds are held on set-aside reserves. She
acknowledged BNSF is one of the largest railroad
networks in North America and its Form 10-K reports
work-related injuries are a significant expense for the
railroad. She knew of no changes in the business

88a
model of the Burlington Northern companies over her
career that extends before 2002.
She was asked about the Company’s April 22,
2002, Business Plan, under which BNSF Insurance
Company was to act as the consolidation point for
collection of all relevant claims data with results, risk
analysis, costs and reserve management to be handled
by the actuary Tillinghast-Towers Perrin. She was
unfamiliar with the management plan under which
the company manages and handles its FELA claims.
She acknowledged that according to Form 10-K
reporting, the company now doing the actuarial work
for the company is Willis Towers Watson. Tillinghast
was the world’s largest actuarial practice focused on
insurance and a unit of Towers Perrin specializing in
risk management and actuarial consulting. The
Tillinghast business of Towers Perrin provided consulting and software solutions to insurance and
financial services companies and advised other
organizations on risk financing and self-insurance. In
January 2010, Towers Perrin merged with Watson
Wyatt Worldwide to form Towers Watson where
Tillinghast became part of the risk management
group. Williams knew nothing about the claims
handling except aggregate numbers she gets from the
claims department.
Williams did not even know whether BNSF earns
any interest income on its large liquid assets or
reserves. She did not know whether anyone consults
with the company on amounts earned or paid out on
FELA funds.
Next, BNSF called Decker. BNSF limited its
questions of Decker to the work he did in discovery in
the present matter. Decker was involved in the initial
discovery on behalf of BNSF. Decker worked with

89a
BNSF on discovery from approximately April/May
2015 to August/September 2017. Decker described
the effort he and his firm undertook to identify documents responsive to Dannels’ discovery requests.
Decker testified that he and his firm undertook a
good-faith effort to obtain responsive documents and
withhold privileged documents. The Court acknowledges this testimony and casts no dispersions on
Decker or his law firm about BNSF’s discovery
abuses.
BNSF offered Decker’s testimony to suggest its
discovery positions were substantially justified
throughout the discovery process. This notion may
hold water at the action’s inception. However, BNSF
cannot reasonably argue substantial justification for
spurning court orders. The Court will not permit
BNSF to hide behind the cloak of its uninformed local
Montana defense counsel. The discovery requests
submitted to BNSF primarily involved information
beyond Decker’s personal knowledge:
Q: Alright. Now, you don’t know personally
the answers to the questions that are
being asked of you, do you? Not the questions being asked you, but the questions
being asked the railroad as in discovery.
As a general rule, that’s information
beyond your knowledge, right?
A: That’s often the case, yes.
Q: Okay. And in this case, there was a lot of
information that was being asked that you
had no idea about, right?
A: There-yeah, when requests are asked,
usually I don’t have a good working
knowledge of what’s out there.

90a
Decker testimony, p. 85. Because Decker did not
know what information BNSF had, he worked with
BNSF employees to identify information responsive to
discovery requests and obtain BNSF’s input.
On this front, it appears BNSF fell short in
identifying responsive documents for Decker’s consideration. For instance, BNSF did not advise Decker of
the monthly summaries Dione Williams described.
BNSF did not call Decker’s attention to the monthly
summaries Shewmake and Hegi described. BNSF did
not produce any actuarial studies or reserve information unrelated to Dannels for Decker’s consideration. BNSF did not produce any information on the
outcome of FELA cases and any potential profits it
may earn in holding money associated with claims.
Rather, BNSF simply advised Decker that it had
nothing specific in response to the request for reports
and it would take hundreds and hundreds of hours to
comply with the request.
Decker’s contact at BNSF in putting together
compelled discovery responses Dannels’ discovery
requests, which included Interrogatory No. 5, was
primarily Jill Rugema, an in-house BNSF attorney.
Also assisting Decker with BNSF’s compelled discovery responses in-house BNSF attorney, Tom Jayne.
The BNSF Law Department Guide requires case
closing trial results be reported. Rugema and Jayne
were recipients of the monthly summaries of results
obtained in FELA cases Shewmake generated and
reported to his superiors. They also would have
authored or received monthly status reports of cases
they were overseeing or involved in. Yet, they
identified none of these reports. After his last motion
for sanctions, Dannels learned through the deposition
of Dione Williams that an executive slide presentation

91a
is made each year that presents information to BNSF
leadership about all the FELA claims that had been
filed, whether they were settled, the amount paid and
all of that. BNSF did not tell or inform Decker about
this reporting of results and he was unaware of its
existence. No one at BNSF told Decker or made him
aware that claims representatives were required to
update all information on their FELA claims and
monthly reports are run showing the outcome of
those cases. When Decker was involved in the case,
he never produced any actuarial studies or reserve
information. He did not produce any information on
the outcome of FELA cases and profits that might be
earned on reserves not paid out. He did not have that
information.
In assisting Decker in answering
discovery, Rugema and Jayne did not disclosure
relevant discoverable information and documents.
Instead of having knowledgeable people within BNSF
sign its answers to interrogatories, BNSF had Decker
verify the answers under oath.
BNSF called Roberts as its final witness. BNSF
questioned Roberts on the four subjects implicated by
Dannels’ second motion to compel. Roberts testified
about whether BNSF was substantially justified in
characterizing the monthly summaries Shewmake
referenced as privileged. BNSF did not take a writ
challenging the production and made no reasonable
effort to comply with compelled discovery. Roberts
attended Hegi’s deposition and knew Hegi continued
to make reports to his superiors of results obtained.
These reports would include, for example, the results
obtained in Iron Horse, which involved a FELA claim
and trial almost contemporaneous with Dannels’.
There was not even an inquiry made to obtain Hegi’s
reports despite the Court’s order compelling their
production. Roberts testified that setting reserves is

92a
a function of the claims department and more of an
art than a science. Roberts testified that BNSF has
sparse documentation outlining how to set a reserve
in an FELA case. He described his view on the
distinction between loss reserves and the notion of
reasonably clear liability. On the reserve front,
Roberts’ testimony was narrow—it primarily addressed
the claims department’s function of setting loss
reserves in an adversarial claim. However, Dannels’
discovery requests were not so limited, and Roberts
did not address BNSF’s discovery deficiencies on the
expanded reserve information Dannels requested.
Roberts had no information about tax implications or
accounting principles associated with reserves. Once
the claims department sets its loss reserve on a case,
Roberts did not know what happens in the aggregate
with BNSF reserves.
DISCUSSION
“The purpose of discovery is to promote the
ascertainment of truth and the ultimate disposition
of the lawsuit in accordance therewith. Discovery
fulfills this purpose by assuring the mutual knowledge
of all relevant facts gathered by both parties which are
essential to proper litigation.” Richardson v. State,
2006 MT 43, ¶ 22, 331 Mont. 231, 130 P.3d 634
(citations omitted). The modern rules of discovery and
pre-trial procedure “make a trial less a game of
blindman’s buff and more a fair contest with the basic
issues and facts disclosed to the fullest practicable
extent.” Richardson, ¶ 22 (citations omitted).
Richardson serves as the guidepost regarding
discovery abuse and concomitant sanctions.
In
Richardson, Clarice Richardson fell on the smooth
troweled concrete floor of the women’s locker room at
the Montana College of Technology. Richardson

93a
ultimately filed suit against the State of Montana
regarding the dangerous condition in the locker
room. Richardson served written discovery seeking
information on other slip and fall incidents at the
facility, warnings about the conditions; protective
measures undertaken by the State, and maintenance
of the subject structures. The State refused to answer
the discovery and asserted meritless objections—
relevance, not reasonably calculated to lead to the
discovery of admissible evidence, vague, ambiguous,
etc. Thereafter, Richardson moved to compel meaningful responses. In the meantime, the State moved
for summary judgment.
The trial court agreed with Richardson that she
sought discoverable information.
Accordingly, it
granted the motion to compel and ordered the State
to provide meaningful responses. The State subsequently responded to the discovery requests but failed
to answer requests about other falls at the facility.
In other words, the State provided incomplete
responses to discovery in derogation of the trial court’s
discovery order. Richardson’s counsel again contacted
counsel for the State seeking answers. Then, over
seven months after Richardson’s initial discovery
requests, over two months after discovery had closed,
and a mere eleven days before trial, the State finally
provided information about other falls. Richardson
was put in the untenable position of going to trial with
short notice and little discovery on the newly produced
information or acquiescing to additional delay and
expense. Richardson went to trial, obtained an
adverse verdict, and subsequently moved to amend
the judgment by entering default judgment on
liability against the State as a sanction for the
discovery abuses. The trial court denied Richardson’s
post-trial motion and Richardson appealed.

94a
The Montana Supreme Court reiterated the foregoing maxims of discovery. It noted the State’s
discovery postures improperly concealed evidence and
hid behind baseless objections. The actions directly
contravened the express purpose of discovery and
severely undermined the integrity of the litigation.
Richardson, ¶ 23. The Montana Supreme Court held:
This Court strictly adheres to the policy
that dilatory discovery actions shall not be
dealt with leniently. As we have said, the trial
courts, and this Court on review, must remain
intent upon punishing transgressors rather
than patiently encouraging their cooperation.
Accordingly, the imposition of sanctions for
failure to comply with discovery procedures is
regarded with favor. “It is, after all, a maxim
of our rules of discovery that the price for
dishonesty must be made unbearable to
thwart the inevitable temptation that zealous
advocacy inspires.”
We have adopted this policy of intolerance
regarding discovery abuse pursuant to our
“concern over crowded dockets and the need
to maintain fair and efficient judicial administration of pending cases.”
Richardson, ¶¶ 56-57 (citations omitted).
The Montana Supreme Court noted its prior
admonitions that some discovery abuses warrant the
imposition of default judgment on liability. Richardson,
¶ 58, citing Schuff v. A.T. Klemens & Son, 2000 MT
357, 303 Mont. 274, 16 P.3d 1002, and CulbertsonFroid-Bainville Health Care Corp. v. JP Stevens &
Co. Inc., 2005 MT 254, 329 Mont. 38, 122 P.3d 431.
These discovery abuses, which justified the ultimate

95a
sanction of default, prohibited meaningful follow-up
discovery, prevented the plaintiffs from assessing the
merits of defenses and building cases-in-chief, and
forcing the plaintiffs to incur mounting litigation
costs while proceeding under a cloud of uncertainty.
Richardson, ¶¶ 58-59.
Because of the State’s
improper discovery positions, Richardson “was indeed
faced with a no-win situation—i.e., either proceed to
trial without fully investigating and developing the
evidence of other falls or incur the needless expense
and hassle of continuing the trial and conducting
further preparation which could have been achieved
earlier with timely disclosure from the State.”
Richardson, ¶ 61.
The Montana Supreme Court held that the State’s
discovery abuse directly undermined the objectives of
Montana’s Rules of Civil Procedure—to secure the
just, speedy, and inexpensive determination of every
action:
Achieving a just determination is contingent
upon full disclosure. As we have stated,
“[m]utual knowledge of all the relevant facts
gathered by both parties is essential to proper
litigation.” Achieving a speedy and inexpensive determination is contingent upon timely
disclosure, which is thwarted by protracted
legal wrangling over semantic nuances and
technicalities.
Richardson, ¶ 63. Ultimately, the Montana Supreme
Court held:
Because the State’s discovery abuse here was
so blatant and systematic, and because it
undermined the integrity of the entire proceeding, the only proper sanction is a default

96a
judgment on the issue of liability, just as we
approved in Schuff and Culbertson. Any less
severe sanction would be inconsistent with
the rule that punishment for discovery abuses
must be made unbearable in order to thwart
the inevitable temptation which zealous
advocacy inspires.
Richardson, ¶ 65. The Montana Supreme Court
recently affirmed these same notions in Cox v.
Magers, 2018 MT 21, 390 Mont. 224, 411 P.3d 1271.
As Rule 37, Mont. R. Civ. P., recognizes, trial
courts are “in the best position to know . . . which
parties callously disregard the rights of their
opponents and other litigants seeking their day in
court[] [and are] also in the best position to determine
which sanction is the most appropriate.” Smith v.
Butte-Silver Bow County, 276 Mont. 329, 332, 916
P.2d 91, 93 (1996). As such, the Montana Supreme
Court generally defers to the decision of the trial court
regarding Rule 37, Mont. R. Civ. P., sanctions. Smith,
276 Mont. at 332, 916 P.2d at 93.
As confirmed by Richardson, litigants in Montana
have long had notice of the judiciary’s expectations of
parties in discovery. Litigants have likewise long had
notice of the consequences for discovery abuse. This
is especially true of BNSF.
In Spotted Horse v. BNSF R.R. Co., 2015 MT 148,
379 Mont. 314, 350 P.3d 52, the Montana Supreme
Court recounted a disturbing history of discovery
abuses perpetrated by BNSF. It referred to BNSF as
a “seasoned and sophisticated corporate litigant.”
Spotted Horse, ¶ 27. Yet, despite its litigation
recurrence, BNSF is not entitled to unilaterally
control discovery and the exchange of evidence.

97a
Spotted Horse, ¶ 30. That is precisely what BNSF has
attempted here. To that end, Justice Wheat specially
concurred in Spotted Horse, concluding:
It is the obligation of every Montana court to
protect the integrity of the judicial system
and to ensure proper administration of justice.
See Oliver v. Stimson Lumber Co., 1999 MT
328, ¶ 31, 297 Mont. 336, 993 P.2d 11. Usually
this means that there is a presumption in
favor of resolution of controversies on their
merits. But, in cases where a party maliciously misuses our judicial system, this presumption is forfeited and the obligation to
protect the judicial system instead requires
courts to remedy the misuse, to punish the
misuser, and to deter future misuse. See
Richardson v. State, 2006 MT 43, ¶ 68, 331
Mont. 231, 130 P.3d 634; Schuff v. A.T.
Kiemens & Son, 2000 MT 357, ¶ 81, 303 Mont.
274, 16 P.3d 1002; Oliver, ¶ 34.
Spotted Horse, ¶ 47.
The Montana Supreme Court has noted other
inappropriate BNSF conduct perpetrated to undermine the truth-finding function. In Anderson v. BNSF
Ry., 2015 MT 240, ¶ 79, 380 Mont. 319, 354 P.3d 1248,
the Court held that BNSF undermined the
truth-finding function of the jury through repeated
use of inflammatory and wholly inappropriate
remarks. Justice Wheat again specially concurred,
noting:
We recently noted in Spotted Horse v.
BNSF that the defendant here appears to
have a pattern of practice that relies on
misconduct to prevail in court. See Spotted

98a
Horse v. BNSF, 2015 MT 148, ¶¶ 22-27, 379
Mont. 314, 350 P.3d 52 (listing district court
cases documenting discovery abuses and
spoliation of evidence by BNSF). I note that
Hedger Friend, PLLC, the law firm representing the BNSF here is the same firm (albeit a
later iteration of the firm) that represented
BNSF in the district court cases we cited to
show a pattern and practice of misconduct. I
also note that in one of those cases, the district
court commented that it “repeatedly warned
BNSF, through its common counsel, about its
common pattern and practice of discovery in
other FELA cases currently or recently
pending.”
Order
Imposing
Sanctions,
Danielson v. BNSF, CDV-04-124(d) at 15
(Mont. Eighth Jud. Dist. Ct March 13, 2006).
Despite those warnings, BNSF’s counsel
continued to engage in conduct the district
court characterized as “part of a larger
recurring pattern and practice of dilatory and
obstructive discovery practices.” Danielson at
25. The district court sanctioned BNSF for
its misconduct by barring BNSF from presenting any evidence or argument contesting the
plaintiffs proof of negligence in one case and
granting default judgment as to liability in the
other. Danielson at 25.
I also note that every time BNSF is called
to account for its misconduct, it takes the
same approach it took here, which is to treat
each incidence of misconduct as though it
occurred in isolation from all the others. A
district court in Minnesota noted that tactic in
an order granting over $4 million in sanctions

99a
against BNSF for multiple, flagrant instances
of misconduct:
This Court is satisfied that the record,
which has developed over a period of six
years, overwhelmingly supports a finding that BNSF did, in fact, engage in
conduct and decision making that
compromised critical evidence, interfered with witnesses, impeded the
investigation by law enforcement, and
misled and/or misrepresented a number
of facts to Plaintiffs and this Court.
BNSF has attempted to explain away
this misconduct in piecemeal fashion by
attributing much to inadvertence,
coincidence, honest mistake, and/or
legitimate business practices.
This
Court is simply not persuaded. Taken
alone, some of BNSF’s abuses might not
be sanctionable, and indeed might have
been
understandable
given
the
complexities of this case.
But the
breadth of BNSF’s misconduct in this
case is staggering.
Order, Chase v. BNSF, No. C4-05-1607 (Minn.
Tenth Jud. Dist. Ct, Oct. 15, 2009). The
majority opinion here notes the same problem
with BNSF’s tactic of treating each incidence
of improper argument in isolation. Opinion, ¶
78. I submit that just as we refuse to view
each improper comment in isolation from the
others, so should we refuse to view this case
in isolation from all the other documented
cases in which this party has sought to
prevail through misconduct. Although the

100a
misconduct documented in Spotted Horse,
Danielson, and Chase primarily involved discovery abuses, misrepresentations, and evidence tampering, it is nonetheless relevant to
the misconduct here because it shows a pattern of trying to win trials by misconduct,
rather than merit.
As I noted in Spotted Horse, it is the
obligation of every Montana court to protect
the integrity of the judicial system and to
ensure proper administration of justice.
Spotted Horse, ¶ 47 (Wheat, J., concurring)
(citing Oliver v. Stimson Lumber Co., 1999 MT
328, ¶ 31, 297 Mont. 336, 993 P.2d 11). Where
a party shows a repeated intent to flout the
judicial system’s strong preference that cases
be decided on their merits—and instead tries
to win the case on the basis of how much
misconduct it can get away with—that party
forfeits the right to have its case decided on
the merits, and default judgment on liability
becomes the appropriate remedy.
Anderson, ¶¶ 85-87.
In recent years, several trial courts in Montana
have imposed sanctions on BNSF, including default
judgment, for discovery abuses. See, e.g., Sherrill v.
BNSF Railway Co., Montana Eighth Judicial District
Court, Cascade County, Cause No. BDV-13-834 (Judge
Wheelis); Trombley v. BNSF Railway Co., Montana
Eighth Judicial District Court, Cascade County,
Cause No. DDV-13-331 (Judge Sandefur); Anderson v.
BNSF Railway Co., Montana Eighth Judicial District
Court, Cascade County, Cause No. CDV-08-1681 (Judge
Kutzman); and DeLeon v. BNSF Railway Co., Montana
Thirteenth Judicial District Court, Yellowstone

101a
County, Cause No. DV-13-0729 (Judge Fagg). BNSF’s
abusive litigation tactics apparently extend far
beyond Montana’s borders. Many courts have confronted similar discovery abuses perpetrated by
BNSF over the years and sanctioned it accordingly.
See the Affidavit of James R. Conner with Attached
Orders (Dkt. 246).
The historical abuse chronicled above and in the
corresponding sanctions orders from around the
country is certainly troubling. Nevertheless, to be
clear, BNSF’s misconduct from other cases did not
factor into the Court’s determination of sanctions in
the case at bar. The Court simply references the
foregoing case law as a guidepost on sanctions considerations. BNSF’s discovery abuses in this case
stand on their own dubious merit and form the sole
basis for the Court’s sanctions determination.
The Court set forth the factual background in
painstaking detail above. It will not reiterate all of
that again. Suffice it to say that this case has
vanquished in the discovery phase for years, in large
part due to BNSF’s recalcitrance.
Dannels filed this bad faith case in January 2014.
He served his first set of discovery requests on
Defendants in August 2014. Like many of the
foregoing cases, the discovery sought information
calculated to lead to the discovery of admissible
evidence. When a discovery request (or order compelling discovery) can reasonably be interpreted, in the
context of seeking discoverable information relating to
claims and defenses at issue, the recipient must
interpret it that way, rather than imputing some
meaning to the request which would render it vague,
ambiguous, or objectionable in some other respect. If
litigants were allowed to do otherwise, the discovery

102a
process would not serve its purpose. Discovery rules
are written in general terms, imposing a broad duty of
disclosure. Richardson, ¶ 52. The Montana Rules of
Civil Procedure require a good faith effort in serving
discovery responses. See Rules 11 and 26(g), Mont. R.
Civ. P.
As in Richardson, BNSF rejected the foregoing
principles and essentially served non-responses.
Defendants finally responded to the discovery
requests in May 2015. They objected to nearly every
discovery request and failed to provide meaningful
information. Approximately two weeks later, on the
heels of the improper discovery responses, Defendants
moved for summary judgment on Dannels’ claims.
Given the positions Defendants advanced in response
to the discovery requests, Dannels was forced to file a
motion to compel.
This Court carefully reviewed the requests and
responses and granted Dannels’ motion to compel.
The Court specifically instructed Defendants how to
respond to the discovery meaningfully. It further
cautioned that it would enter sanctions for future
discovery abuses. Nevertheless, BNSF continued to
violate the spirit and intent of Montana’s rules of
discovery. BNSF has consistently attempted to conceal information and evade its discovery obligations.
To be clear, this is not a reflection on Defendants’
attorneys. The Court imagines, as Decker alluded to,
that defense counsel’s hands are somewhat tied
regarding the existence and possession of internal
BNSF documents. On that front, defense counsel
necessarily relies on the representations of their
corporate client. Yet, with BNSF, there seems to be a
corporate pattern, practice, and mindset of superiority, invincibility, or both.

103a
The pattern this case follows is similar to past
BNSF cases and other cases in which courts have
imposed default judgment as a sanction for discovery
abuse. That is, the pattern which has emerged in this
case is a legitimate discovery request, followed by
evasive non-responses, a motion to compel, an order
to compel, qualified and incomplete responses from
BNSF following the order to compel, deposition testimony and/or evidence contradicting BNSF’s written
discovery responses, more discovery meetings, a
second motion to compel, more incomplete responses
from BNSF, and, ultimately, hollow explanations for
the noncompliance which purport to cast blame in all
directions but Fort Worth.
Now, almost five years after the case was filed,
following repeated scheduling orders and extensions,
following the fourth trial date being vacated, despite
repeated admonitions, Dannels still does not have
everything he requested from BNSF and was entitled
to receive and was court-ordered to receive. Simply
put, BNSF is not entitled to the self-serving,
unilateral discovery positions it has taken throughout
discovery. Litigants who are willful in halting the
discovery process act in opposition to the authority of
the court and cause impermissible prejudice to their
opponents.
Defendants’ discovery tactics have prevented
Dannels from fully assessing the merits of the
proffered defenses and building his case-in-chief,
while simultaneously forcing him to incur mounting
litigation costs. These discovery abuses put Dannels
in the predicament of further continuances and delay
or trying the case without evidence he is entitled to.
Defendants’ discovery abuses have consumed valuable hours and judicial resources. And, Dannels now

104a
faces a fifth trial setting, more than four years
removed from when he filed this case
In a December 5, 2010, article in the Minneapolis
Star Tribune, Shewmake analogized BNSF’s litigation tactics to sports games. Shewmake said litigation
is an adversarial process where both sides try hard to
win. Occasionally, Shewmake said attorneys on both
sides break the rules. He compared BNSF’s litigation
conduct to World Cup soccer and stated: “Some of the
best athletes in world competing at a high level and
sometimes they get yellow-carded ‘cause they’re
competing so hard . . .Were they trying to be malicious? Were they trying to hurt somebody? I don’t
think so. When you get in this adversarial mode, I
think both sides on occasion will get yellow-carded.”
The article goes on to report where BNSF has been
frequently “yellow-carded” for litigation misconduct,
including punishment for misconduct in seven
Montana cases between 2003 and 2010, and a $4.2
million sanction in Minnesota.
Shewmake’s analogy of litigation to a sports
game is troubling because litigation is not a game.
Litigation, unlike a sports game, involves serious
issues that significantly affect the lives of real people.
The view that litigation is a game in which a player
may be “yellow-carded” reveals an intention to break
rules to win. Montana courts have an obligation to
discourage the strategy of trying to win trials by
misconduct, rather than merit. As a sophisticated
litigant, BNSF is free to forge a path of its desire if left
unchecked. This Court’s previous orders were not
enough of a yellow card to steer the Defendants
toward following discovery rules or court orders.
Hopefully, the resulting sanctions will have a greater
deterrent effect and will discourage future abuse of

105a
the discovery process to conceal relevant evidence or
impede the orderly adjudication of a case.
CONCLUSION
This Court warned BNSF about its discovery obligations and the potential for sanctions for noncompliance. Nevertheless, BNSF committed discovery abuses
throughout the life of this case. Dannels suffered
prejudice as a direct result of BNSF’s pervasive
discovery abuses.
Rule 37, Mont. R. Civ. P., vests this Court with
wide discretion to impose sanctions for the discovery
abuses. As chronicled above, BNSF has continuously
provided evasive or incomplete responses to legitimate discovery requests and failed to comply with
this Court’s discovery orders. BNSF’s conduct has not
been substantially justified, particularly after this
Court entered the initial discovery order on Dannels’
motion to compel. Rule 37 contemplates a number of
potential sanctions, including, but not limited to,
default judgment or any other appropriate sanctions.
Further, Rule 37 provides “the court must order the
disobedient party, the attorney advising that party, or
both to pay the reasonable expenses, including
attorney fees, caused by the failure, unless the failure
was substantially justified or other circumstances
make an award of expenses unjust.”
BNSF’s discovery tactics in this case are abhorrent. Notably, BNSF engaged in this discovery
conduct on the heels of default judgments entered
against it in Sherrill and Trombley (cases venued in
the same judicial district) for discovery abuses.
Clearly, the default judgments alone did not phase
BNSF and its internal discovery team. Again, the
Court notes BNSF’s historical pattern for context, but

106a
the conduct at issue in this case is what forms the
basis for the sanctions imposed.
Based on the foregoing, the arguments and
submissions in this case, and everything of record in
this matter:
1. Dannels’ motion for sanctions against BNSF
is GRANTED;
2. The Court hereby enters a default judgment
on liability and causation against BNSF;
3. This case shall proceed to trial solely on the
measure of damages Dannels is entitled to
recover on his bad faith claims, and whether
he should recover punitive damages against
Defendants and, if so, the amount;
4. The Court hereby reserves entering a
monetary sanction against BNSF for its
discovery abuses until after the conclusion of
the trial;
5. BNSF shall pay Dannels’ reasonable
expenses, including attorney fees, caused by
BNSF’s discovery abuses. Dannels’ attorneys
shall submit an itemization of such expenses,
with supporting documentation if necessary,
for the Court’s consideration by December 17,
2018. BNSF may respond to the itemization
of expenses by December 31, 2018. The Court
may hold a reasonableness hearing on the
expenses if necessary;
6. In addition to discovery otherwise compelled,
as an additional sanction, it is

107a
FURTHER ORDERED that by December 17,
2018, BNSF shall produce:
(A) All actuarial reports of Willis Towers
Watson (including its predecessors and
successors) from 2010 to date relating to
FELA claims, including risk financing,
results expected and obtained, and
insurance;
(B) All annual executive slide presentations
on FELA claims, as identified in the
deposition of Dione Williams, from 2010 to
date; and
(C) All monthly status reports on FELA
claims, as identified in the deposition of
Dione Williams, from 2010 to date.
Dated this 16th day of November, 2018.
s/ Katherine M. Bidegaray
Katherine M. Bidegaray
District Court Judge

108a
APPENDIX D
IN THE SUPREME COURT OF THE STATE OF
MONTANA
OP 18-0054
__________________
NANCY AHERN, BNSF
INSURANCE COMPANY,
LTD., BNSF RAILWAY
COMPANY,
Petitioners,
ORDER

v.
EIGHTH JUDICIAL
DISTRICT COURT,
CASCADE COUNTY,
KATHERINE M.
BIDEGARAY,

[Filed: February
20, 2018]

Respondent.
__________________
Petitioners BNSF Railway Company and Nancy
Ahern (collectively “BNSF”), through counsel, filed a
Petition for Writ of Supervisory Control with this
Court on January 25, 2018, requesting this Court to
review the Eighth Judicial District Court’s Order
Denying Defendant’s Motion to Disqualify Plaintiff’s
Current Counsel in Cause No. BDV-14-001, Dannels
v. BNSF Railway Company, et al. BNSF also
requested this Court stay the District Court’s
proceedings pending disposition of this Petition. After
review of the Petition, this Court deemed it

109a
appropriate to order a response. The Honorable
Katherine M. Bidegaray, and Robert Dannels, Plaintiff in the underlying proceeding, have both filed
responses.
After obtaining a judgment against BNSF in an
FELA action, Dannels commenced a bad faith action
against BNSF on January 2, 2014. Dannels’ counsel
in the FELA action—Erik Thueson, Dennis Conner,
and Keith Marr—represent him in the bad faith
action, and have done so since its inception. On June
30, 2017, approximately three-and-a-half years into
the case, BNSF moved to disqualify all of Dannels’
attorneys pursuant to Rule 3.7 of the Montana Rules
of Professional Conduct. The District Court denied
BNSF’s motion. BNSF seeks a writ of supervisory
control, contending that the District Court erred by
holding that Plaintiffs counsel are not necessary
witnesses, and that allowing them to act as advocates
at trial forecloses BNSF’s ability to present certain
evidence in their defense, prejudices the entire trial,
and violates Montana Rule of Professional Conduct
3.7. BNSF also argues that Dannels’ bad faith claim
is preempted by the FELA.
Supervisory control is an extraordinary remedy
that is sometimes justified when (1) urgency or
emergency factors exist making the normal appeal
process inadequate; (2) the case involves purely legal
questions; and (3) in a civil case, either the other court
is proceeding under a mistake of law causing a gross
injustice, or constitutional issues of state-wide
importance are involved. M. R. App. P. 14(3).
The denial of a motion to disqualify counsel is
within a district court’s discretionary powers, which
we review for an abuse of discretion. Schuff v. A.T.
Klemens & Son, 2000 MT 357, ¶ 26, 303 Mont. 274, 16

110a
P.3d 1002. In its Order denying BNSF’s motion to
disqualify Dannels’ counsel, the District Court first
walked through the procedural history of the case,
before analyzing BNSF’s general allegations, and
then analyzing BNSF’s allegations as they pertained
specifically to each of Dannels’ individual counsel.
The District Court ultimately concluded:
For approximately three years, this bad faith
case was litigated—on both sides—by the
same attorneys who litigated the underlying
case. If [BNSF] truly believed any of Dannels’
counsel to be “necessary witnesses” in this
matter, it could, and should, have been raised
years ago. [BNSF] effectively waived this
issue by waiting to raise it until 2017.
Regardless, even under a strictly fact-based
analysis, [BNSF has] not met [its] burden to
disqualify Dannels’ attorneys under Rule 3.7
of Montana’s Rules of Professional Conduct.
We are not convinced that BNSF has satisfied the
requirements for this Court to exercise the
extraordinary remedy of supervisory control. First,
relative to BNSF’s motion to disqualify Dannels’
counsel, as the District Court appropriately noted,
this issue “could, and should, have been raised years
ago.” BNSF does not explain in its Petition why it did
not move to disqualify Dannels’ counsel earlier in the
case. To the extent that there may be urgency or
emergency factors making the normal appeal process
inadequate, the urgency is of BNSF’s own making.
Second, this case does not involve a purely legal
question. BNSF cites Judge Molloy’s analysis of Rule
3.7 in Nelson v. Hartford Ins. Co. of the Midwest, 2012
U.S. Dist. LEXIS 30983 (D. Mont. Mar. 8, 2012), as
being “directly on point and persuasive.” As the

111a
District Court pointed out in its Order, however,
Judge Molloy noted in Nelson that “a categorical
exclusion from bad faith actions of the attorney who
represented the plaintiff in the underlying action is
too broad.” Nelson, 2012 U.S. Dist. LEXIS 30983, at
*11. While noting that “Judge Molloy found the attorney to constitute a necessary witness under Rule 3.7
based on the unique facts of that case,” and finding his
analytical framework under Rule 3.7 relevant and
applicable, the District Court nevertheless “reache[d]
a different conclusion based on the distinct facts of
this case.” Ultimately, the District Court concluded
“even under a strictly fact-based analysis, [BNSF has]
not met [its] burden to disqualify Dannels’ attorneys
under Rule 3.7 of Montana’s Rules of Professional
Conduct.” (Emphasis added.)
BNSF also argues that we should exercise
supervisory control because, it contends, Dannels’ bad
faith claim is preempted by the FELA. BNSF does not
address or, for that matter, even cite this Court’s
opinion in Reidelbach v. Burlington N. & Santa Fe Ry.
Co., 2002 MT 289, 312 Mont. 498, 60 P.3d 418, in
which we rejected this very argument. As Dannels
aptly notes in his response to BNSF’s petition, “By
definition, it is not a ‘mistake of law’ for a District
Court to abide by binding precedence [sic].” More to
the point, if BNSF wants this Court to revisit our
opinion in Reidelbach, the normal appeal process is
certainly adequate for that purpose.
Therefore,
IT IS ORDERED that the petition for a writ of
supervisory control is DENIED and DISMISSED.

112a
The Clerk is directed to provide Copies of this
Order to counsel for Petitioners BNSF and Nancy
Ahern, counsel for Robert Dannels, and the Honorable
Katherine M. Bidegaray, presiding District Court
Judge.
DATED this 20th

day of February, 2018.
s/ Mike McGrath
Chief Justice
s/ James Jeremiah Shea
s/ Beth Baker
s/ Ingrid Gustafson
s/ Dirk M. Sandefur
Justices

113a
APPENDIX E
Katherine M. Bidegaray
District Judge, Department 2
Seventh Judicial District
300 12th Ave. NW, Suite #2
Sidney, Montana 59270
Telephone: (406) 433-5939
Facsimile: (406) 433-6879
MONTANA EIGHTH JUDICIAL DISTRICT
COURT, CASCADE COUNTY
ROBERT DANNELS,
Plaintiff,
v.
BNSF RAILWAY
COMPANY, BNSF
INSURANCE COMPANY,
LTD.,
NANCY AHERN,
JOHN DOES 1
THROUGH 10,
Defendants.

)
Cause No.: BDV)
14-001
)
)
ORDER
)
DENYING
)
DEFENDANTS’
)
SUPPLEMENTAL
)
MOTIONS FOR
)
SUMMARY
)
JUDGMENT
)
)
) [Filed: January 9,
2018]

On May 1, 2017, Defendants BNSF Railway Company (“BNSF”) and Nancy Ahern (“Ahern”) filed their
Combined Supplemental Motion for Summary Judgment. Plaintiff Robert Dannels filed his response
brief in opposition to the motion on May 25, 2017.

114a
Defendants filed their reply brief in support of their
motion on June 13, 2017. The Court heard oral
argument on the motion on January 3 and 4, 2018.
Accordingly, Defendants’ motion is ripe for ruling.
Defendants’ motion is denied for the reasons set forth
below.
I.

Background and Facts

As indicated by the summary judgment standard
set forth in greater detail below, a court must draw all
reasonable inferences and view all the evidence in the
light most favorable to the nonmoving party. The
Court has recounted the background facts in response
to many motions already and will not reiterate them
all here.
Dannels worked for BNSF for nearly 20 years,
primarily in Havre, Montana. On March 17, 2010,
Dannels suffered a workplace injury to his lower back.
In 2010, Dannels submitted a written injury report
to BNSF, underwent medical care, and sued the
Defendants. On February 13, 2013, the jury in the
FELA case returned a verdict in Dannels’ favor. The
trial court denied BNSF’s motion for a new trial.
BNSF then settled without taking an appeal. Dannels
filed the present bad faith lawsuit on January 2, 2014.
II.

Summary Judgment Standard

Summary Judgment is appropriate when there
are no genuine issues of material fact and the moving
party demonstrates it is entitled to judgment as a
matter of law. Mont. R. Civ. P. 56(c). The purpose of
summary judgment is to encourage judicial economy
through the elimination of unnecessary trials.
Bonilla v. University of Mont., 2005 MT 183, ¶ 14, 328
Mont. 41, 116 P.3d 823. Where reasonable minds
could reach only one conclusion, questions of fact

115a
become questions for the court to decide instead of a
jury. Brohman v. State, 230 Mont 198, 202, 749 P.2d
67, 70 (1988). However, “summary adjudication
should never be substituted for a trial if a material
factual controversy exists.” Bonilla, ¶ 14.
To meet its initial burden, the moving party must
demonstrate that, viewing the evidence in the light
most favorable to the non-moving party, no genuine
issue of material fact exists. Roy v. Blackfoot Tel.
Coop., 2004 MT 316, ¶ 11, 324 Mont. 30, 101 P.3d 301.
Once satisfied, the burden shifts to the non-moving
party, who must then establish that a genuine issue
of material fact exists with more than mere denial and
speculation. Id. Once a court concludes that no
genuine issue of material fact exists, it must then
determine whether the moving party is entitled to
judgment as a matter of law. Id. “A suspicion,
regardless of how particularized it may be, is not
sufficient to sustain an action or to defeat a motion for
summary judgment.
Unsupported conclusory or
speculative statements do not raise a genuine issue
of material fact.” Gentry v. Douglas Hereford Ranch,
Inc., 1998 MT 182, ¶ 31, 290 Mont. 126, 962 P.2d 1205.
At the summary judgment stage, a court must “draw
all reasonable inferences and view all of the evidence
in the light most favorable to the nonmoving party.”
Johnston v. Centennial Log Homes & Furnishings,
Inc., 2013 MT 179, ¶ 24, 370 Mont. 529, 305 P.3d 781,
citing Fasch v. M.K. Weeden Constr., Inc., 2011 MT
258, ¶ 16, 362 Mont. 256, 262 P.3d 1117.
II.

Discussion

Defendants argue they are entitled to summary
judgment because (1) Dannels’ bad faith claims are
preempted by the FELA, (2) application of Dannels’
bad faith claims in this case violates Defendants’

116a
constitutional right to have a jury decide the issues
in the underlying case, (3) liability in the underlying
FELA case was never reasonably clear, (4) Defendants
had a reasonable basis in law and fact for contesting
Dannels’ underlying claim, and (5) Dannels’ investigation and leveraging allegations fail.
A.

Preemption

Defendants submit a lengthy preemption analysis
arguing “[i]n the present case, both field and conflict
preemption apply [to Dannels’ bad faith claims]
because the FELA provides the exclusive remedy
against railroad-employers by railroad employees
working in interstate commerce.” This Court will not
undertake the preemption analysis Defendants urge
because the Montana Supreme Court has already
done so and ruled against BNSF on the same
arguments.
In Reidelbach v. Burlington Northern and Santa
Fe Ry. Co., 2002 MT 289, 312 Mont. 498, 60 P.3d 418,
the plaintiff suffered a workplace injury while
employed by BNSF. BNSF’s claims department
steered Reidelbach clear of a FELA claim under the
assurance that it would treat him reasonably. When
this did not happen, Reidelbach brought FELA and
bad faith claims against BNSF and its adjuster.
BNSF moved to dismiss the bad faith claims, arguing
federal preemption. The trial court granted BNSF’s
motion and Reidelbach appealed to the Montana
Supreme Court.
The Montana Supreme Court noted that
Reidelbach’s bad faith allegations, the same brought
by Dannels in this case, were grounded in state law.
It held that the claims were not expressly preempted
or impliedly preempted. Reidelbach, ¶¶ 23, 26. Finally,

117a
the Montana Supreme Court held Montana’s bad faith
provisions, and imposing them on BNSF, does not
conflict with the FELA:
Reidelbach’s state claims are distinct and
separate from his physical injury FELA claim,
the value of which will be decided in court
under FELA law. The railroad’s settlement
practices do not arise from the railroad’s negligence in the workplace, and will not influence
the amount of FELA recovery Reidelbach might
receive when he has his day in court. Conversely, proof of Reidelbach’s physical, on-thejob injury and the railroad’s alleged negligence are not elements of Reidelbach’s state
claims and will not affect the value of or
damages for his state claims.
...
Compliance with the state laws upon which
Reidelbach bases his state claims and compliance with the FELA are not mutually exclusive. The railroad can easily satisfy both its
duty and obligation to provide a safe working
environment for its employees under the
FELA, and its state-imposed obligation to
engage in fair, good faith claims practices once
an employee has been injured . . . [G]ood faith
was not what the FELA was created to accomplish. Therefore, imposition of that obligation
is neither within “the ambit of the federal
statute” nor does it conflict with or stand as
an obstacle to the accomplishment and
execution of the purpose or objective of the
FELA. As such, imposing such obligations
through enforcement of state statutes or state
common law is not preempted.
Reidelbach, ¶¶ 44, 52.

118a
This court is bound to follow Reidelbach.
Reidelbach disposes the Defendants’ preemption arguments in Dannels’ favor. Accordingly, Defendants’
motion, to the extent it is premised on preemption, is
denied.
B.

Constitutional Arguments

Defendants contend the purpose of Montana’s
Unfair Trade Practices Act (“UTPA”) is to regulate
trade practices in the business of insurance. They
then leap to the conclusion that “[i]t is both a mistake
of logic and unconstitutional to equate a self-insured
with an insurance company and to impose the same
duties upon the self-insured that a state may have
legitimate police power for imposing on a company
doing business in insurance.” Defendants couch their
constitutional arguments as a violation of the right to
due process, as applied to self-insureds. Defendants
vaguely refer to substantive due process (and its
corresponding level of scrutiny), fundamental rights,
and strict scrutiny.
Without any compelling argument, Defendants
presume that imposition of the UTPA on BNSF’s
claims-handling function infringes on Defendants’
constitutional rights of access to the courts and a
jury trial in the underlying FELA matter. However,
the prima facie case for bad faith or UTPA case is
distinctly different than it is for the underlying tort
claim, Just as Defendants were entitled to a jury trial
to address the underlying FELA claim, they are
entitled to a jury trial on the UTPA claims. The
present case, therefore, does not accrue “in retaliation
for exercising one’s right to a jury trial.”

119a
BNSF is self-insured for claims like Dannels’
underlying personal injury claims. An employee
injured in the employ of a self-insured employer
constitutes a third-party claimant. Suzor v. International Paper Co., 2016 MT 344, ¶¶ 22-24, 386 Mont.
54, 386 P.3d 584. Montana law permits a third-party
claimant, like Dannels, to pursue common law bad
faith claims against the insuring entity. Brewington
v. Employers Fire Ins. Co., 1999 MT 312, 297 Mont.
243, 992 P.2d 237.
Further, Montana’s UTPA
likewise bestows statutory causes of action on thirdparty claimants:
An insured or a third-party claimant has an
independent cause of action against an
insurer for actual damages caused by the
insurer’s violation of subsection (1), (4), (5),
(6), (9), or (13) of 33-18-201.
§ 33-18-242(1), MCA. “Insurer” in the foregoing context includes “a person, firm, or corporation utilizing
self-insurance to pay claims made against them.” § 3318-242(8), MCA. Dannels asserts that, in investigating, adjusting, and defending the underlying action,
Defendants violated the common law and statutory
bad faith duties imposed on it under Montana law.
Complaint and Jury Demand, ¶¶ 17, 24, 27, 33-34.
Ordinarily, confronted with a constitutional challenge, trial courts must determine the level of scrutiny
to be applied. BNSF insists strict scrutiny applies.
Dannels argues the rational basis test applied to
substantive due process challenges applies. See
Linder v. Smith, 193 Mont. 20, 629 P.2d 1187 (1981);
In the Matter of C.H., 210 Mont. 184, 194, 683 P.2d
931, 936 (1984). However, in this case, the Court need
not navigate the scrutiny waters because “[t]he extent
to which the Court’s scrutiny is heightened depends

120a
both on the nature of the interest and the degree to
which it is infringed.” Wadsworth v. State, 275 Mont.
287, 302, 911 P.2d 1165, 1173 (1996). A constitutional
deprivation argument presupposes a constitutional
infringement. Absent an infringement, a constitutional challenge cannot lie, regardless of which level
of scrutiny would apply in the face of a proper
challenge. Here, Defendants have not established an
infringement to a constitutional right. This deficit lies
in Defendants’ erroneous melding of the FELA and
UTPA issues at play.
The Montana Supreme Court long ago noted the
distinctions between issues arising in a workplace
injury case versus issues triggered under bad faith
principles. In Hayes v. Aetna Fire Underwriters, 187
Mont. 148, 609 P.2d 257 (1980), the Montana
Supreme Court noted that a bad faith claim does not
derive out of the workers’ employment. Hayes, 187
Mont. at 155, 609 P.2d at 261. The Court described
that the right to bring an action for bad faith tortious
conduct:
is predicated on an act after the injury and
during the settlement of the claim. The
insurance carrier is no longer the “alter ego”
of the employer, but rather is involved in an
independent relationship to the employee
when committing such tortious acts.
* * *
The injury for which remedy is sought in the
instant case is the emotional distress and
other harm caused by the defendants’
intentional acts during the investigation and
during the course of payment of the claim.
This claimed injury was distinct in time and

121a
place from the original on-the-job physical
injury . . . .
Hayes, 187 Mont. at 155-56, 609 P.2d at 261 (citation
omitted).
The Montana Supreme Court more recently
affirmed the notion articulated in Hayes. In Graf v.
Continental Western Ins. Co., 2004 MT 105, 321 Mont.
65, 89 P.3d 22, Graf was rear-ended at an intersection
and filed a personal injury lawsuit against the at-fault
driver and his employer. The jury returned a defense
verdict and the case later settled on appeal. After
resolving the underlying matter, Graf filed a bad faith
case against the defendants’ insurer. The insurer
moved for summary judgment, arguing the underlying personal injury defense verdict was determinative
and barred the subsequent bad faith claim. Like the
Defendants argue here, the insurer in Graf argued
that permitting the subsequent bad faith claim “would
eviscerate the jury’s role in our system of justice.”
Graf, ¶ 10. The Montana Supreme Court disagreed.
Like the Defendants here, the insurer in Graf
presumed that a bad faith case comingles the underlying issues and relitigates the underlying claim,
Graf, ¶ 12. The Montana Supreme Court rejected this
erroneous premise as “[t]he issues in a UTPA claim
are separate from the Issues in the underlying claim.”
Graf, ¶ 12. In the underlying personal injury action,
the issue is whether the defendant negligently caused
the inciting event and resulting injuries. Graf, ¶ 15.
Conversely, in a UTPA claim, “the issue is whether
the insurance carrier conducted a reasonable investigation and attempted in good faith to effectuate
settlement of the claim when liability had become
reasonably clear.” Graf, ¶ 15. The UTPA focuses on
the insurer’s knowledge, actions, and inactions which

122a
the jury is not privy to in the underlying claim. Graf,
¶ 17. Thus, the UTPA is designed to hold the insurer
accountable for the claim processing, rather than the
mechanism of the underlying personal injury. Adopting Defendants’ position would defeat the public
policy embodied in the UTPA—i.e., to retrospectively
measure insurer conduct against the standards
adopted by the Legislature in enacting the UTPA.
Graf, ¶ 18,
The Montana Supreme Court echoed these sentiments in Peterson v. Doctors’ Co., 2007 MT 264, 339
Mont. 354, 170 P.3d 459. Therein, faced with an
evidentiary issue pitting an underlying personal
injury claim against a subsequent bad faith case, the
Montana Supreme Court noted:
Ultimately, this MUTPA action was not about
the amount of the settlement which TDC paid
to the Petersons, but, rather, about the
process used by TDC before entering the
settlement.
....
The essence of a claim under § 33-18-201,
MCA, is that an insurer, given information
available to it, has acted unreasonably in
adjusting a claim, perhaps by failing to
investigate, failing to communicate or failing
to negotiate in good faith. Section 33-18-201,
MCA, seeks to protect parties from such acts,
and the relevant issue is almost universally
how the insurer acted given the information available to it.
Peterson, ¶¶ 39, 43 (emphasis added). Finally,
Reidelbach, referenced in greater detail above, is
consistent with the foregoing authorities holding that

123a
the state law bad faith claims are “distinct and
separate” from the underlying physical injury, FELA
claims. Reidelbach, ¶ 44.
The parties tried Dannels’ underlying FELA
claims to a jury. In other words, BNSF invoked its
right to a jury trial in the underlying action and the
trial did not implicate the duties flowing under the
UTPA.
Montana law has required insurers to heed the
duties imposed under the UTPA for decades without
any suggestion of constitutional infirmity. Since
1987, the UTPA has extended to self-insureds under
the same long-standing bad faith principles. The
UTPA treats BNSF exactly as it treats other entities
insuring risks in Montana. The UTPA, and foregoing
authorities, distinguish a UTPA claim from an FELA
claim. These authorities expressly authorize Dannels’
bad faith claims against the Defendants. Given the
distinct issues and damages involved (as recognized in
Hayes, Graf, Peterson, and Reidelbach), Defendants
cannot demonstrate a constitutional infringement justifying the constitutional analysis they seek. Accordingly, Defendants constitutional arguments lack merit.
C.

Factual Arguments

The final three bases the Defendants articulate in
support of their motion implicate disputed issues of
fact—i.e., whether liability was reasonably clear,
whether Defendants had a reasonable basis in law
and fact for contesting Dannels’ claims, and the
propriety of Defendants’ investigation and settlement
negotiations.
Reasonableness is generally a question of fact. As
such, it is for the trier of fact to weigh the evidence
and judge the credibility of witnesses in determining

124a
whether an insurer’s conduct was reasonable. In
cases like this, reasonableness is not a determination
that should be made as a matter of law. DeBruycker
v. Guaranty Nat. Ins. Co., 266 Mont. 294, 298, 880
P.2d 819, 821 (1994). Several years after DeBruycker,
the Montana Supreme Court clarified this standard:
while the assessment of reasonableness
generally is within the province of the jury (or
the court acting as fact-finder), reasonableness is a question of law for the court to
determine when it depends entirely on
interpreting relevant legal precedents and
evaluating the insurer’s proffered defense
under those precedents.
Redies v. Attorneys Liability Protection Soc., 2007 MT
9, ¶ 35, 335 Mont. 233, 150 P.3d 930 (citations
omitted).
Further, as the moving party, Defendants must
exclude any real doubt as to the existence of any
genuine issue of material fact by making a clear
showing of the truth. If there is any doubt whether a
genuine issue of material fact exists, that doubt must
be resolved for the party opposing summary
judgment. Lorang v. Fortis Ins. Co., 2008 MT 252, ¶¶
37-38, 345 Mont. 12, 192 P.3d 186. “[T]he court does
not make findings of fact, weigh the evidence, choose
one disputed fact over another, or assess the
credibility of witnesses.” Fasch v. M.K. Weeden Const.,
Inc., 2011 MT 258, ¶ 17, 362 Mont. 256, 262 P.3d 1117.
All reasonable inferences from the factual record must
be drawn in favor of the non-moving party. Clark v.
Eagle Systems, Inc., 279 Mont. 279, 284, 927 P.2d 995,
998 (1996). Summary judgment is an extreme remedy
which should never take the place of a trial. Clark,
279 Mont. at 283, 927 P.2d at 997. Disputed issues of

125a
fact remain regarding the conduct at issue,
Defendants’ knowledge, and the reasonableness of the
actions the Defendants took,
As for whether liability was reasonably clear,
Dannels claims other BNSF employees concealed the
pipe when he was plowing snow in the parking lot,
without identifying or warning of the lurking hazard.
BNSF would, therefore, be held responsible for the
negligence of these employees, particularly given the
low liability threshold under the FELA (BNSF is
liable if its negligence played any part, even the
slightest, in causing damages).
Dannels claims that Defendants failed to investigate his claim promptly and fully based on all available information, and then failed to make reasonable
settlement offers promptly and fairly given the information in Defendants’ possession. Dannels argues
Defendants evaluated his loss through the litigation
process and acknowledged the likelihood of being
held accountable. Defendants set their loss reserves
for Dannels’ claim between $350,000 and $650,000,
but did not advance lost wages to Dannels for more
than three years during the litigation, which Dannels
asserts is evidence of bad faith. Dannels alleges it was
unreasonable for Defendants to withhold wage losses
as they were incurred.
Dannels claims that Defendants made no settlement offers for over two years and, the offers they
eventually made were for only a fraction of the
amount the jury returned after considering all the
evidence.
Dannels claims the information in
Defendants’ possession indicated Dannels was
becoming increasingly depressed and stressed about
the ongoing litigation, including the financial stress
and delays experienced in resolving his claims.

126a
Dannels argues that Defendants violated their own
claims standards in adjusting his FELA claims.
Dannels alleges Defendants employ the same
unlawful tactics when other railroad workers have
had to make claims for injuries.
Dannels further argues that, at a minimum,
liability was clear after the jury’s 11-1 verdict that
BNSF was negligent and 12-0 verdict that this negligence caused $1.7 million damages. Despite this
verdict, Dannels claims Defendants still denied his
request for Ridley payments. Dannels argues this
post-verdict refusal alone violates the UTPA and
bears on Defendants’ motives and credibility
concerning other conduct.
The evidence the Defendants presented in the
underlying FELA trial is not the proper basis to
establish, as a matter of law, whether they acted
reasonably. In the bad faith suit, the focus is on
what the Defendants knew before trial and during
the investigative settlement stage. Whether a person
acted in bad faith is distinct from the jury’s ultimate
consideration of the merits in the underlying case
because, in part, the jury in the underlying case is
not privy to the investigative reports, evaluations and
correspondence that are relevant in the bad faith case.
See Graf, ¶ 17.
This Order addresses some, but not all, the
disputed issues of fact. There are genuine issues of
material fact, rendering the case inappropriate for
summary judgment.
Whether liability was
reasonably clear, whether Defendants had a
reasonable basis in law and fact for contesting
Dannels’
claims,
and
whether
Defendants’
investigation and settlement negotiations were proper
are all for the jury to decide.

127a
III.

Conclusion
For the foregoing reasons,

IT IS HEREBY ORDERED that Defendants
BNSF and Nancy Ahern’s Combined Supplemental
Motion for Summary Judgment is DENIED.
Dated this _9th_ day of January, 2018.
s/ Katherina M. Bidegaray
Katherina M. Bidegaray
District Court Judge

128a
APPENDIX F
ERIK B. THUESON
SCOTT L. PETERSON
213 Fifth Avenue
PO Box 280
Helena, MT 59624-0280
Telephone: (406) 449-8200
Facsimile: (406) 449-3355
erik@thuesonlawoffice.com
Attorneys for Plaintiff
MONTANA EIGHTH JUDICIAL DISTRICT
COURT, CASCADE COUNTY
ROBERT DANNELS,
Cause No. BDV-14-001
Plaintiff,
Honorable JULIE
MACEK

v.
BNSF RAILWAY
COMPANY, BNSF
INSURANCE
COMPANY, LTD.,
NANCY AHERN,
JOHN DOES 1
THROUGH 10,

COMPLAINT AND
JURY DEMAND
[Filed 09/10/14]

Defendants.
COMES NOW the plaintiff and hereby makes the
following Complaint and request for a jury.

I.

129a
THE PARTIES

1. The plaintiff, Robert Dannels, is a citizen and
resident of Montana. He was employed by the defendant, BNSF Railway Company [“BNSF”], and its predecessors in interest from approximately 1990 to 2010.
Over this period, he worked throughout northern
Montana, including within this Judicial District. On
December 6, 2010, he filed a lawsuit in the Eighth
Judicial District to recover damages for personal injuries negligently caused by BNSF during the course
and scope of his employment. On February 13, 2013,
a jury entered a verdict in favor of Mr. Dannels and
against BNSF. Judgment on the verdict was filed on
February 15, 2013.
2. The defendant, BNSF Railway Co. [“BNSF”], is
a railroad company operating in interstate commerce.
It has trackage, facilities and offices throughout
Montana, including facilities and trackage within the
Eighth Judicial District.
3. The defendant, BNSF Insurance Co., Ltd
[“BNSF IC”], is a wholly owned subsidiary of the
defendant, BNSF, which provides insurance coverage,
including coverage for claims for damages made by
injured BNSF workers, such as Mr. Dannels.
4. The defendant, Nancy Ahern, is a senior claims
representative for BNSF in Montana. Ms. Ahern was
engaged in investigating and adjusting Mr. Dannels’
claims and participating in litigation strategies regarding Mr. Dannels’ claims. Ms. Ahern is a citizen and
resident of Montana.
5. John Doe defendants 1 through 10 are agents
of the defendant, Burlington Northern, and/or defendant, BNSF IC, who participated in decisions regarding
Mr. Dannels’ claims, their adjustment and defense

130a
strategies. Some of them reside and/or are citizens of
Montana and some may be residents and/or citizens of
other states. Some are within the chain of command
of the defendant Ahern.
6. Jurisdiction in the state courts of Montana
exists because diversity of citizenship between the
plaintiff and defendants does not exist.
COUNT I
CLAIM AGAINST BNSF FOR BAD FAITH
7. BNSF hired Mr. Dannels in 1990. For the next
20 years, it negligently assigned him to physical work
activities which carried a high risk of gradually injuring his spine and eventually leading to chronic pain
and disability.
8. This gradual injury process is known as
cumulative trauma. In Mr. Dannels’ case, the hazards
that caused cumulative trauma consisted of a combination of extremely heavy lifting and repetitive lifting
often performed in awkward postures and on unstable
walking surfaces. Examples included lifting kegs of
spikes and other materials weighing up to 200 pounds;
lifting and dragging railroad ties weighing over 200
pounds; lifting and pushing Nordberg grinders weighing over 300 pounds; lifting and carrying portions of
steel rails which might weigh over a ton; and repetitively lifting and carrying a variety of equipment and
material items weighing between 50 to 100 pounds.
The hazards also included shock and vibration to the
spine caused when operating poorly maintained vehicles having worn out seats and inadequate suspensions
systems.
9. Mr. Dannels’ low back and spine slowly degenerated over 20 years due to cumulative exposures
to these workplace hazards. Because much of the

131a
cumulative trauma process is subclinical, there were
only minor intermittent aches and pains for most of
this period. Over the last few years, the cumulative
exposures caused Mr. Dannels’ back to become weak
and susceptible to permanent and disabling spinal
injury even from relatively minor traumas.
10. Mr. Dannels was disabled by an event which
occurred on March 17, 2010. BNSF had ordered him
to use a Bobcat skidster to remove snow piles from
a parking lot in its Havre, Montana railroad yard.
Unknown to Mr. Dannels, BNSF had negligently
concealed a rigid steel wellhead under the snow pile.
When Mr. Dannels drove the bucket of the skidster
into the snow pile, it collided with the concealed
wellhead, injuring Mr. Dannels’ back and spine which
required medical care. He has not been able to return
to productive employment. He continues to suffer pain
and disability due to his work-related injury.
11. It is reasonably clear that BNSF is liable for
the disabling back and spinal injuries Mr. Dannels sustained. As a legal matter, compensation is governed by
the Federal Employers’ Liability Act, 45 U.S.C §§ 51,
et. seq. The FELA contains several provisions which
create a high probability that injured workers will
receive compensation for injuries in most cases. The
FELA “is to be given a liberal construction in favor
of railroad workers so that it may accomplish the
humanitarian and remedial purposes intended by
Congress.” Woods v. BNSF, 2004 MT 332, ¶ 20. “The
FELA imposes a high standard of care upon the
carrier,” including legal duties “to provide a safe workplace, to furnish employees with suitable equipment
to enable the employee to perform work safely, to
provide sufficient manpower to complete the work in
a reasonably safe manner, and to assign workers to

132a
jobs for which they are qualified and to avoid placing
them into jobs beyond their physical capabilities.”
“This continuous duty to provide a safe place to work
is broader than the general duty to use reasonable
care.” Kalanick v. Burlington Northern, 242 Mont. 45,
788 P.2d 901, 905-907 (1990).
“The employer is stripped of his common law
defenses and for practical purposes the inquiry in
these cases today rarely presents more than the single
question whether negligence of the employer played
any part, however small, in the injury which is the
subject of the suit. The burden of the employee is met,
and the obligation of the employer to pay damages
arises, when there is proof, even though entirely
circumstantial, from which the jury may with reason
make that inference.” Rogers v. Missouri Pac. R.R.,
352 U. S. 500 (1957); see also Ayers v. Norfolk &
Western Ry., 538 U. S. 135 (2003); CSX Transp. v.
McBride, 131 S. Ct. 2630 (2011).
The defendant is not entitled to apportion the
injury to non-railroad causes. “To require apportionment would put that provision in tension with the rest
of the statute. The Act expressly directs apportionment of responsibility between the employer and the
employee based on comparative fault. The statute
expressly prescribes no other apportionment.” Ayers,
supra at 538 U. S. 135 (2003). Arguments by railroads
that the FELA “concerns only division of responsibility among multiple factors, and not causation more
generally, misses the thrust of Supreme Court directives.” McBride, supra at 2639. The “any part” test
[of the FELA] is the “single inquiry in determining
causation in FELA cases.” Id.
12. Liability was and is reasonably clear in Mr.
Dannels’ case. A reasonable investigation based upon

133a
all available information would have shown the
requirements of the FELA had been satisfied and,
therefore, damages were due. BNSF was negligent for
injuring Mr. Dannels because it had knowledge the
work tasks it assigned him carried a high risk for
causing cumulative trauma injury. Both before and
after hiring Mr. Dannels, BNSF received warnings
from the Association of American Railroads [“AAR”]
that track workers were suffering career-ending back
injuries due to hazardous exposures to physical risks
associated with their jobs. The AAR specifically stated
that jobs such as lifting and carrying 200-pound spike
kegs, ties and similar material and equipment were
causing the spinal injuries and therefore, should not
be assigned to track workers. Likewise, the shock and
vibration from poorly designed or maintained track
and construction vehicles were causing cumulative
trauma injury. BNSF was warned that its workers
would not realize their jobs were causing permanent
injury because the progression to a painful injured
condition would occur gradually over a number of
years. When serious and long-lasting pain first
manifested itself, it would be too late to prevent
disability. BNSF knowingly overexposed Mr. Dannels
to the physical work that causes cumulative injury to
the spine. This eventually disabled him and has led to
chronic pain.
13. In internal documents, BNSF acknowledged
its workers were sustaining serious injuries because
they were being overexposed to cumulative trauma
risks. BNSF’s safety expert characterized the risks as
the “seven no-no’s.” They were causing a large percentage of BNSF’s injuries. Because they were cumulative trauma injuries, the final event which precipitated disability was characterized as the “straw that
broke the camel’s back.” Mr. Dannels was overexposed

134a
to these “seven no-nos” over most of his 20-year career
and was ultimately disabled by an event which might
be characterized as the “straw that broke the camel’s
back.”
14. BNSF’s injury and claims records, both before
and during Mr. Dannels’ 20-year career, demonstrated BNSF trackmen were sustaining a high
number of disabling cumulative trauma injuries due
to exposures to risks similar to those BNSF exposed
Mr. Dannels to. For many years, BNSF acknowledged
liability by paying damages through settlements and
verdicts in many cumulative trauma cases.
15. The medical literature has also been clear
over Mr. Dannels’ career that the types of stresses in
his workplace carried a high risk of eventually
disabling him. BNSF is charged with knowledge of
this information.
16. It is also reasonably clear BNSF was liable for
negligently causing the collision with the wellhead in
March 2010. It was aware that other BNSF workers
had struck concealed hazards buried under snow and
therefore, it was necessary to remove hazards or flag
them with a warning, if the hazards were to be
concealed. It did neither in Mr. Dannels’ situation. It
also failed to train its workers who had plowed the
snow to avoid covering hazards or to at least put up a
warning flag or cone if they did conceal something
that could cause a collision. Again, BNSF did neither
in Mr. Dannels’ case. Furthermore, BNSF had
equipped some of its loaders with shoulder harnesses
so if the operator struck something, his or her spine
would be protected. BNSF, however, failed to install a
shoulder harness in Mr. Dannels’ bobcat loader. This
caused the collision and injury at least in part and

135a
therefore, under the standards of the FELA, BNSF
would be held liable.
17. Therefore, a reasonable investigation based
upon all available information by BNSF early on
would have revealed it was liable for the injuries Mr.
Dannels sustained. Under this situation, both BNSF
and its claims personnel assigned to Montana had
legal duties to resolve claims fairly and in good faith.
This duty is imposed against both BNSF and its claims
personnel through Montana common law and statutory law at §§ 33-18-201, et. seq., MCA; Reidelbach v.
Burlington Northern and Santa Fe Ry. Co., 2002 MT
289; O‘Fallon v. Farmers Ins. Exch., 260 Mont. 233,
859 P.2d 1008 (1993). The common law and statutory
duties owed Mr. Dannels include:
• to promptly respond to Mr. Dannels’ communications with respect to his claim;
• to adopt and implement reasonable standards
for the prompt investigation of his claims;
• to promptly pay his claims after conducting a
reasonable investigation based upon all available information;
• to attempt in good faith to effectuate prompt,
fair and equitable settlement of his claims in
which liability has become reasonably clear,
including paying injury-related expenses and
lost wages as they occurred;
• to make a reasonable offer to settle so Mr.
Dannels would not be compelled to file an
expensive, time-consuming and stressful
lawsuit to recover damages for his injuries;

136a
• to provide a reasonable explanation for the
denial of his claims or for the failure to offer a
compromise settlement; and
• to avoid attempting to influence a settlement
by refusing to pay wage losses and similar
losses which are reasonably clear.
The practices the defendants employed against Mr.
Dannels, however, violated these duties.
18. Because of Mr. Dannels’ injuries, BNSF
discontinued his employment in May 2010, two
months after he was injured and thus, ended Mr.
Dannels’ work activities which were engaged in
interstate commerce. At that point, its common law
and statutory duties with regard to settlement of
claims commenced. This included its duty to promptly
pay Mr. Dannels’ lost wages since liability was
reasonably clear. Ridley v. Guarantee Ins. Co., 286
Mont. 325, 951 P.2d 987 (1997). BNSF, however,
breached this duty by failing and refusing to do so. It
continued
to
refuse
to
pay
his wages even after a jury determined BNSF was
negligent in causing the loss and a judgment was
entered thereon. This refusal to pay lasted for almost
three years and caused Mr. Dannels considerable and
severe mental distress.
19. With nothing being done by BNSF, Mr.
Dannels sought legal assistance in the early fall of
2010. BNSF was then contacted to see if it wanted to
discuss the best way to proceed. BNSF was not
responsive and suit was then filed on December 10,
2010.
20. The litigation would extend for another two
years. BNSF’s medical consultant admitted Mr.
Dannels was injured by the collision with the pipe, but

137a
BNSF still failed to pay any of his lost wages. BNSF
was notified that Mr. Dannels was having a difficult
time financially. Requests were made that BNSF
consider providing him with a temporary job within
the limitations of his injuries to alleviate his financial
worries. BNSF failed to respond. The Court ordered
that the parties engage in settlement mediation.
BNSF’s offer at the conference was a small fraction of
Mr. Dannels’ reasonable damages. BNSF refused to
negotiate further or to accept the reasonable offer
made by Mr. Dannels. BNSF contended it could
rehabilitate Mr. Dannels, but refused to agree that if
the rehabilitation were unsuccessful, Mr. Dannels
would have a right to have his true damages determined by a jury. Because BNSF continued to violate
its duty to effectuate a prompt, fair and equitable
settlement, the resolution of Mr. Dannels’ claims has
been delayed for years, causing additional mental
distress and expenses.
21. Jury trial was set for February 4, 2013. Mr.
Dannels continued to attempt to fairly resolve his
claims, but BNSF continued to refuse to engage in
reasonable settlement negotiations in violation of its
duties under Montana law.
22. The jury determined BNSF had negligently
caused Mr. Dannels’ injuries. It found Mr. Dannels
was not negligent in causing any of his injuries. It
awarded damages in the amount of $1.7 million.
Judgment for this amount was entered on February
15, 2013. BNSF’s motion for a new trial was denied.
23. After the verdict and judgment, Mr. Dannels
made a written request to BNSF claims representative Nancy Ahern for BNSF to pay the lost wages
which were due. He explained this was required under
Montana law. BNSF refused.

138a
24. Rather than pay clearly due losses of
earnings, BNSF chose to leverage Mr. Dannels’ claims
for lost wages and retirement benefits against his
claims for damages under the FELA. Leveraging
claims in this manner is a direct violation of the duty
of good faith in claims settlement practices as
required by Montana law under both the statute and
case law. See Ridley, supra. Specifically, just before
suit was filed, BNSF offered to admit that Mr.
Dannels was eligible for railroad retirement benefits
and would submit paperwork to the retirement board
to that effect, but only if Mr. Dannels would settle all
of his FELA claims for a small proportion of the
damages which were reasonably due him. Mr. Dannels
refused to submit to this illegal leveraging. BNSF’s
tactic caused additional and unnecessary emotional
distress and hardships.
25. After the jury returned a verdict showing Mr.
Dannels was eligible for railroad disability, Mr. Dannels
sent a written request to BNSF asking that it
acknowledge this fact and so notify the retirement
board so Mr. Dannels could commence receiving the
disability benefits which were clearly due him and his
distress could be alleviated. BNSF refused and
thereby further acted in bad faith in violation of its
statutory and common law duties, causing further
emotional distress and hardships for Mr. Dannels. See
letters, Attachments 1 and 2.
26. BNSF also violated its common law and statutory duties under § 33-18- 201(3), MCA, which require
it to “adopt and implement reasonable standards
for the prompt investigation of claims.” Rather than
employ reasonable standards, BNSF implemented
standards designed to evade liability and inflict
additional injury and stress upon Mr. Dannels.

139a
27. As a result of BNSF’s multiple and intentional
violations of its common law and statutory duties of
good faith and fair dealing regarding claims, supra,
Mr. Dannels suffered mental distress and expenses,
and his right to damages was delayed for years.
Therefore, BNSF is liable for all damages allowed by
law caused thereby.
COUNT II
CLAIM FOR PUNITIVE DAMAGES
AGAINST BNSF
28. The plaintiff repleads all that is stated above
and for his next claim against defendant BNSF hereby
alleges and states:
29. BNSF’s practices against Mr. Dannels constitute actual fraud and malice as defined under § 27-1221, MCA, and therefore, it is subject to punitive
damages under § 27-1-220, MCA. BNSF has routinely
instigated these same illegal and deceitful settlement
practices against other injured workers in order to
pressure them into compromising their claims for less
than reasonable damages.
30. The illegal acts and omissions of the defendant are undertaken as a regular course of conduct
against Montana railroad workers in general and are
motivated to discourage claims and to avoid
accountability for paying full damages.
31. The plaintiff, therefore, requests that the jury
award reasonable punitive damages in order to punish
and deter the defendant, BNSF, from engaging in this
type of conduct to the detriment of the people it has
wrongfully harmed.

140a
COUNT III
CLAIM AGAINST BNSF ADJUSTER AHERN
32. The plaintiff repleads and incorporates all
that is alleged above and for his claim against the
defendant, Nancy Ahern, hereby alleges and states as
follows:
33. The defendant, Nancy Ahern, is a senior
claims representative of the BNSF. Her job duties
include investigating, adjusting and settling claims
made by injured BNSF railroad workers in Montana.
She also assists in carrying out litigation strategies
against Montana BNSF workers. She has 20 years of
experience working for BNSF as a claims representative in Montana. She is charged with knowledge of
Montana law, including her obligations to implement
and carry out investigations and settlement practices
in good faith in order to effectuate prompt, fair and
equitable settlement of claims and to avoid conduct
which causes delay, unnecessary hardships, mental
distress and expenses. The obligation of a person
involved in the investigation and adjustment of claims
to follow this law has long been recognized in Montana
both under statute and court decisions. See O’Fallon
v. Farmers Ins. Exch., supra; Reidelbach, supra.
34. The defendant Ahern was the BNSF claims
adjuster assigned to Mr. Dannels’ claims. She violated
several of her legal duties. She knew or should have
known liability was reasonably clear, given her experience in these matters for close to 20 years and her
duty to conduct a prompt and reasonable investigation based upon all available information. She did not
respond to inquiries from Mr. Dannels. She made no
effort to promptly and fairly investigate and pay his
claim. She made no effort to pay Mr. Dannels’ lost

141a
wages after BNSF dismissed him in May 2010. She
performed a superficial investigation designed to exonerate BNSF and shift the blame onto Mr. Dannels.
After Mr. Dannels retained counsel, she failed to
respond to Mr. Dannels’ request to discuss the claim.
35. After suit was filed, defendant Ahern took
steps to impede Mr. Dannels’ investigation. Among
other things, she sent a certified letter to Mr. Dannels’
attorney forbidding him from “communicat[ing] or
encourag[ing] others to communicate about the [claim]
with any other BNSF employees.” Mr. Dannels and
his counsel, however, have a legal right to communicate with BNSF employees concerning FELA claims.
She was BNSF’s representative at the court-ordered
mediation, but refused to make a reasonable offer or
to engage in reasonable settlement negotiations. She
attended the trial and heard the evidence and verdict.
She was requested after the judgment to have Mr.
Dannels’ lost wages paid as required by Montana law,
but refused.
36. Defendant Ahern’s violation of her legal
investigatory and settlement duties as set forth above
caused Mr. Dannels to suffer mental distress and
expenses.
COUNT IV
CLAIM AGAINST JOHN DOES 1 THROUGH 10
37. The plaintiff repleads and incorporates all
that is alleged above and for his claim against John
Does 1 through 10 hereby alleges and states:
38. As stated above John Does 1 through 10 are
other BNSF agents who participated in the acts and
omissions taken against Mr. Dannels in connection
with his claims. This includes, but is not limited to
defendant Nancy Ahern’s supervisors, some of whom

142a
resided in Montana and some of who do not. Like all
agents and claims personnel, who engage in claims
practices in Montana, they are subject to Montana
laws requiring the prompt and fair investigation and
resolution of claims.
39. Rather than adopt and implement adjustment
and settlement procedures designed to bring about
the prompt and fair resolution of claims when liability
was reasonably clear, the John Does 1 through 10
implemented claims procedures against Mr. Dannels
designed to discourage and pressure him into an
unfair settlement. This included refusing to engage in
any meaningful settlement discussions even though
Mr. Dannels’ claim was reasonably clear. As a result,
Mr. Dannels suffered mental distress, unnecessary
delay and expenses.
COUNT V
CLAIM AGAINST BNSF
INSURANCE COMPANY
40. The plaintiff repleads and realleges all that is
stated above and for his first claim against BNSF
Insurance Company hereby alleges and states:
41. As an insurance company and “person”
involved in the business of insurance and adjusting
claims in Montana, the defendant BNSF IC owes
claimants the duty to handle their claims fairly,
promptly and in good faith. BNSF IC is subject to the
statutory and common law duties and obligations set
forth in Montana’s Unfair Claims Settlement
Practices Act at § 33-18-201, MCA et. seq.
42. BNSF IC violated its duties to fairly settle Mr.
Dannels’ claims. It was a participant in and responsible for unfair practices employed against Mr. Dannels
which are set forth above. Liability was reasonably

143a
clear as explained above. Mr. Dannels’ claim should
have been resolved promptly and fairly without
causing unnecessary mental stress, delay and expenses.
Had BNSF IC complied with its obligations of good
faith, Mr. Dannels would not have suffered these
damages.
43. BNSF IC failed to adopt and implement
reasonable standards for investigating and settling Mr.
Dannels’ claim and therefore, violated Montana’s
Unfair Settlement Practices Act in this regard as well.
Had BNSF IC adopted reasonable. standards, Mr.
Dannels’ claim would have been promptly resolved for
reasonable compensation rather than being dragged
out for several years with the result that Mr. Dannels
unnecessarily suffered mental distress and other
damages.
44. The illegal acts and omissions of the defendant are undertaken as a regular course of conduct
against Montana railroad workers in general and are
motivated to discourage claims and to avoid accountability for paying full damages.
COUNT VI
PUNITIVE DAMAGE CLAIM AGAINST
BNSF INSURANCE COMPANY
45. The plaintiff repleads and realleges all that
is stated above and for his next claim against BNSF
IC hereby alleges and states:
46. BNSF IC’s practices against Mr. Dannels
constitute actual fraud and malice as defined under
§ 27-1-221, MCA, and therefore it is subject to punitive damages under § 27-1-220, MCA.. Employing
unfair settlement practices is a course of conduct the
defendant has employed in Montana.

144a
47. The plaintiff, therefore, requests that the jury
award reasonable punitive damages in order to punish
and deter the defendant BNSF IC from engaging in
this type of conduct to the detriment of Montanans
harmed by its wrongful conduct.
COUNT VII
MENTAL DISTRESS CLAIMS AGAINST
ALL DEFENDANTS
48. The plaintiff repleads and realleges all that is
stated above and for his next claim against all defendants hereby alleges and states as follows:
49. By their illegal acts and omissions as set forth
above the defendants singularly and together inflicted
severe mental distress on Mr. Dannels. This was
intentional and designed to discourage Mr. Dannels
from continuing to pursue his claims. It was deliberately designed to deter other injured workers from
pursuing claims against BNSF for work-related injuries.
In the alternative, the acts and omissions constituted
negligence, gross negligence and recklessness.
50. Under Montana law, it is illegal to intentionally or negligently inflict severe mental distress on a
person and therefore, the defendants are legally liable
for inflicting this injury upon Mr. Dannels.
REMEDY REQUESTED
Based upon the above, Mr. Dannels requests a jury
and the Court award all damages which are reasonable and legal under the circumstances, including but
not limited to the following:
(1) Against all defendants: All damages allowed
by law for violating Montana’s common and statutory
laws prohibiting unfair, bad faith investigation and
settlement practices and for inflicting mental distress,

145a
including damages for delay, mental distress, interest
and other expenses.
(2) Against defendant BNSF and BNSF Insurance
Company: Punitive damages for the purpose of punishing and deterring these defendants from continuing
to engage in malicious and fraudulent acts in violation
of Montana’s law to the detriment of Montana injured
railroad workers.
(3) Any and all other damages deemed legal and
appropriate under the circumstances, including attorney
fees and costs.
DATED this 31st day of December, 2013.
THUESON LAW OFFICE
/s/ Scott L. Peterson
SCOTT L. PETERSON
PO Box 280
Helena, MT 59624-0280

146a
APPENDIX G
ERIK B. THUESON
213 Fifth Avenue
PO Box 280
Helena, MT 59624-0280
Telephone: (406) 449-8200
Facsimile: (406) 449-3355
Attorney for Plaintiff
————
MONTANA EIGHTH JUDICIAL DISTRICT
COURT CASCADE COUNTY
ROBERT DANNELS,
Plaintiff,
vs.
BNSF RAILWAY
COMPANY, a Delaware
corporation,
Defendants.

Cause No. BDV-10-1119
Honorable
Julie Macek
Kenneth R. Nell
COMPLAINT AND
JURY DEMAND
[Filed: December 6, 2010]

COME NOW the plaintiff, Robert Dannels, and
hereby makes the following complaint and requests a
jury:
I.

JURISDICTION AND VENUE

1. Robert Dannels has worked for the defendant
BNSF Railway Company since 1990. He has worked
for the BNSF Railway Company and its predecessors

147a
in interest in various locations throughout Montana.
He is a citizen and resident of Montana.
2. The defendant BNSF Railway Company is a
corporation with a residency and place of business
other than Montana. Its business is operating a
railway company in interstate commerce.
3. Venue and jurisdiction are appropriate in the
Eighth Judicial District of the State of Montana. As
set forth in his claim below, the plaintiff is making a
personal injury claim for being injured in his railroad
workplace within the State of Montana. Under the
Federal Employers’ Liability Act (FELA) and state
law, venue and jurisdiction are proper within this
county.
II.

CLAIM FOR ACUTE INJURY

The plaintiff repleads all that is stated above and for
his next claim hereby alleges and states:
1. On or about March 17, 2010 at 9:00 AM, the
plaintiff Robert Dannels was operating heavy equipment for the BNSF in the railroad yard at Havre,
Montana. His job was to remove snow from the Havre
yard with a “skidster,” which is similar to a Bobcat
loader. Other BNSF personnel had piled snow up,
concealing a top of a metal well head.
2. Performing his job in the way he had been
taught, Mr. Dannels attempted to scoop up the snow.
The bucket on his skidster struck the concealed well
head causing Mr. Dannels to be violently thrown
around the cab of his skidster, which injured his spine.
3. The defendant BNSF Railway Company
negligently caused the collision by providing an
unsafe work method, an unsafe workplace and
through other unreasonable acts and omissions. It

148a
had knowledge of the hazards; it was negligent for
BNSF to pile snow over the well head, knowing that
other personnel, including Mr. Dannels, would be
attempting to remove the snow.
4. Under the FELA, 45 U.S.C. § 51, et. seq., a
railroad company which negligently causes injury to
one of its workers is responsible for damages resulting therefrom. Mr. Dannels’ spine was injured by the
collision with the well head, causing him pain and
disability. He, therefore, requests that a court and
jury award all damages appropriate under the
circumstances.
III.

CLAIM FOR CUMULATIVE TRAUMA

The plaintiff repleads all that is stated above and for
his next claim hereby alleges and states:
1. Mr. Dannels’ spine had already been weakened
by pre-existing injuries negligently caused by the
defendant over his 20-year career. The defendant’s
negligence consisted of having Mr. Dannels perform
unreasonably unsafe work, carrying extremely heavy
material and equipment, such as 200-pound spike
kegs, 200+ pound ties, working with awkward and
heavy hydraulic equipment which can weigh over 80
pounds and working with inadequate manpower. The
railroad also failed to provide Mr. Dannels with a safe
workplace and safe working methods when he worked
both as a machine operator (heavy equipment
operator) and also as a maintenance of way track
worker. This included, but was not limited to,
assignment to poorly maintained heavy equipment
with inadequate seating, obsessive shock and vibration and work activities which would increase shock
and vibration. It also included other unsafe work

149a
activities which were routine for maintenance of way
workers during the 1990s to the current date.
2. As a result of the defendant’s negligence set
forth above, Mr. Dannels’ spine was injured and weakened, making him more susceptible to injury when
he was acutely injured in March 2010 and on other
occasions when he experienced back pain on the job.
In addition, the defendant is also legally responsible
for the pre-existing condition itself, including any pain
and disability resulting therefrom.
3. The plaintiff, therefore, requests that the
Court and jury award all damages which are appropriate for the injuries occurring on March 17, 2010 and
for the damages caused by the pre-existing condition.
DATED this 2nd day of December , 2010
THUESON LAW OFFICE
/s/ Erik B. Thueson
ERIK B. THUESON
P.O. Box 280
Helena, MT 59624-0280

150a
APPENDIX H
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. art. VI, cl. 2
This Constitution, and the laws of the United
States which shall be made in pursuance therof; and
all treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land; and the judges in every state shall be
bound thereby, anything in the Constitution or laws
of any State to the contrary notwithstanding.

151a
45 U.S.C. § 51
Every common carrier by railroad while engaging
in commerce between any of the several States or
Territories, or between any of the States and Territories, or between the District of Columbia and any of
the States or Territories, or between the District of
Columbia or any of the States or Territories and any
foreign nation or nations, shall be liable in damages
to any person suffering injury while he is employed
by such carrier in such commerce, or, in case of the
death of such employee, to his or her personal representative, for the benefit of the surviving widow or
husband and children of such employee; and, if none,
then of such employee’s parents; and, if none, then of
the next of kin dependent upon such employee, for
such injury or death resulting in whole or in part
from the negligence of any of the officers, agents, or
employees of such carrier, or by reason of any defect
or insufficiency, due to its negligence, in its cars,
engines, appliances, machinery, track, roadbed, works,
boats, wharves, or other equipment.
Any employee of a carrier, any part of whose
duties as such employee shall be the furtherance of
interstate or foreign commerce; or shall, in any way
directly or closely and substantially, affect such commerce as above set forth shall, for the purposes of this
chapter, be considered as being employed by such
carrier in such commerce and shall be considered as
entitled to the benefits of this chapter.

152a
Mont. Code Ann. § 33-18-201 — Unfair claim
settlement practices prohibited.
A person may not, with such frequency as to
indicate a general business practice, do any of the
following:
...
(2) fail to acknowledge and act reasonably prompt
upon communications with respect to claims arising
under insurance policies;
(3) fail to adopt and implement reasonable standard for the prompt investigation of claims arising
under insurance policies;
(4) refuse to pay claims without conducting a
reasonable investigation based upon all available
information;
...
(6) neglect to attempt in good faith to effectuate
prompt, fair and equitable settlements of claims in
which liability has become reasonably clear;
(7) compel insureds to institute litigation to
recover amounts due under an insurance policy by
offering substantially less than the amounts ultimately recovered in actions brought by the insureds;
...

153a
(13) fail to promptly settle claims, if liability has
become reasonably clear, under one portion of the
insurance policy coverage in order to influence settlements under other portions of the insurance policy
coverage; or
(14) fail to promptly provide a reasonable explanation of the basis in the insurance policy in relation
to the facts or applicable law for denial of a claim or
for the offer of a compromise settlement.

154a
Mont. Code Ann. § 33-18-242 — Independent
cause of action—burden of proof.
(1) An insured or a third-party claimant has an
independent cause of action against an insurer for
actual damages caused by the insurer’s violation of
subsection (1), (4), (5), (6), (9), or (13) of 33-18-201.
(2) In an action under this section, a plaintiff is
not required to prove that the violations were of such
frequency as to indicate a general business practice.
...
(4) In an action under this section, the court or
jury may ward such damages as were proximately
caused by the violation of subsection (1), (4), (5), (6),
(9), or (13) of 33-18-201. Exemplary damages may
also be assessed in accordance with 27-1-221.
...
(8) As used in this section, an insurer includes a
person, firm, or corporation utilizing self-insurance to
pay claims made against them.

